<html>
<title> - IMPACT OF PILOT SHORTAGES ON AIR SERVICE TO SMALLER AND RURAL MARKETS</title>
<body><pre>[Senate Hearing 106-1143]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1143
 
 IMPACT OF PILOT SHORTAGES ON AIR SERVICE TO SMALLER AND RURAL MARKETS
=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON AVIATION

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 25, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation









                      U.S. GOVERNMENT PRINTING OFFICE

86-337                       WASHINGTON : 2003
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, DC 20402-0001














       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
               Ann Choiniere, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

                        SUBCOMMITTEE ON AVIATION

                   SLADE GORTON, Washington, Chairman
TED STEVENS, Alaska                  JOHN D. ROCKEFELLER IV, West 
CONRAD BURNS, Montana                    Virginia
TRENT LOTT, Mississippi              ERNEST F. HOLLINGS, South Carolina
KAY BAILEY HUTCHISON, Texas          DANIEL K. INOUYE, Hawaii
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                JOHN B. BREAUX, Louisiana
OLYMPIA J. SNOWE, Maine              BYRON L. DORGAN, North Dakota
SAM BROWNBACK, Kansas                RON WYDEN, Oregon
SPENCER ABRAHAM, Michigan            MAX CLELAND, Georgia
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 25, 2000....................................     1
Statement of Senator Burns.......................................    60
Statement of Senator Gorton......................................     1
    Prepared statement...........................................     2
Statement of Senator Rockefeller.................................     3

                               Witnesses

Barker, Linda, Vice President, Business Aviation Services........    49
    Prepared statement...........................................    52
Emens, Captain Paul, Chairman, Pilots Against Age Discrimination.    21
    Prepared statement...........................................    24
Inhofe, Hon. James M., U.S. Senator from Oklahoma................     3
Jacques, Stephen G., In Support of Senate Bill 1855, prepared 
  statement......................................................    26
Lacey, Nicholas L., Director, Flight Standards Service, Federal 
  Aviation Administration........................................    12
    Prepared statement...........................................    13
McElroy, Deborah C., President, Regional Airline Association.....    45
    Prepared statement...........................................    47
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     6
    Prepared statement...........................................    10
Wilkening, Robin MD, MPH In Support of Senate Bill 1855, prepared 
  statement......................................................    31
Woerth, Captain Duane E., President, Air Line Pilots Association, 
  International..................................................    16
    Prepared statement...........................................    18

                                Appendix

McCain, John, U.S. Senator from Arizona, prepared statement......    65
Woolsey, Samuel D., J.D., prepared statement.....................    66
Response to written questions submitted by Hon. Slade Gorton:
    Nicholas L. Lacey............................................    73
    Deborah McElroy (RAA)........................................    74
    Captain Duane Woerth.........................................    75















 IMPACT OF PILOT SHORTAGES ON AIR SERVICE TO SMALLER AND RURAL MARKETS

                              ----------                              


                         TUESDAY, JULY 25, 2000

                                       U.S. Senate,
                                  Subcommittee on Aviation,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:15 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Slade Gorton, 
Chairman of the Subcommittee, presiding.

            OPENING STATEMENT OF HON. SLADE GORTON, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Gorton. This hearing will come to order. This 
hearing will address a potentially significant problem 
affecting air service to rural and smaller communities. 
Although airline deregulation has been greatly beneficial for 
most consumers, there are areas of the country that struggle to 
get quality air service. Such markets tend to be fragile, 
because the airlines serving them operate on thin profit 
margins. Airlines, like most businesses, go where the customers 
are. By definition, small towns and remote communities have few 
potential passengers to offer an air carrier. As a result, air 
service tends to be infrequent and expensive.
    Air travel is no longer the luxury form of transportation 
it was before deregulation. It is a form of mass transport that 
many have grown to depend upon. That dependence seems to be 
inversely proportional to the size of the market. The smaller 
the community, the more essential air transportation can be. 
When a marginal market is adversely affected by outside 
factors, it makes the situation all the more difficult. Such is 
the case with pilot shortages.
    When speaking of such shortages, it is important to be 
clear, there are many pilots in the United States, and many 
more individuals who want to be pilots. The problem arises when 
an airline cannot find qualified and trained pilots.
    Major airlines have almost no difficulty finding such 
pilots. The big air carriers offer salaries, benefits, and 
career opportunities that make recruiting relatively easy. With 
the domestic economy doing well over the past few years, the 
Nation's airlines have been growing significantly, causing the 
industry to hire a considerable number of pilots.
    The heavy demand for pilots by the major airlines has a 
significant impact on regional airlines because the majors 
frequently poach the flight crews of the regionals. Although 
major airlines have always hired pilots away from small air 
carriers, the current rate of attrition may be greater than 
ever before.
    There are numerous reports of how pilot attrition among 
smaller carriers has caused canceled flights. That is why 
Senator Burns and others have become deeply concerned. Senator 
Burns chaired a field hearing in Montana last year that began 
exploring this problem. Since that time, it does not appear 
that the situation has changed, except perhaps to get worse.
    Although my State of Washington has remote towns, we are 
fortunate to have quality air service at major airports in both 
the western and eastern parts of the State. Other States do not 
have that luxury. Potential solutions to this problem are not 
clear. I know that Senator Murkowski has introduced a bill 
intended to ease the situation. He proposes changing the 
mandatory retirement age of pilots from 60 to 65.
    The so-called age 60 rule has been controversial since it 
was first adopted in 1959. The question of how old is too old 
is not easily answered. Any age restriction is going to be 
arbitrary to some degree. Changing the age 60 rule would 
undoubtedly expand the pool of potential pilots, but we must be 
careful not to do so if it increases the risk of flying for the 
public.
    I look forward to hearing more about the problem and 
potential solutions from our witnesses. I thank Senator Burns 
for requesting this hearing. He deserves a great deal of credit 
for bringing this issue to national attention on behalf of his 
constituents and the many others affected by the problem.
    We have two Senators to start us out. Senator Inhofe is 
here. Senator Inhofe is a noted pilot, and he is welcomed now 
as our opening witness. Oh, excuse me. Senator Rockefeller is 
here, who is the Ranking Member of this Subcommittee, and so if 
I may I will defer to him for any statement he may have.
    [The prepared statement of Senator Gorton follows:]

               Prepared Statement of Hon. Slade Gorton, 
                      U.S. Senator from Washington
    This afternoon's hearing will address a potentially significant 
problem that is affecting air service to rural and smaller communities. 
Although airline deregulation has been greatly beneficial for most 
consumers, there are areas of the country that struggle to get quality 
air service. Such markets tend to be fragile because the airlines 
serving them operate on thin profit margins. Airlines, like most 
businesses, go where the customers are. By definition, small towns and 
remote communities have few potential passengers to offer an air 
carrier. As a result, air service tends to be infrequent and expensive.
    Air travel is no longer the luxury form of transportation that it 
was before deregulation. It is a form of mass transit that many have 
grown to depend upon. That dependence seems to be inversely 
proportional to the size of the market. The smaller the community, the 
more essential air transportation can be. This is especially the case 
in the western United States where small towns can be separated by 
great distances. When a marginal market is adversely affected by 
outside factors, it makes the situation all the more difficult. Such is 
the case with pilot shortages.
    When speaking of such shortages, it is important to be clear. There 
are many pilots in the United States, and many more individuals who 
want to be pilots. The problem arises when an airline cannot find 
qualified and trained pilots. Major airlines have almost no difficulty 
finding such pilots. The big air carriers offer salaries, benefits, and 
career opportunities that make recruiting relatively easy. With the 
domestic economy doing well over the past few years, the nation's 
airlines have been growing significantly, causing the industry to hire 
a considerable number of pilots. The heavy demand for pilots by the 
major airlines has a significant impact on regional airlines because 
the majors frequently ``poach'' the flight crews of the regionals. 
Although major airlines have always hired pilots away from smaller 
carriers, the current rate of attrition may be greater than ever 
before.
    There are numerous reports of how pilot attrition among smaller 
carriers has caused canceled flights. That is why Senator Burns and 
others have become deeply concerned. He chaired a field hearing in 
Montana last year that began exploring this problem. Since that time, 
it does not appear that the situation has changed, except perhaps to 
get worse. Although my home State of Washington has remote towns, we 
are fortunate to have quality air service at major airports in the 
western and eastern parts of the State. Other States do not have that 
luxury.
    Potential solutions to this problem are not clear. I know that 
Senator Murkowski, who will be speaking in a moment, has introduced a 
bill intended to ease the situation. He proposes changing the mandatory 
retirement age for pilots from 60 years of age to 65. The so-called Age 
60 Rule has been controversial since it was first adopted in 1959. The 
question of how old is too old is not easily answered. Any age 
restriction is going to be arbitrary to some degree. Changing the Age 
60 Rule would undoubtedly expand the pool of potential pilots, but we 
must be careful not do so if it increases the risk of flying for the 
public.
    I look forward to hearing more about the problem and possible 
solutions from our witness. Also, I thank Senator Burns for requesting 
this hearing. He deserves much credit for bringing this issue to 
national attention on behalf of his constituents and the many others 
who are affected by the problem.

          STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. I will be very brief. This is 
important, and controversial. I have not yet taken a position 
on this whole question of age 60 or whether to raise it. The 
issue began in 1959. It is controversial. We do know that 
people are not the same today, physically and in other ways, 
then they were in the late 1950's when the rule was first 
passed. Medicine has helped to change that. I understand the 
union position. There are tensions within the pilot groups. 
First, we should do no harm, and second we should be aware of 
what is happening in life.
    Senator Gorton. Senator Inhofe.

              STATEMENT OF HON. JAMES M. INHOFE, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Inhofe. Thank you, Mr. Chairman, and I think what 
Senator Rockefeller said is right, this is important, it is 
controversial, and I fail to see sometimes why it is. I know it 
is important because of the shortages and some of the things 
that I will refer to here in a very brief statement.
    I do want to thank you, Mr. Chairman, for allowing me to 
share with you my views on this issue. You know, I do come with 
some degree of, I guess, bias, and I have to admit that I 
changed my views. When this issue first came up to my 
attention, anyway, it was back when I was in the House in 1987. 
Now, in 1987, let's see, I would have been 52 years old. It 
happens that I am 65 years old now, so my views have changed a 
little bit.
    There is something else that has changed also that I want 
to share with you in just a minute.
    First of all, the advances in medicines which have 
essentially slowed down the aging process and the fact that in 
life-threatening situations experience is a key to safety. I 
fail to understand why at an arbitrary age a pilot is deemed no 
longer able to safely fly. I am not sure anyone knows when that 
occurs, but if I had my choice I think I would use some of the 
tests that have been taken to determine someone's capability, 
as opposed to just an arbitrary age. Short of that I would go 
ahead and move it to 65, or maybe a little bit higher, with 
some physical tests along the way.
    I am not alone in my view. James Goodwin, chairman and CEO 
of United Airlines, has noted, and I am quoting now, ``As an 
industry we are going to have to relook how we source pilots. 
The factories we have relied on to produce these people are not 
producing them in the same numbers.'' And then Richard Branson 
of Virgin Atlantic Airlines has said, ``It is an incredible 
waste of talent and training to force these pilots to retire.''
    Now, Mr. Chairman, I chair the Senate Armed Services 
Subcommittee on Readiness, and I have to take some note of the 
comment of Mr. Goodman that ``factories'' used to produce 
commercial airlines--I assume that we are talking about the 
factories called the Air Force, the Navy, and Marines--are not 
producing enough. I am troubled by his remarks, because we have 
another problem that is unrelated to this but is directly 
affected by it, and that is our shortages of critical MOS's in 
the military.
    Right now I contend, and George Tenant, who is the Director 
of Central Intelligence, agrees with me, that we are in the 
most threatened position in America that we have been in as a 
Nation in the history of this country, and one of the reasons 
is, we are losing a lot of our talented people.
    Right now we have a sad shortage in pilots. The amount of 
money our taxpayers have to pay to train a pilot for the 
services ranges between $5 and $9 million for each one, and yet 
our retention of pilots in the Navy alone, it is down below 20 
percent.
    Now, you know, it is a lot cheaper to retain than it is to 
retrain, so we are going out there where the airlines are going 
after these individuals, and it makes it very difficult from a 
taxpayer's perspective in trying to keep the number of pilots, 
active pilots on duty.
    One of the other problems I see is that some airlines I 
believe are lowering some of their requirements. One airline 
has reduced by one-third the minimum flying hours for 
applicants from 1,500 hours of which 300 hours had to be in a 
multiengine plane to 1,000 hours, of which 200 hours have to be 
multiengine.
    In other words, each group has been reduced by about a 
third, and while I am not suggesting that safety is necessarily 
affected by these decisions, you have to wonder if safety is 
enhanced in any way, by younger pilots less experienced pilots. 
Allow me to give a personal example, I taught all my kids to 
fly. They are good pilots, and they have more hours right now 
than a lot of the airline pilots have, and yet some of the 
things that they could come up against, they are not 
experienced enough to handle.
    I would suggest that there is no scientific data to support 
any conclusion to the question of how old is too old for a 
commercial airline, or perhaps more precisely, when does age 
necessarily mean that a person is no longer able to safely 
pilot a commercial airplane, and while a good question to ask, 
the fact of the matter is that the answer is not the same for 
everyone. I do not believe that I am breaking any new 
scientific ground by stating that each individual ages 
differently.
    I have a good friend that is the same age that I graduated 
from high school with. He was old in high school, Senator 
Rockefeller. A lot of people are born old, so age itself should 
not be the determining factor.
    Susan Baker, a professor at Johns Hopkins University School 
of Hygiene and Public Health, who served on the panel of 
experts appointed by the FAA to look at the age 60 rule and its 
correlation to health, has noted that--and this is a quote--
``there are far better predictors that age to indicate whether 
a pilot is likely to be suddenly incapacitated by a heart 
attack. These include stress tests and other noninvasive tests 
that have been in standard use since the 1980's, as well as 
more recent tests such as the measurement of C-reactive 
protein.''
    Ms. Baker further states that surprisingly enough the FAA 
does not require any of these types of medical exams for 
assessment of pilots. She concludes that since there are more 
reliable tests than mere age available, the rule has nothing to 
do with age, and I agree. If I had my preference, the life span 
of a commercial pilot on duty should be related to tests more 
than age alone. However, if they are unable to do that I would 
jump it to 65 in a heart beat.
    I mentioned that I have had a lot of experience. I have 
over 8,000 hours and over 45 years in flying. I am an active 
commercial pilot today. I had the occasion to recently fly a 
small Cessna aircraft around the world, where I replicated the 
flight of Wiley Post and ended up going across Senator 
Murkowski's State of Alaska, and encountered situations that 
only experience kept me alive.
    One was going over Glacier National Park, going into a 
cloud bank and having to rely totally on the GPS, and I 
mentioned my sons a minute ago. They are good pilots, but I am 
not sure they would have been able to handle that.
    One last experience, and then I will conclude, and since I 
am not in a hurry and I want to hear what Senator Murkowski 
says, and I will stay around for questions if there are any. A 
year ago last month I had an experience, when President Clinton 
was coming to visit damage in Oklahoma after our tornado. I 
know it comes as a shock to these panel members to hear this, 
but I have not historically been one of the biggest fans of 
Bill Clinton, and so there was some speculation that I would be 
the only member of the Oklahoma delegation not to show up at 
Tinker Air Force Base when he came. I was not going to let that 
happen.
    I live on a little grass strip at a lake, and it had rained 
the night before so I could not take my big airplane I would 
normally take, the big twin. I brought my kids' plane, a little 
Grumman Tiger.
    I remember taking off and going toward Tinker Air Force 
Base, and I recall so well going over Claremore, the birthplace 
of Will Rogers, the airport there, and hearing some roughness. 
When you get roughness in a reciprocal engine, it is either 
something wrong with your prop in terms of balance, or 
something chipped off of it, or it's a mag. I did a mag check 
only to find out it had to be the prop.
    Well, normally I would have landed, but I thought, well, 
they are speculating I was not going to show up, and I did not 
want to be the only member of the delegation to snub the 
President, so I kept flying, and 5 miles, 6 miles to the West 
of Claremore, Oklahoma, there is an explosion, and not just my 
prop but the whole front end of this airplane came off, and it 
fell to the ground, 2,500 feet.
    Now, it is a single-engine airplane. You do not have a 
front end to it, and I was by myself, fortunately, and what 
happens, as you folks know since you are on this Committee, 
there is a thing called weight and balance. You take 300 pounds 
off of the front of an airplane and the tail starts to go down, 
and the only way to keep flying is to drop the nose down, hold 
it down, and glide as far as you can.
    I was able to do a very radical slip and land safely, 
although it did crash, into Claremore Airport, and it would not 
have crashed, except what I did not know was, when the prop and 
all that stuff came off, it also took the nose wheel off, and 
so when I landed--I think that is pretty good landing--I put 
the nose down, and that was the end.
    Now, I would say this, and I say this in all sincerity. 
That was my kids' plane. I have not flown that plane in a long 
time, but with their level of experience, which is equal in 
terms of flying hours to many, if not most of the commercial 
airline pilots, I do not think my children, flying that plane, 
would be alive today if they had been in it, and I am only 
because of experience.
    I say this because there is something to be said about 
years of experience. They cannot be made up with tests. They 
cannot be made up with training. It is something that comes 
just with experience, and so I would think and conclude, Mr. 
Chairman, that if you had a way of determining what a person's 
physical capability was, and the fact that that person was not 
going to have a heart attack, and you have the tests to do 
this, which we now have available to us today, that age should 
not be that determinant, and you should not be forced to give 
up the experience that could save lives tomorrow.
    Thank you, Mr. Chairman.
    Senator Gorton. Thank you, Senator. Quite a story, isn't 
it?
    Senator Murkowski, the sponsor of the bill.

             STATEMENT OF HON. FRANK H. MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Gorton, 
Senator Rockefeller. I very much appreciate your willingness to 
hold these hearings, and I am very pleased that I could testify 
on my bill, Senate bill 1855, allowing part 121 pilots to fly 
up to the age of 65. I personally think that there is an 
inevitability associated with this legislation, but I believe 
the time is now, not later.
    I certainly want to thank my cosponsors, Senator Inhofe, 
Senator Enzi, Senator Allard, Senator Thomas, Senator Bond, 
Senator Grassley. There were others that were on for a while, 
but I think some of the persuasion of the pilots union caused 
them to remove their names, but nevertheless, that is part of 
the democratic process, and I certainly understand that, and I 
want to thank the hundreds of pilots that have called, and 
particularly Herb Kelleher, chairman of Southwest Airlines, Roy 
Rasavage, president of the Helicopter Association 
International, Richard Haverley, president of Florida West, to 
name a few.
    I think, Mr. Chairman, adoption of this legislation would 
have a significant impact on the issue before you, and that is 
the quality and quantity of air service, particularly to 
America's rural communities. Quite frankly, as we know, there 
is a serious pilot shortage in America, and its greatest impact 
is being felt in rural communities, including my home State of 
Alaska.
    I fly a lot in Alaska, and I can tell you, experience 
counts, and seniority associated with that experience is the 
name of the game, because that is how you get the experience. I 
grant you, there are exceptions, but for the most part when I 
fly with an older pilot the years of experience that that pilot 
has had, given any situation such as Senator Inhofe talked 
about, where you have something suddenly happen, and this 
individual has experienced that, you do not feel good about it, 
but you feel you are probably in the best hands available.
    So I feel strongly that this seniority gained by years of 
flying should not suggest that there is some magic that occurs 
at 60 to terminate the ability of that person, assuming they 
can pass the necessary physical tests to continue to fly and 
make a contribution, if, indeed, they want to.
    What we are talking about here is a simple matter of 
choice, and I have heard from many small Alaska carriers of the 
difficulty they are having keeping pilots, and even finding 
pilots to hire. One carrier in my home town of Fairbanks has 
asked that I consider changing the HBI visa status of pilots so 
he can hire pilots from Canada. Well, is that what we want to 
have happen?
    As you all know, pilots are leaving the small carriers, 
regionals and flight schools because they can earn more money 
flying for the major commercial air carriers. This has had a 
devastating effect on service to rural and remote areas because 
the smaller carriers just do not have the financial resources 
to compete with the offers of the major airlines.
    AirB12 Jet News reports that United Airlines is hiring more 
pilots and fine-tuning their flight schedules to compensate for 
a continuing shortage of crews that has forced flight 
cancellations. Well, just having bounced in and out of Seattle 
this last weekend I can talk about flight cancellations and 
spending a night in Denver and flying on one of the airlines 
that I have already mentioned, so I think the public is 
beginning to experience the inconvenience associated with this, 
and pilot shortage is part of it.
    Let me quote from that article. I quote, pilots are not 
calling in sick and not refusing regular assignments. United 
was advised 6 to 9 months ago they were going to be short of 
pilots, and now it is happening, according to James Goodwin, 
chairman and CEO of United Airlines Corporation. In fact, 
according to Goodwin, quote, the age rules will have to be 
reexamined. Now, that is certainly a source. The factories we 
relied on to produce these people are not producing them in the 
same numbers.
    Mr. Chairman, our military used to be the largest supplier 
of pilots to commercial airlines, but even the armed forces are 
experiencing a critical shortage, as you have indicated, 
Senator.
    Another reason there is a pilot shortage in rural markets 
is the 1996 commuter rule, which required age 60 retirement of 
pilots who flew scheduled routes in aircraft with a capacity of 
10 or more seats.
    Well, Mr. Chairman, it has been 41 years sine age 60 was 
selected as a mandatory retirement age. Why age 60, for 
heaven's sakes? When is the last time we looked at it? Are 
things different now? The aircraft are certainly different. 
Ground and air traffic control and traffic are entirely 
different.
    It is one thing to be flying in a DC-4, fighting ice and an 
engine and doing a half-dozen other things, as compared to 
flying a 737 at 34,000 feet and you basically have a lot more 
systems, and a lot more dependability than they had back when 
this 60 age was set.
    Now, according to the FAA it was set because of medical 
uncertainties concerning pilot health after age 60. There are 
several other theories. While public comments were accepted, 
and this is important, no public hearings were held to debate 
the issue, ever. Despite broad industry and pilot opposition to 
the mandatory retirement age, the rule went into effect back in 
1960.
    Well, I say it is time to change the rule. Since then there 
have been several studies, sponsored by the FAA, but none of 
the tests have produced concrete evidence that pilots over 60 
years of age are a threat to the flying public. In fact, most 
of the studies have not even studied pilots over 60. However, 
the FAA has missed several opportunities to get first-hand 
information and has let other opportunities lapse. Let me share 
a couple of examples with you.
    The 1996 commuter rule made special provisions to allow 
pilots who were then flying to continue to fly for 4 more 
years, at which time the age 60 rule would have become 
effective. Well, commuter airlines were also allowed to 
continue to hire pilots 60 and older for another 15 months. The 
FAA had 4 solid years to test pilots flying over the age of 60 
around this country, get scientific data on the skills and 
reflexes of these pilots. However, the FAA did not conduct such 
studies. Why?
    Second, litigation was brought by the Equal Employment 
Opportunity Commission under the age discrimination Employment 
Act against Boeing, Rockwell International Grumman-Lockheed, 
and McDonnell-Douglas challenging their policies of removing 
pilots at the age of 60.
    All of these companies resolved EEOC litigation by entering 
into consent decrees lifting the age limit. Part of the decree 
was to keep records of pilot health. Where are the records? 
What was the purpose of keeping the information? Where is the 
FAA on this question?
    The Hilton study concluded FAA accident reports did not 
support the agency's requirement that airline pilots retire on 
their 60th birthday. They found no increase in the accident 
rate for pilots of scheduled air service as they neared their 
60th birthday.
    Mr. Chairman, the FAA administration believes it lacks 
scientific consensus in favor of changing the age rule of 60. 
The argument exists that there is no test that can determine 
the medical and psychological fitness of a pilot to fly after 
60. Well, I say, come on, get off of it. Be realistic.
    According to Dr. Robin Wilkening, who I believe is in the 
audience, and I apologize if I have mispronounced the name, and 
Sue Baker, both from Johns Hopkins University, advanced 
psychological and neurobehavioral testing methods do exist to 
test pilots of any age. Medical science, as we know, has vastly 
improved since 1959, with improvements in medical diagnosis, 
which include early detection and prevention, health awareness, 
exercise, and diet. All of these factors have increased life 
expectancy, certainly since 1959. In fact, 69 pilots organized 
and underwent extensive medical testing to force the FAA to 
drop the mandatory retirement. They still await a decision to 
their petition. Why, Mr. Chairman?
    In supporting documents to their petition in 1982 the FAA 
relaxed its medical requirements to allow airmen to continue 
flying with various medical problems not previously acceptable. 
For example, pilots with hypertension, diabetes, alcoholism, 
spinal cord injury, defective vision and others. In the area of 
cardiovascular special issuances, the American Medical 
Association applauded the FAA as having demonstrated an 
understanding of the advances in diagnostic treatment and 
rehabilitation.
    In 1999, the FAA granted medical certificates to 6,072 
airline pilots under the age of 60 who had significant medical 
pathological problems, permitting them to operate as airline 
crewmen. How does the FAA derive its medical consensus that it 
is safe to allow those pilots to continue to fly, and it cannot 
derive the same for pilots who have been flying in this country 
for 41 years without such medical pathology over age 60?
    Mr. Chairman, last year 25 countries belonging to the 
European Joint Aviation Authority raised the mandatory age to 
65, joining many Asian countries, who increased the age to 63, 
or 65. I know of no evidence that those foreign pilots have a 
worse safety record than American pilots under the age of 60.
    If we do not seriously look at raising retirement age for 
part 121 pilots, I can assure you that many rural communities 
will find that their aviation lifeline to the rest of the 
country will be shut down or severely hampered. Residents 
perhaps of New York City, Los Angeles, and Chicago will not 
notice any change in air service, but the pilot shortage will 
deeply affect the residents of Missoula, Montana, or Ketchikan, 
Alaska and the other small communities who are desperately 
trying to maintain air service.
    We must make this change, Mr. Chairman. I urge Committee 
action now. It will come. We all know it. Sooner or later it is 
inevitable. Let us make it happen now.
    Senator Gorton. Senator Murkowski, just one question for 
you. Senator Inhofe, as he started his remarks, said that his 
preference would be no age limitation at all, simply tests of 
competence. Would that be your favorite solution, and 65 is 
just simply a compromise, or do you think 65 is the ideal, 
specific age?
    Senator Murkowski. Well, I personally believe, and I 
continue to fly in private planes with pilots who are in their 
early eighties, and I fly with them in total confidence, based 
on their experience and knowing that they have been able to 
pass their physical, and if they were not able to pass their 
physical, obviously they would not be flying and I would not be 
flying with them, so while my legislation addresses 65 as the 
next step, I personally feel very comfortable with both my 
children, my wife, my grandchildren, with certain people who 
have the experience and the know-how, and I have that kind of a 
relationship with.
    I am sure Senator Inhofe has also experienced those 
occasions, and I know most of the airline pilots would feel the 
same way if the circumstances were the same.
    Senator Gorton. Thank you. That means the two of you see 
eye-to-eye. Do you have anything else you would like to add, 
Senator Inhofe?
    Senator Inhofe. No, I do not. Something that I neglected to 
mention that Frank did is that if it was something that was 
good in 1959, and if we are going to use age, then everything 
else in our society has changed. Our social security, 
everything has changed because the life expectancy is so much 
higher today than it was at that time. Why should this be 
singled out as the only thing that does not change?
    Senator Gorton. Thank you both very much.
    Senator Murkowski. Thank you for holding this hearing.
    Senator Gorton. Now we have a panel, five members of the 
panel, if they would come forward, please. It will go Lacey, 
Woerth, Emens, McElroy, Barker, but it does not matter where 
you sit.
    Thanks to all of you for showing up to help us with this 
very important challenge, and Mr. Lacey, we will begin with 
you.
    [The prepared statement of Senator Murkowski follows:]

            Prepared statement of Hon. Frank H. Murkowski, 
                        U.S. Senator from Alaska
    Mr. Chairman and Members of the Subcommittee. I appreciate the 
opportunity to appear before you to testify on my bill (S.1855) 
allowing Pt. 121 pilots to fly up to the age of 65.
    Adoption of this legislation would have a significant impact on the 
issue before you--the quality and quantity of air service to rural 
communities. Quite frankly, there is a serious pilot shortage in 
America and its greatest impact is being felt in rural communities, 
including in my home state of Alaska.
    I have heard from many small Alaskan air carriers on the difficulty 
they are having keeping pilots and even finding pilots to hire. In 
fact, one carrier in my hometown of Fairbanks has asked that I consider 
changing the HB1 visa status of pilots so he can hire foreign pilots.
    As you all know, pilots are leaving small carriers, regionals and 
flight schools because they can earn more money flying for the major 
commercial air carriers. This has a devastating effect on service to 
rural and remote areas because the smaller carriers just do not have 
the financial resources to compete with the offers of the major 
airlines.
    According to a report in the May 29 issue of Aviation Week, to ease 
the pilot shortage at U.S. airlines and create business opportunities 
for Canadian-based flight training schools, an informal study is being 
done by the FAA and Transport Canada to establish equivalent pilot 
certification standards.
    While that may put more pilots in the pipeline, it will not provide 
the level of experience necessary in the cockpit. How will that enhance 
safety in the industry?
    Airbiz Jet News reports that United Airlines is hiring more pilots 
and fine-tuning their flight schedules to compensate for a continuing 
shortage of crews that has forced flight cancellations.
    ``Pilots aren't calling in sick and not refusing regular 
assignments. United was advised 6 to 9 months ago that we're going to 
be short of pilots and now it is happening. according to James Goodwin, 
Chairman and CEO of UAL Corp. In fact, according to Goodwin the ``age 
rules will have to be re-examined. The factories we relied on to 
produce these people are not producing them in the same numbers.''
    Mr. Chairman, our military used to be the largest supplier of 
pilots to commercial airlines. But even the armed services are 
experiencing a critical shortage.
    Another reason there is a pilot shortage in rural markets is the 
1996 commuter rule which required age 60 retirement of pilots who flew 
scheduled routes in aircraft with a capacity of 10 or more seats.
    Mr. Chairman, it has been 41 years since age 60 was selected as the 
mandatory retirement age. Why age 60?
    According to the FAA, it was because of ``medical uncertainties 
concerning pilot health after age 60.'' There are several other 
theories. While public comments were accepted, no public hearing to 
debate the issue was ever held. Despite broad industry and pilot 
opposition to the mandatory retirement age, the rule went into effect 
in 1960.
    Since then, there have been several studies sponsored by the FAA. 
None of the tests have produced concrete evidence that pilots over 60 
years of age are a threat to the flying public. In fact, most of the 
studies have not even studied pilots over 60.
    However, the FAA has missed several opportunities to get first hand 
information and has let other opportunities lapse. Let me share some 
examples with you.
    The 1996 commuter rule made special provisions to allow pilots who 
were then flying to continue to fly for 4 more years at which time the 
age 60 rule would become effective. Commuter airlines were also allowed 
to continue to hire pilots 60 and older for 15 months.
    The FAA had 4 solid years to test pilots flying over the age of 60 
around this country and get scientific data on the skills and reflexes 
of these pilots. However, the FAA did not conduct such studies.
    Second, litigation was brought by the Equal Employment Opportunity 
Commission under the Age Discrimination in Employment Act against 
Boeing, Rockwell International, Grumman, Lockheed and McDonnell Douglas 
challenging their policies of removing pilots at age 60. All of those 
companies resolved EEOC litigation by entering into consent decrees 
lifting the age limit. Part of the decree was to keep records of pilot 
health. Where are the records and what was the purpose of keeping the 
information?
    The Hilton Study concluded FAA accident records did not support the 
agency's requirement that airline pilots retire on their 60th birthday. 
They found no increase in the accident rate for pilots of scheduled air 
service as they neared their 60th birthday.
    Mr. Chairman, the FAA Administration believes it lacks scientific 
consensus in favor of changing the age 60 rule. The argument exists 
that there is no test that can determine the medical and psychological 
fitness of a pilot to fly after 60.
    However, According to Dr. Robin Wilkening, who is in the audience, 
and Sue Baker both from Johns Hopkins University, advanced 
physiological and neurobehavioral testing methods do exist to test 
pilots of any age.
    Medical science has vastly improved since 1959 with improvements in 
medical diagnosis which include early detection and prevention, health 
awareness, exercise, and diet. All of these factors have increased life 
expectancy since 1959.
    In fact, 69 pilots organized and underwent extensive medical 
testing to force the FAA to drop mandatory retirement. They await a 
decision to their petition.
    In supporting documents to their petition, in 1982 the FAA relaxed 
its medical requirements to allow airmen to continue flying with 
various medical problems not previously acceptable. For example, pilots 
with hypertension, diabetes, alcoholism, spinal cord injury, defective 
vision and others. In the area of cardiovascular special issuances, the 
American Medical Association applauded the FAA as having demonstrated 
an understanding of the advances in diagnosis, treatment, and 
rehabilitation.
    In 1999 the FAA granted medical certificates to 6,072 airline 
pilots under the age of 60 who had significant medical pathology, 
permitting them to operate as airline crewmen. How does the FAA derive 
its medical consensus that it is safe to allow those pilots to continue 
to fly and it cannot derive the same for pilots who have been flying in 
this country for 41 years without such medical pathology over age 60?
    Mr. Chairman, last year 25 countries belonging to the European 
Joint Aviation Authority raised the mandatory retirement age to 65 
joining many Asian countries who increased the age to 63 or 65. I know 
of no evidence that these foreign pilots have a worse safety record 
than American pilots under the age of 60.
    If we don't seriously look at raising retirement ages for Pt. 121 
pilots, I can assure you that many rural communities will find that 
their aviation lifeline to the rest of the country will be closed down. 
Residents in New York City, Los Angeles, and Chicago will not notice 
any changes in air service, but the pilot shortage will deeply affect 
the residents of Missoula Montana, Ketchikan, Alaska and all the other 
small communities who are desperately trying to stay alive.
    We must make this change and I urge quick Committee action.

  STATEMENT OF L. NICHOLAS LACEY, DIRECTOR, FLIGHT STANDARDS 
            SERVICE, FEDERAL AVIATION ADMINISTRATION

    Mr. Lacey. Mr. Chairman and Members of the Subcommittee, I 
would like to thank you for the opportunity to appear before 
you today to discuss the impact of pilot shortages on air 
service in certain markets. I am the Director of FAA's Flight 
Standards Service, and a former military pilot and airline 
executive.
    In my 24-year career with Air Force Transport Operations, 
pilot recruitment and retention was a constant and significant 
challenge. I can relate to the concerns of those who believe 
that a pilot shortage is imminent, and one that could have an 
adverse impact on small and regional air carriers through high 
turnover rates. While there may be good reasons to be concerned 
about future pilot hiring shortages, I would like to reassure 
the Members of the Subcommittee and the public that we do not 
anticipate any significant reduction in air service in the 
United States.
    The growth in commercial aviation reflects continued 
economic expansion in both the U.S. and world economies. The 
U.S. commercial aviation industry ended the 1990's by recording 
its sixth consecutive year of traffic growth, while the general 
aviation industry continued its turnaround by recording yet 
another record year in terms of aircraft billings.
    To accommodate this growth, the large air carrier fleet is 
forecast to increase 3.3 percent a year. The regional fleet is 
predicted to expand at a yearly rate of 3 percent. Will the 
industry have qualified pilots in sufficient numbers to 
accommodate this growth and to accommodate the growth in every 
sector? My colleagues from the industry here today are 
certainly in a better position to provide a perspective on how 
the market will respond.
    We understand that while the major airlines are not having 
difficulty meeting their pilot hiring goals, there are signs 
that the regional airlines and those feeding the regionals are 
starting to see higher turnover and pilot applicants with 
declining pilot experience. This is not surprising, given the 
fact that the major air carriers can offer significantly better 
pay and benefits. However, reducing safety standards or carving 
out exceptions to established safety standards, in my view, are 
not appropriate responses.
    The regional air carrier industry is both the entry level 
for airline transport rated pilots and an increasingly 
important source of experienced new pilots for major commercial 
jet operators. We recognize that this is a source of concern 
for small and rural communities, where some speculate that 
airline service will suffer as pilots are hired away by larger 
airlines offering better pay and benefits.
    The most important thing, however, for the regional airline 
industry and small carriers such as commuters and on-demand 
operators is that there is a continuous pool of new pilots to 
draw upon for training and development. Certainly, it is 
appropriate for the aviation industry to develop measures to 
increase its pilot hiring pool. However, we do not believe that 
part of the solution is to alter FAA safety standards, namely, 
the FAA's age 60 rule, as some have suggested.
    The age 60 rule represents the FAA's best determination of 
the time when a general decline in health-related functions and 
overall cognitive and performance capabilities may begin to 
reach a level where a pilot's judgment and physical ability may 
begin to decline, and therefore jeopardize safety. Our rule 
means that a pilot who reaches age 60 must leave part 121 
airline operations, but it does not mean that he or she can no 
longer play an important role in aviation. Many pilots continue 
to work for airlines in the screening, recruiting and training 
of pilot applicants, or fly in non-airline operations, or 
become flight instructors, or, fortunately for us, work as 
safety inspectors for the FAA.
    Before making any change to a safety rule, the FAA must be 
satisfied that the regulation will maintain or raise the 
current level of safety. The question for the FAA is one of 
public safety and determining acceptable risk. At this time, 
the FAA cannot be assured that changing the age 60 rule will 
maintain or raise the level of safety.
    Finally, some have argued that the FAA's proposed changes 
to the rules governing pilot flight time and rest requirements 
may have an adverse effect on the hiring pool for pilots. The 
proposed rule generated voluminous public comment, and required 
further study and analysis. It is currently being revised by 
the FAA.
    The proposed rule would establish the maximum number of 
hours that a pilot can be kept on duty each day. It would also 
require that a pilot be provided minimum rest in every 24-hour 
period. Admittedly, the net effect of these proposed changes 
may be an increase in the number of pilots required to support 
today's airline schedules. How much of an effect is still being 
debated. We are reviewing industry comments and all other 
comments associated with the proposal, as well as the latest 
science available on human fatigue and rest, and are developing 
our revised rule.
    Mr. Chairman, the FAA will develop regulations in the 
context of what is best for public safety, whether that is 
setting standards to combat pilot fatigue, or determining the 
best age for retirement of commercial pilots. While economic 
factors are certainly a part of that calculation, I am sure the 
Committee and our colleagues in industry would agree that 
safety must be the priority.
    That concludes my prepared remarks, and I think the format 
then is to answer questions when we are all done, sir.
    [The prepared statement of Mr. Lacey follows:]

  Prepared statement of L. Nicholas Lacey, Director, Flight Standards 
                Service, Federal Aviation Administration
    Mr. Chairman and Members of the Subcommittee:
    I would like to thank you for the opportunity to appear before you 
today to discuss the impact of pilot shortages on air service in 
certain markets. I am a former military pilot and airline executive. As 
a component of today's discussion, the Subcommittee requested that I 
address the Federal Aviation Administration's (``FAA'') age 60 
requirement for retirement of air transportation pilots as well as the 
FAA's proposed rule on pilot flight time and rest requirements.
    The FAA's primary mission is ensuring the safety of the National 
Airspace System (NAS). We work hard to manage a growth oriented 
aviation system--and the constraints on the system that growth 
imposes--in the most efficient and safe way possible. Our ongoing 
efforts to modernize the air traffic control system will enhance both 
the safety and efficiency of the NAS. The FAA also establishes, through 
our regulations, basic safety standards for aircraft and crewmembers 
that will ensure the safety of our traveling public. We construct our 
regulations very carefully, taking into account as many factors as we 
can, but ultimately, always making the decision that will best enhance 
aviation safety.
    In my 24-year career with Air Force transport operations, pilot 
recruitment and retention was a constant and significant challenge, so 
I can relate to the concerns of those who believe that a pilot shortage 
is imminent, one that could have an adverse impact on small and 
regional air carriers through high turnover rates. While there may be 
good reasons to be concerned about future pilot hiring shortages, I 
would like to reassure the Members of the Subcommittee and the public 
that we do not anticipate any significant reduction in air service in 
the United States.
    The growth in commercial aviation reflects the continued economic 
expansion in both the U.S. and most world economies. The U.S. 
commercial aviation industry ended the 1990's by recording its 6th 
consecutive year of traffic growth, while the general aviation industry 
continued its turnaround by recording yet another record year in terms 
of aircraft billings. Using a number of variables to measure growth 
trends, the FAA publishes an annual summary of forecasts of aviation 
activity. Our latest forecasts, published in March of this year, show 
commercial system revenue passenger miles increasing an average of 4.6 
percent a year through 2011. Enplanements are expected to increase at a 
yearly rate of 3.9 percent, while commercial operations at airports 
with air traffic control service increase 2.7 percent over the 12-year 
forecast period. Non-commercial activity is forecast to increase an 
average 1.6 percent annually. To accommodate this growth, the large air 
carrier fleet is forecast to increase 3.3 percent a year; the regional 
fleet is predicted to expand at a yearly rate of 3.0 percent.
    Will the industry have qualified pilots in sufficient numbers to 
accommodate this growth, and to accommodate growth in every sector? My 
colleagues from the industry here today are certainly in a better 
position to provide a perspective on how the market will respond. 
However, based on our discussions with industry experts, we understand 
that, while the major airlines are not having difficulty meeting their 
pilot hiring goals, there are signs that the regional airlines and 
those feeding the regionals are starting to see higher turnover and 
pilot applicants with declining prior experience. This is not 
surprising given the fact that the major air carriers can offer 
significantly better pay and benefits. However, reducing safety 
standards or carving out exceptions to established safety standards, in 
my view, are not appropriate responses.
    A little background information about what is required by FAA 
regulations to become a commercial pilot may be helpful to the 
discussion. The FAA's job is to set and enforce pilot qualification and 
training standards that will ensure public safety. I should note that 
the commercial aviation industry has an excellent safety record, due in 
large part to the knowledge, skills and abilities of its pilot 
workforce. To qualify to be a pilot for an airline, a person usually 
transitions from student pilot (not allowed to carry passengers), to 
private pilot (allowed to carry passengers, but not for hire), acquires 
an instrument rating (allowed to fly in minimum weather conditions), 
upgrades to a multi-engine rating (allowed to fly aircraft with two or 
more engines) to a commercial pilot certificate (allowed to fly 
passengers for hire). A person who acquires a commercial pilot 
certificate must have logged at least 250 hours of flight time. FAA 
regulations leading to a commercial certificate, as well as flight time 
acquired by flight instructing, do not require experience in a crew 
environment.
    The airline transport pilot certificate (ATP) allows a person to 
act as pilot-in-command of an aircraft in part 121 air carrier 
operations, which include most commercial passenger and cargo flights 
for both major and regional airlines. The ATP requires a minimum 
aeronautical experience of 1,500 hours of flight time as a pilot and a 
minimum age of 23 years. Under current requirements, part 121 air 
carriers may not use a pilot who has reached his or her 60th birthday 
to act as a pilot in part 121 operations.
    At the end of 1999, the number of active (meaning those with valid 
medical certificates) airline transport pilots totaled 137,642. We 
forecast the number of airline transport pilots to grow at an annual 
rate of 3.1 percent to a total of 198,100 in 2011. It is difficult to 
determine whether this potential rate of growth will ultimately lead to 
a significant shortage of pilots. At present, many individuals with 
airline transport pilot certificates are not employed by regularly 
scheduled airlines. Some work as general aviation flight instructors 
while others are not employed as pilots. An airline transport pilot 
certificate is required for a pilot-in-command for part 121 operations, 
but a pilot may act as a co-pilot or first officer with only a 
commercial pilot certificate in many part 121 operations. Airlines 
could look to persons with commercial pilot certificates (numbering 
124,261 at the end of 1999 and projected to increase to 147,300 in 
2011) as potential hires. Air carrier equipage, labor agreements, 
routes and future changes in these factors further complicate the 
analysis.
    In addition, military downsizing will ultimately reduce the 
importance of ex-military pilots as a source for civilian airlines. 
From World War II through the mid-1990s, approximately 80 percent of 
major airline new hires were military trained. This is down to 
approximately 40 to 45 percent today. According to data from AIR, 
Inc.'s 1997-1998 pilot interview, civilian pilots make up 61 percent of 
all pilots hired. Non-military sources for pilots are persons with 
commercial pilot certificates, general aviation pilots, and the more 
than 200 colleges and universities that offer aviation programs.
    The regional air carrier industry is both the entry level for 
airline transport rated pilots, and an increasingly important source of 
experienced new pilots for the major commercial jet operators. We 
recognize that this is a source of concern for small and rural 
communities, where some speculate that airline service will suffer as 
pilots are hired away by larger airlines, offering better pay and 
benefits. The most important thing for the regional airline industry 
and small carriers, such as commuters and on demand operators, is that 
there is a continuous pool of new pilots to draw upon for training and 
development. Regional airlines are increasingly developing ``bridge 
programs'' with aviation universities that screen and refer graduates 
who meet the participating airlines' minimum standards for employment. 
Also, many of the regional airlines are dropping their ``pay for 
training'' programs, which had required their pilot applicants to pay 
for their training, and reducing their company's minimum qualifications 
for new hires.
    The general aviation industry has taken steps to increase interest 
in aviation. To help sustain the pool of pilots, the ``BE A PILOT'' 
program was initiated in 1996 with a goal of 100,000 new student starts 
by the year 2000. This program is jointly sponsored and supported by 
more than 100 general aviation organizations. The program started 
issuing ``introductory flight certificates'' to interested respondents 
in May 1997. The certificates can be redeemed for a first flight lesson 
for a cost of $35. To date, over 75,000 certificates have been 
requested. The program has over 1,600 participating flight schools.
    Through our regional offices, the FAA in partnership with state 
transportation officials, offer information and outreach to local 
communities about careers in aviation. We maintain an Aviation 
Education Web site at www.faa.gov/education where the public may find a 
host of career and curriculum materials, industry and educational 
contact listings, and community outreach initiatives.
    Certainly, it is appropriate for the aviation industry to develop 
measures to increase its pilot hiring pool. However, we do not believe 
that part of the solution is to alter FAA safety standards, namely the 
FAA's age 60 rule, as some have suggested. The age 60 rule represents 
the FAA's best determination of the time when a general decline in 
health-related functions and overall cognitive and performance 
capabilities may begin and reach a level where a pilot's judgement and 
physical ability may begin to decline and therefore jeopardize safety. 
Our rule means that a pilot who reaches age 60 must leave part 121 
operations, but it does not mean that he or she can no longer play an 
important a role in aviation. Many pilots continue to work for part 121 
airlines in the screening, recruitment and training of pilot 
applicants, or fly in non-part 121 operations, or become flight 
instructors, or, fortunately for us, work as safety inspectors for the 
FAA.
    Since its adoption in 1959, the FAA has reviewed the age 60 rule 
several times to determine whether new and sufficient evidence exists 
to warrant a reconsideration of the regulation. The last completed 
review included a 2-day public meeting, held during September 1993. 
FAA, assisted by an independent research company, Hilton Systems, 
reviewed over 4,000 comments, which made assertions and expressed 
opinions but did not provide the FAA with additional facts or analyses 
sufficient to support changing the rule. More recently, the Senate 
Appropriations Committee last year requested the FAA to study and 
provide data regarding relative accident rates based on pilot age. We 
are conducting that data review now.
    I must emphasize that before making any change to a safety rule, 
the FAA must be satisfied that the regulation will maintain or raise 
the current level of safety. What is clear to us from reviewing public 
comments and relevant literature concerning the age 60 rule is that 
there is no ``right answer.'' The question for the FAA is one of public 
safety and determining acceptable risk. At this time, the FAA cannot be 
assured that changing the age 60 rule will maintain or raise the level 
of safety.
    Finally, some have argued that the FAA's proposed changes to the 
rules governing pilot flight time and rest requirements, published in a 
1995 Notice of Proposed Rulemaking (NPRM), may have an adverse affect 
on the hiring pool for pilots. The NPRM generated voluminous public 
comment and required further study and analysis, and is currently being 
revised by the FAA. We believe that the NPRM will not decrease the 
number of qualified pilots. The proposed rule, however, would establish 
the maximum number of hours that a pilot can be kept on duty each day. 
It would also require that a pilot be provided minimum rest period in 
every 24 hours. Admittedly, the net effect of these proposed changes 
may be an increase in the number of pilots required to support today's 
airline schedules.
    The FAA estimated that the NPRM would, if implemented, impose 
increased labor costs on the airline industry, but would also result in 
some cost savings as well. The airline industry disagreed with those 
estimates and commented that cost would be much higher and any cost 
savings would be only a fraction of what the FAA estimated. The 
principal difference between the FAA and industry estimates is 
associated with the issue of how many pilots would be needed under the 
NPRM. We are taking into account these and all other comments 
associated with the proposal, as well as the latest science available 
on human fatigue and rest, in developing our revised rule.
    Mr. Chairman, the FAA will develop regulations in the context of 
what is best for public safety, whether that is setting standards to 
combat pilot fatigue or determining the best age for retirement of 
commercial pilots. While economic factors are certainly a part of that 
calculation, I am sure the Committee and our colleagues in industry 
would agree that safety must be the priority.
    That concludes my prepared remarks. I would be happy to answer any 
questions the Committee may have.

    Senator Gorton. Fine. Thank you.
    Captain Woerth.

       STATEMENT OF CAPTAIN DUANE E. WOERTH, PRESIDENT, 
           AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Captain Woerth. Thank you. Good afternoon, Mr. Chairman. I 
am Duane Woerth, president of the Air Line Pilots Association 
International. ALPA represents the special interest of 55,000 
pilots who fly for 51 airlines in the United States and Canada, 
and I appreciate the invitation to appear before the 
Subcommittee today to represent ALPA's views on the various 
issues being addressed in this hearing.
    These issues are extremely critical to our union, our 
entire membership, and the safety and convenience of the air-
traveling public. It is our understanding that the premise of 
the hearing is that a critical shortage of airline pilots in 
the United States is having an adverse effect on air service in 
rural areas such as Alaska and parts of the upper Midwest, and 
that changes to certain air safety regulations and labor-
management contractual provisions might alleviate this 
shortage.
    Now, as a general rule, ALPA is opposed to proposals to 
relax air safety rules for economic purposes, and we are 
naturally concerned about congressional or regulatory 
interference in legitimate collective bargaining matters. At 
the outset, however, I would like to make a few general 
comments about the premise of this hearing, a pilot shortage.
    I would prefer to characterize the situation as the 
difficulties that some air carriers serving rural areas are 
having in recruitment and retention of qualified pilots. The 
question is, what is causing this difficulty, and the answer is 
quite simple. Our Nation has been experiencing unprecedented 
economic growth for the past 6 years, and the airline industry 
has been a major beneficiary of this prosperity.
    With the growth in air travel has come growth in airline 
employment, of course, including pilots. Qualified pilot 
applicants are gravitating to those carriers where wages and 
benefits and current opportunities are the most attractive. 
This is, of course, a natural phenomenon in a robust free 
market economy.
    However, as many airline pilots have personally 
experienced, the converse is also true. When the economy is 
stagnant or in recession, pilots face layoffs and are forced to 
seek lower paying jobs that are often not flying jobs. Just a 
couple of years ago, American Airlines had 500 pilots on 
involuntary layoff status. Delta had 700 pilots on layoff 
status. US Airways just recently began hiring pilots after 9 
years of not hiring a single pilot.
    Just a few years ago, some of the small regional airlines 
were able to attract pilots even though entry-level wages were 
so low that they qualified for government financial assistance, 
and even though new hires were required to pay for their own 
training, costing thousands of dollars. Today, these airlines 
are not able to attract pilots on those terms, but that does 
not translate into a pilot shortage.
    The bottom line, pilots, like any other employment 
applicant in the current economic environment, have the luxury 
of being more selective in choosing a job. If, as has been 
suggested, some carriers are having difficulty finding 
qualified pilots to meet this hiring demand, and if this is 
determined to be a long-term problem, I would call your 
attention to the recommendations contained in the August 1993 
DOT blue ribbon panel entitled, Pilots and Aviation Maintenance 
Technicians for the 21st Century, an Assessment of Availability 
and Quality. This was a report that was done, as you are quite 
aware, as a meaningful approach to addressing this concern.
    Incidentally, virtually no action has been taken on any of 
the constructive proposals and recommendations in this report, 
and that is 7 years old. I will provide the Subcommittee with a 
copy of this report if you would like to, sir.
    Senator Gorton. It will be included as part of the record.*
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Captain Woerth. Thank you, sir.
    Let me now turn to one specific proposal offered as a 
remedy to this alleged pilot shortage. S. 1855, introduced last 
fall by Senator Murkowski, would increase the mandatory 
retirement age for air carrier pilots from 60 to 65. The theory 
of this legislation is that pilots who must now retire at age 
60, especially those who fly for regional airlines, would be 
able to continue flying, thereby relieving the pilot shortage 
in Alaska and sparsely populated areas in the country.
    While the alleged justification for the legislation is to 
address the perceived regional economic problem, the argument 
for it challenges the efficacy of the regulation itself as 
applied to pilots on a national basis. ALPA is opposed to this 
legislation for two basic reasons. First, everyone, not just 
pilots, should be opposed to the relaxation of a safety rule 
for an economic purpose, and second, the so-called age 60 rule 
is justified on its merits as a sound and effective air safety 
regulation.
    The age 60 rule is based on two fundamental principles of 
medical science that are indisputable. First, the risk of 
incapacitation and unacceptable decrements in performance 
increase with age. Second, medical science has not developed a 
regimen of reliable and FAA-certified tests that can be 
administered effectively to identify those aging pilots who are 
or will become incapacitated, or whose performance will decline 
to an unacceptable level.
    The issues surrounding the regulation have been studied as 
thoroughly as any medical matter affecting pilots, and after 
two decades of comprehensive studies and exhaustive review, 
these two principles are still a valid underlying basis for the 
rule. Therefore, ALPA's position is firm. The age 60 rule is a 
well-established safety regulation, substantiated by medical 
science, and reaffirmed repeatedly by the FAA, and worked 
effectively for over 40 years.
    The justification for the rule is not now, or never has 
been to enhance the careers of pilots who want to move up the 
seniority list faster, and it should not be changed for the 
sake of those who want to continue flying longer, nor should it 
be used as a regulator of the pilot supply pool for regional 
economic purposes.
    The age 60 rule is a safety regulation, and should not be 
changed or repealed unless there is sufficient evidence to 
prove conclusively that such action would not have a negative 
effect on safety. In ALPA's view that case has never been made.
    The Subcommittee has also raised the issue of a possible 
effect of flight time and duty time regulations, particularly 
the reserve rest requirements, on availability of pilots on the 
regional side of the industry. With your permission, I would 
submit a more comprehensive statement for the record on the 
topic of pilot fatigue, and the critical need for flight and 
duty time regulations.
    Senator Gorton. We will be happy to have that submission.
    Captain Woerth. Thank you, Senator Gorton.
    [The prepared statement of Captain Woerth follows:]

            Prepared statement of Captain Duane E. Woerth, 
         President, Air Line Pilots Association, International
    Good afternoon Mr. Chairman and Members of the Subcommittee. I am 
Duane Woerth, President of the Air Line Pilots Association, 
International (ALPA). ALPA represents the professional interests of 
55,000 pilots who fly for 51 airlines in the United States and Canada. 
I appreciate the invitation to appear before the Subcommittee today to 
present ALPA's views on the various issues being addressed in this 
hearing. These issues are extremely critical to our union and our 
entire membership, and they are important to the safety and convenience 
of the air traveling public as well.
    It is our understanding that the premise of this hearing is that a 
``critical'' shortage of airline pilots in the United States is having 
an adverse effect on air service in rural areas such as Alaska and 
parts of the upper Midwest, and that changes to certain air safety 
regulations and labor/management contractual provisions might alleviate 
this shortage. As a general rule, ALPA is opposed to proposals to relax 
air safety rules for economic purposes, and we are naturally concerned 
about congressional or regulatory interference in legitimate collective 
bargaining matters. At the outset, however, I would like to make a few 
general comments about the premise of this hearing--pilot shortage.
    Without directly challenging the notion that there is a 
``critical'' pilot shortage affecting rural air service, I would prefer 
to characterize the situation as the difficulty that some air carriers 
serving rural areas are having in the recruitment and retention of 
qualified pilots. The question is: What is causing this difficulty? The 
answer is quite simple. Our nation has been experiencing unprecedented 
economic growth for the past 6 years, and the airline industry has been 
a major beneficiary of this prosperity. With the growth in air travel, 
has come growth in airline employment, including pilots, and qualified 
pilot applicants are gravitating to those carriers where wages, 
benefits, and career opportunities are the most attractive. Some of 
them are leaving jobs in the commuter airline industry and accepting 
higher-paying positions with the major carriers. This is a natural 
phenomenon in a robust free market economy.
    However, as many airline pilots have personally experienced, the 
converse is also true. When the economy is stagnant or in a recession, 
pilots face lay-offs and are forced to seek lower-paying jobs, often 
non-flying jobs. Just a few years ago, commuter airlines were able to 
attract pilots even though entry-level wages were so low that they 
qualified for government financial assistance, and even though new-
hires were required to pay thousands of dollars to cover their training 
costs. Today, these airlines are not able to attract pilots on those 
terms, but that doesn't translate into a pilot shortage. The bottom 
line--pilots, like any other employment applicants in the current 
economic environment, have the luxury of being more selective in 
choosing a job.
    Recently, Aviation Information Resources, Inc. (AIR Inc), an 
Atlanta firm that studies various trends in the commercial airline 
industry, projected that there will be over 19,000 pilots hired this 
year. If, as suggested, carriers are having difficulty finding 
qualified pilots to meet this hiring demand, and if this is determined 
to be a long-term problem, I would call your attention to the 
recommendations contained in the August, 1993, DOT Blue Ribbon Panel 
Report entitled, ``Pilots and Aviation Maintenance Technicians for the 
21st Century--An Assessment of Availability and Quality'', as a 
meaningful approach to addressing this concern. As a matter of fact, 
your full Committee Chairman, Senator John McCain, provided the impetus 
for this study back in 1989, as a member of the Manpower and Personnel 
Subcommittee of the Senate Armed Services Committee as well as a Member 
of this Subcommittee on Aviation. I will provide the Subcommittee with 
a copy of this report for your review.
Mandatory Retirement Age--Age 60 Rule
    Let me now turn to one specific proposal that has been offered as a 
remedy for this alleged pilot shortage. S.1855, introduced last fall by 
Senator Frank Murkowski (R-AK), would increase the mandatory retirement 
age for air carrier pilots from 60 to 65. The theory of this 
legislation is that pilots who must now retire at age 60, especially 
those who fly for regional airlines, would be able to continue flying, 
thereby relieving the pilot shortage in Alaska and other sparsely 
populated areas of the country. While the alleged justification for the 
legislation is to address a perceived regional economic problem, the 
argument for it challenges the efficacy of the regulation itself as it 
applies to pilots on a national basis. ALPA is opposed to this 
legislation for two basic reasons. First, everyone--not just pilots--
should be opposed to the relaxation of a safety rule for an economic 
purpose. And second, the so-called Age 60 Rule is justified on its 
merits as a sound and effective air safety regulation. The first reason 
should be self-explanatory and widely accepted; the second has been the 
subject of considerable debate.
    The Age 60 Rule is based on two fundamental principles of medical 
science that are indisputable. First, the risks of incapacitation and 
unacceptable decrements in performance increase with age. Second, 
medical science has not developed a regimen of reliable tests that can 
be administered effectively to identify those aging pilots who are, or 
will become, incapacitated, or whose performance will decline to an 
unacceptable level. The issues surrounding the regulation have been 
studied as thoroughly as any aeromedical matter affecting pilots, and 
after two decades of comprehensive studies and exhaustive review, these 
two principles are still valid as the underlying basis for the Rule.
    In late 1979, the House of Representatives rejected a proposal to 
relax the Rule, and directed the National Institutes of Health to 
conduct a study to determine if there was sufficient medical evidence 
to support it. In August of 1981, the National Institute of Aging 
Review Panel on the Experienced Pilots Study that was responsible for 
reviewing the study and submitting a report to Congress concluded: 
``The Panel attaches no special medical significance to age 60 as a 
mandatory age for retirement of airline pilots. It finds, however, that 
age-related changes in health and performance influence adversely the 
ability of increasing numbers of individuals to perform as pilots with 
the highest level of safety and, consequently, endanger the safety of 
the aviation system as a whole. Moreover, the Panel could not identify 
the existence of a medical or performance appraisal system that can 
single out those pilots who would pose the greatest hazard because of 
early or impending deterioration in health or performance.''
    Following completion of the NIA review, the Rule was contested in 
Federal Court and reconsidered by the FAA. In 1989, in response to a 
directive by the U. S. Court of Appeals for the 7th Circuit, the FAA 
reviewed the evidence and reaffirmed its support of the Rule. In the 
decision, the FAA's Director of Flight Standards stated: ``Based upon 
all of the studies discussed, we conclude that an older pilot's edge in 
experience does not offset the undetected physical infirmities 
associated with the aging process. Notwithstanding that most pilots who 
are approaching or have passed age 60 report that their health is 
excellent and they do not experience any physical or cognitive 
limitations which would prevent them from continuing their flying 
career, the research of aging indicates that there is often a sharp 
decline in physical and cognitive performance after age 60. . . . There 
is substantial scientific evidence which indicates that the greater 
experience of the pilots who have reached or passed age 60 does not 
outweigh the increased risk of incapacitation or skill deterioration 
which accompanies seniority.''
    Since 1994, the FAA itself has sponsored at least five studies on 
issues related to the Rule (see Appendix). The most comprehensive 
consideration of the Rule by the FAA occurred between 1993 and 1995. In 
late 1990, the FAA initiated a statistical study on the relationship 
between pilot age and accident rates. Following the release of the so-
called Hilton Study in March 1993, the FAA convened a public meeting in 
September to solicit comments on the study and the Age 60 Rule in 
general. Two years later, in December of 1995, the FAA concluded an 
exhaustive rulemaking proceeding, commonly known as the ``one level of 
safety'' review, in which the safety regulations governing the commuter 
airlines (Part 135) were harmonized with the major carrier regulations 
(Part 121). One component of that review and subsequent order was a 
reaffirmation of the Age 60 Rule and the application of it to the 
commuter airlines. Recognizing that this change might pose a hardship 
for some commuter pilots and operators, the FAA granted a 4-year phase-
in of the new rule. At the time of the order, the FAA estimated that 
there were approximately 8,000 pilots in the commuter category, and of 
those, approximately 200 were over 60 years of age. The grace period 
expired on December 20, 1999, at which time those pilots who were over 
60 years of age were required to retire. During this same time frame 
(1993-1995), the FAA considered and denied a petition for rulemaking to 
repeal the Rule that was filed by a group of pilots, both active and 
retired, who have been fighting it for years.
    ALPA's position is firm--the Age 60 Rule is a well-established 
safety regulation that has been substantiated by medical science, has 
been reaffirmed repeatedly by the FAA, and has worked effectively for 
over 40 years. The justification for the Rule is not now and never has 
been to enhance the careers of pilots who want to move up the seniority 
list faster and it should not be changed for the sake of those who want 
to continue flying longer. Nor should it be used as a regulator of the 
pilot supply pool for regional economic purposes. The Age 60 Rule is a 
safety regulation and should not be changed or repealed unless there is 
sufficient evidence to prove conclusively that such action would not 
have a negative effect on safety. In ALPA's view, that case has never 
been made.
Flight and Duty Time Regulations and Reserve Rest Requirements
    The Subcommittee has also raised the issue of the possible effect 
of flight and duty time regulations, particularly the ``reserve rest'' 
requirements, on the availability of pilots on the regional side of the 
industry. With your permission, I will submit a more comprehensive 
statement for the record on the topic of pilot fatigue and the critical 
need for changes in the flight and duty time regulations. I would 
simply add here that, despite the fact that in 1995 the FAA issued a 
notice of proposed rulemaking to revise these outdated regulations, it 
has been almost 5 years now and we still do not have a final resolution 
of this important safety issue. Virtually everyone in the industry and 
in the scientific community, as well as the NTSB and NASA, agrees that 
new regulations are necessary, and we once again would implore the FAA 
to take immediate action.
    On ``reserve rest'', the FAA last December, began to enforce its 
rules requiring that domestic pilots assigned to reserve duty receive 
appropriate minimum rest before accepting a flight assignment. It is 
our understanding that, contrary to the dire predictions of the 
airlines, this rule was implemented without any disruption to flight 
schedules and at minimal cost. ALPA applauds the FAA for this action, 
but it needs to do more. We believe that the flight and duty time 
regulations must be revised to take into consideration modern science 
and to provide maximum hours of service that will ensure that pilots 
are not pushed to fly beyond demonstrated levels of safety.
Pilot Scope Clauses and Regional Jets
    Finally, some have alleged that scope clauses in our pilots' 
collective bargaining agreements are impeding the ability of carriers 
to deploy so-called ``regional jets'' in small, underserved markets. We 
submit that is clearly not the case. In our view, pure economics--not 
pilot scope clause--is driving where and with what frequency these jets 
are being used, and will be used in the future. Frankly, ALPA believes 
that the term ``regional jet'' is a misnomer because these airplanes 
are not being operated exclusively in regional markets. We prefer to 
call them ``small'' jets because they are simply smaller gauge, 
turbine-powered aircraft that are being used by the carriers with 
greater frequency in markets of various sizes to attract more high-end 
business travel, generate profits and benefit the bottom line.
    In January, I participated on a panel on labor and employment 
issues at the annual ABA Forum on Air and Space Law, and presented a 
paper on the subject of pilot scope clauses and RJ's. With your 
permission, I will include a copy of this paper with my testimony. I 
might also mention that the General Accounting Office is currently 
engaged in a study of the ``regional jet'' phenomenon, and I would 
encourage the Subcommittee to look forward to GAO's report as an 
objective analysis of this subject.
    This concludes my statement, and I would be pleased to answer your 
questions.
Appendix
    Ramon Miller, James Becker, Peter Lambrou, The Effects of Age and 
Practice on Aviation-Relevant Concurrent Task Performance (1999) (DOT/
FAA/AM-99/22); Robert Besco, Satya Sangal, Thomas Nesthus, Stephen 
Veonneau, A Longevity and Survival Analysis for a Cohort of Retired 
Airline Pilots (1995) (DOT/FAA/AM-95/5); D.T. Hyland, E.J. Kay, J.D. 
Deimler, E.B. Gurman, Age 60 Study, Part II: Airline Pilot Age and 
Performance--A Review of the Scientific Literature (1994) (DOT/FAA/AM-
94/21); E.J. Kay, D.J. H.illman, D.T. Hyland, R.S. Voros, R.M. Harris, 
J.D. Deimler, Age 60 Study, Part Ill: Consolidated Database Experiments 
Final Report(1994) (DOT/FAA/AM-94/22); D.T. Hyland, E.J. Kay, J.D. 
Deimler, Age 60 Study, Part IV: Experimental Evaluation of Pilot 
Performance (1994) (DOT/FAA/AM-94/23). See also Michael Heil, An 
Investigation of the Relationship Between Chronological Age and 
Indicators of Job Performance for Incumbent Air Traffic Control 
Specialists (1999) (DOT/FAA/AM-99/ 18).

    Senator Gorton. Captain Emens. Emens, is that correct?

          STATEMENT OF CAPTAIN PAUL EMENS, CHAIRMAN, 
               PILOTS AGAINST AGE DISCRIMINATION

    Captain Emens. Emens.
    Senator Gorton. Emens.
    Captain Emens. Close enough, Senator.
    Good afternoon, Senators. My name is Paul Emens, and I am 
chairman of the Pilots Against Age Discrimination, PAAD. seated 
behind me in the audience are Captains Nancy Bruce, Ron 
Richmeyer, and Barry Barrell of PAAD, Captain Steve Jacques of 
ALPA Pilots Against Age 60, APAAS, Captain Ed Moon, from the 
Organization of Black Airline Pilots, who is opposed to the age 
60 rule, and Dr. Robin Wilkening, chief resident of 
occupational medicine at Johns Hopkins University. We would all 
welcome any questions that you have at the close of these 
presentations.
    PAAD represents all pilots who believe that the age 60 rule 
is age discrimination, that the age 60 rule should be changed, 
and that doing so will not only reduce the Nation's critical 
shortage of pilots, but will dramatically increase experience 
levels, thus improve safety.
    I am 51 years old. My father flew for Pan American World 
Airways. I mention my father because he walked these same halls 
as a member and officer of ALPA, trying to overturn the 
discriminatory and arbitrary age 60 rule just as I am now 
doing. This was 30 years ago. Today, ALPA is my opponent.
    The purpose of this hearing is to examine the issue of 
pilot shortage, and there is a pilot shortage. Not only are 
there fewer numbers of pilots to fill the needs of air carriers 
and provide for the needs of Alaska and other underserved 
States, there is a critical shortfall in experienced pilots 
Nation-wide. This hazardous situation is an immediate problem 
for your constituents, your families, and every passenger in 
every State.
    ALPA agrees. In May 1998, ALPA published an article that 
said in part, quote, large numbers of captains will be retiring 
from most U.S. carriers and, indeed, European ones as well, at 
the turn of the century and soon after. This will cause the 
majors to hire a further mass of new pilots in a relatively 
short period of time.
    The effects on the air transportation system could be 
disastrous, as a sudden surge of poor-caliber pilots is dragged 
from the bottom of the system, perhaps all the way to the 
majors. The real loses will be the air taxi and regional 
operators that must fly their aircraft with the pilots the 
majors cannot attract.
    In fact, Senators, the real losers are the passengers of 
your States, whose lives are placed at risk by pilot 
inexperience. Currently, it is not uncommon for pilots to be 
hired straight out of aviation colleges and into the first 
officer's seat of a regional airliner. Within a year, these 
novices can be promoted to captain. Inexperienced pilots make 
three times as many critical errors as more experienced pilots. 
A pilot with but 1 year of line flying experience, coupled with 
a co-pilot straight out of flight school, is a recipe for 
disaster in commercial aviation.
    Some regional carriers have turnover rates as high as 100 
percent annually, as pilots move on to fill slots opened by 
expansion and vacated by an increasing volume of age-driven 
retirements.
    In the mid-1990's the FAA elected to apply the age 60 rule 
to regional carrier pilots, who for decades have been 
transporting the citizens of your States without a single age-
related incident. Pilots who were 60 at the time the one level 
of safety program went into effect were given a grace period. 
The last of this group of pilots was grounded at the age of 71 
at the end of 1999, again without a single age-related 
incident.
    During that period of time, this group of highly skilled 
and experienced pilots demonstrated beyond question the safety 
record that has been validated in study after study. Older, 
experienced pilots are as safe as or safer than younger pilots.
    The FAA's own study, bought and paid for by the FAA, known 
as the Hilton study, said, and I quote, accidents decreased 
with age, leveling off for older pilots. Our analysis provided 
no support for the hypothesis that the pilots of scheduled air 
carriers had increased accident rates as they neared the age of 
60. Most of the analysis indicated a slight downward trend in 
accident rates with age, end quote.
    The most experienced pilots, those over 60, have been 
removed from the ranks in order to make room for pilots with 
minimal flight time and little other school experience. I ask 
you, is this the pilot you want for your family's next flight?
    ALPA would like you to believe that the age 60 rule is 
about safety. They would have you believe that anyone 60 and 
above suffers, as one ALPA letter on Capitol Hill said, quote, 
unacceptable decrements in performance, end quote. This is 
ridiculous. A pilot is not incompetent with the passage of 24 
hours, and yet this is precisely the way commercial airline 
pilots are treated.
    The age 60 rule, rather, is about economics. Pilots want to 
advance up the seniority and pay ladder as quickly as possible. 
In the late 1970's, a younger and more junior group of pilots 
gained control of ALPA. A former ALPA president, Hank Duffy, in 
court testimony said, quote, pilots over age 55 comprise only 5 
to 6 percent of the total membership. The other 95 percent 
selfishly view the forced retirement of older pilots as their 
guaranteed path and a God-given right to their own early 
promotion, end quote.
    How ironic. It was ALPA that fought for and won the right 
of 60-year-old pilots to keep their jobs in 1959, the year the 
age 60 rule came into being. It is now ALPA who champions the 
discriminatory retirement of our Nation's most experienced 
pilots.
    Another economic issue concerns a special tax provision 
that protects a pilot mandated to retire at the age of 60 from 
taking an onerous pension cut. A summary solution is included 
in your information packets. This can be fixed.
    Federal air surgeon Dr. Frank Austin knew the truth when he 
wrote, quote, there is no basis for the age 60 rule. I believe 
this, and Admiral Engen, the FAA Administrator at the time, 
believes this. It is an economic issue, end quote.
    ALPA sits here today as a powerful advocate of the age 60 
rule. Congress can change this. First, recognize that there is, 
indeed, a pilot shortage. It affects every Senator and every 
Representative because it affects every citizen who flies or 
who has a family member who does so.
    What Senator Murkowski's bill does is give working 
commercial pilots more years of productive careers. In a 
perfect world, I would say there should not be an age. It 
should be test-driven. But this is not a perfect world, and as 
44 other countries have already done, already raised the rule 
to 65, 65 is a good first step.
    Changing the rule, in a time of stress due to shortages of 
pilot numbers and experience, gives us time to address the 
issue properly, time to initiate and fund pilot-training 
programs, and time to study a group of dedicated, experienced, 
and highly skilled pilots over the age of 60 who are permitted 
to continue in the work they are supremely qualified to do.
    There is no question that the evaluation of this group of 
older pilots will show what those other 44 industrialized 
nations already know and have put into daily practice. There is 
no rational or defensible basis for the mandatory retirement of 
pilots at the age of 60.
    Senator John McCain said on July 17, 1996, before the 
Senate Commerce, Science, & Transportation Committee the 
following: Quote, this administration has been critical, and 
rightfully so, about the inexperience of flight crews in 
commercial air carrier cockpits. One obvious way to increase 
the experience levels of cockpit crews would be to increase the 
discriminatory maximum age for pilots which is limited by the 
age 60 rule. However, when the administration recently issued a 
notice of proposed rulemaking for flight and duty time, the 
strong lobbying effort of the pilot unions kept the age 60 rule 
intact, a position that reportedly is at odds with the FAA 
Administrator's own position on whether to change the rule. I 
hope the FAA and DOT will work with Congress to significantly 
change this way of operating, end quote.
    Senator McCain hit the nail on the head a full 4 years ago. 
We have lost the luxury of getting ahead on this problem. 
Alaska feels its impact today, and every State in this country 
may feel it in the near future. The shortage is here, now, as 
the most experienced pilots are forced prematurely from their 
cockpits against their will. It is time the FAA listens and 
acts. Maintaining the status quo because it is awkward for some 
parties is unacceptable. To provide for a more experienced work 
force, and to end discrimination in the commercial airline 
industry, it is time to address the age 60 rule.
    Let me end with the motto of the Air Force's 89th Airlift 
Wing, which flies the President and other top government 
officials on Air Force One. Experto Crede--trust one who has 
experience. Your constituents deserve any less.
    [The prepared statement of Captain Emens follows:]

               Prepared statement of Captain Paul Emens, 
              Chairman, Pilots Against Age Discrimination
    Good afternoon, Senators. My name is Paul Emens and I am Chairman 
of the group known as Pilots Against Age Discrimination (PAAD). Seated 
with me are Captain Nancy Bruce, Captain Ron Richtsmeier, and Dr. Robin 
Wilkening. PAAD represents all pilots who believe that the Age 60 Rule 
is age discrimination, that the Age 60 Rule should be changed, and that 
changing it will not only reduce the nation's critical shortage of 
pilots but will dramatically increase the level of experience brought 
to commercial aviation.
    I am 51 years old. My father's career was with Pan American World 
Airways.
    I mention my father because he walked these same halls, as a member 
and officer of ALPA, trying to overturn--the discriminatory and 
arbitrary Age 60 Rule . . . just as I am now doing. Today, ALPA is my 
opponent.
    The purpose of this hearing is to examine the issue of pilot 
shortage. And there IS a pilot shortage. Not only are there fewer 
numbers of pilots to fill the needs of air carriers--and provide for 
the needs of Alaska and other underserved states--there is a critical 
shortfall in experienced pilots nationwide. This hazardous situation is 
an immediate problem for your constituents, your families, and every 
passenger in every state.
    ALPA agrees. In May 1998 ALPA published an article that said, in 
part:

    L``. . . Large numbers of Captains will be retiring from most US 
carriers, and indeed European ones as well, at the turn of the century 
and soon after. This will cause the majors to hire a further mass of 
new pilots in a relatively short period of time. The effects on the air 
transportation system could be disastrous as a sudden surge of poor-
caliber pilots is dragged from the bottom of the system, perhaps all 
the way to the majors. The real losers will be the air-taxi and 
regional operators that must fly their aircraft with the pilots the 
majors cannot attract.''

    In fact, Senators, the real losers are the passengers of your state 
whose lives are placed at risk by pilot inexperience. Currently it is 
not uncommon for pilots to be hired straight out of aviation colleges 
and into the First Officer's seat of a regional airliner. Within a year 
these novices can be promoted to Captain. Inexperienced pilots make 
three times as many critical errors as more experienced pilots. A pilot 
with but one year of line-flying experience coupled with a co-pilot 
straight out of flight school is a recipe for disaster in commercial 
aviation. . Some regional carriers have turnover rates as high as 80 
percent annually as pilots move on to fill slots opened by expansion 
and vacated by an increasing volume of age-driven retirements. In the 
mid-1990's the FAA elected to apply the Age 60 Rule to regional carrier 
pilots, who for decades had been transporting the citizens of your 
states without a single age-related safety problem. Pilots who were 60 
at the time the One Level of Safety program went into effect were given 
a grace period. The last of this group of pilots was grounded at age 65 
this year, again without a single age-related incident. During that 
period of time this group of highly-skilled and experienced pilots 
demonstrated beyond question the safety record that has been validated 
in study after study: older, experienced pilots are as safe as or safer 
than younger pilots.
    The FAA's own study, known as the Hilton Study, ``accidents 
decreased with age, leveling off for older pilots'' . . . ``Our 
analyses provided no support for the hypotheses that the pilots of 
scheduled air carriers had increased accident rates as they neared the 
age of 60. Most of the analyses indicated a slight downward trend [in 
accident rates] with age.''
    The most experienced pilots--those over 60--have been removed from 
the ranks in order to make room for pilots with minimal flight time and 
little other than school experience. Is this the pilot you want for 
your family's next flight?
    ALPA would like you to believe that the Age 60 Rule is about 
safety. It isn't. It's about economics. Pilots want to advance up the 
seniority and pay ladder . In the late 1970's a younger and more junior 
group of pilots gained control of ALPA. A former ALPA President, Hank 
Duffy observed, ``Pilots over age 55 comprise only 5-6 percent of the 
total membership. The other 95 percent selfishly view the forced 
retirement of older pilots as their guaranteed path and a God-given 
right to their own early promotion.'' How ironic! It was ALPA who 
fought for and won the right of 60-year-old pilots to keep their jobs 
in 1959, the year the Age 60 Rule came into being. It is now ALPA who 
champions the discriminatory retirement of the nation's most 
experienced pilots.
    Another economic issue concerns a special tax provision that 
protects a pilot mandated to retire at the age of 60 from taking an 
onerous pension cut.
    Federal Air Surgeon Dr. Frank Austin knew the truth: ``There is no 
basis for the Age 60 Rule. I believe this and Admiral Engen [the FAA 
Administrator] believes this . . . . It's an economic issue.''
    ALPA sits here today as a powerful advocate of the Age 60 Rule.
    Congress can change all this.
    Recognize that there is indeed a pilot shortage. It affects every 
Senator and every Representative because it affects every citizen who 
flies. What Senator Murkowski's bill does is give working commercial 
pilots more years of productive careers. In a time of stress due to 
shortages of pilot numbers and experience, his bill gives us time to 
address the issue properly: time to initiate and fund pilot training 
programs, and time to study a group of dedicated, experienced, and 
highly-skilled pilots over the age of 60 who are permitted to continue 
in the work they are supremely qualified to do. There is no question 
that the evaluation of this group of older pilots will show what other 
industrialized nations already know and have put into daily practice: 
there is no rational or defensible basis for the mandatory retirement 
of pilots at age 60.
    I would like to close with Senator John McCain's statement of July 
17, 1996 given before the Senate Commerce, Science and Transportation 
Committee:
    ``This administration has been critical, and rightfully so, about 
the inexperience of flight crews in commercial air carrier cockpits. 
One obvious way to increase the experience levels of cockpit crews 
would be to increase the discriminatory maximum age for pilots, which 
is limited by the ``age 60 rule''.  However, when the Administration 
recently issued a Notice of Proposed Rulemaking for flight and duty 
time, the strong lobbying effort of the pilot unions kept the age 60 
rule intact--a position that reportedly is at odds with the FAA 
Administrator's own position on whether to change the rule. I hope the 
FAA and DOT will work with Congress to significantly change this way of 
operating.''
    Senator McCain hit the nail on the head a full 4 years ago. We have 
lost the luxury of getting ahead of this problem. Alaska feels its 
impact today and every state in this country will feel it in the near 
future. The shortage is here, now, as the most experienced pilots are 
forced prematurely from their cockpits against their will. It's time 
the FAA listens--and acts. Maintaining the status quo because it is 
awkward for some parties is clearly unacceptable.
    To provide for a more experienced workforce and to end age 
discrimination in the commercial airline industry it is time to address 
the Age 60 Rule. Now.
                                 ______
                                 
                     Alpa Pilots Against Age Sixty
    APAAS is an organization composed of ALPA pilots, retired ALPA 
pilots, and associate members, who believe that the ``Age 60 Rule'' is 
unfair, and should be changed.
    APAAS members believe that there are solutions available that would 
allow the rule to be changed, and satisfy the concerns of the majority 
of ALPA members.
    APAAS members believe that every pilot should have the right to 
retire at 60 (with no degradation of retirement benefits), if he or she 
so desires.
    APAAS members believe that every pilot should have the right to 
work BEYOND 60, if he or she so desires.
    APAAS members believe in the continued quick pace of upgrades for 
all ALPA pilots.
    APAAS members believe that if ALPA members work together, there is 
absolutely no doubt that we can change the ``Age 60 Rule'' so that the 
majority's concerns will be addressed and fulfilled.
    If you would like to join our efforts, or simply would like more 
information about our modest goals, please contact the APAAS member 
listed below, or visit our web site.
    Stephen G. (Steve) Jacques
    UAL 727 Pilot Instructor
    Web site--www.apaas.org
                                 ______
                                 
Prepared Statement of Stephen G. Jacques In Support of Senate Bill 1855
    Good afternoon, Senators. My name is Stephen Jacques and I am co-
founder of the group known as Alpa Pilots Against Age Sixty (APAAS). 
[Although I am not on the agenda to speak to you this afternoon,] I 
thought it imperative to relay important information with regard to a 
segment of the ALPA membership, and how they feel about SB 1855. 
[Therefore, I have prepared this presentation for you.]
    APAAS is a pure grass roots organization, which has sprung up 
within the greater ALPA organization. APAAS members currently represent 
18 ALPA airlines. The ALPA leadership does not recognize APAAS, or our 
singular goal, which is to overturn FAR 121.383c (age 60 rule). Indeed, 
this singular goal of ours runs directly contrary to the wishes of the 
ALPA leadership, and to the ALPA PAC.
    I wear the ALPA pin on my tie today, and every day that I fly 
because I believe in what ALPA stands for and what ALPA has 
accomplished for aviation. However, I wholeheartedly disagree with my 
Association with regard to the stand that it has taken on the age 60 
rule. It is my belief, and that of the APAAS membership, that ALPA is 
supporting the age 60 rule for the sole purpose of political 
expediency, and not for safety, as the ALPA leadership has stated time 
and time again.
    I will not reiterate the examples given by my esteemed colleague, 
Captain Paul Emens, which clearly show that changing the age 60 rule 
will enhance safety, not degrade safety as the ALPA leadership has so 
strenuously stated time and time again. I will not reiterate more 
examples that indicate a critical pilot shortage is already impacting 
safety in our skies. And I will not quote additional paragraphs of the 
Hilton Study, which clearly show that turning 60 does not make someone 
a ``basket case''. I would, however like to make 3 additional points.
    ALPA does not represent all of its members when it continually 
flexes its political muscle to stop Congress from changing an outmoded 
rule from the 50's. ALPA has traditionally been an Association for 
change; a change for safety, a change for the better. ALPA is, however 
``stuck'', with its tire spinning in the mud of the past, on this 
issue. It is time for Captain Duane E. Woerth (president of ALPA), and 
the ALPA Board of Directors to extricate the Association from this 
quagmire, and get back on the road to the 21st Century.
    Furthermore ALPA, in my opinion, is a party to blatant age 
discrimination. I have a copy of a letter from Mr. Tony Gallegos, 
Chairman of the US Equal Employment Opportunity Commission in 1993, to 
the Office of the Chief Council of the Federal Aviation Administration, 
dated October 14, 1993. The letter states in part ``In sum, the Age 60 
rule should be lifted by the FAA. Medical and proficiency tests on an 
individual basis arc effective and non-discriminatory ways to assure 
that commercial pilots maintain the highest standards of safety at all 
ages''. Since ALPA has lobbied so hard and spent so many PAC dollars 
over such a long span of years to help the FAA keep the age 60 rule in 
place, it becomes obvious that ALPA has had no respect for Commissioner 
Gallegos' official opinion as the top US officer in the matter of 
discrimination, and has placed the good of the few over the good of the 
many in this particular matter.
    Finally, ALPA once championed the cause for change in an age 60-
labor dispute. In 1959, when American Airlines pilots (once represented 
by ALPA) were forced to retire at 60, ALPA fought and won their return 
to the pilot's seat. In a letter dated April 14, 1959, to Mr. C. R. 
Smith (then president of American Airlines) from then ALPA president 
Clarence M. Sayen, it was stated ``These individuals should be returned 
to active duty in accordance with the same standards of physical 
fitness and technical proficiency as applied to other pilots, 
irrespective of age''. One must wonder why if ALPA's official stand was 
such in 1959, it has changed? With all the advances in medical health 
and more than 5 years additional life expectancy now than in 1959, why 
has ALPA changed it's mind?
    In closing, I ask the Members of the Committee to consider my 
points when reflecting on all the information gathered today. Please do 
not let ``political expediency'', and the ``good of the few'', dominate 
your decisions.
        Respectfully submitted,
                                        Stephen G. Jacques,
                                                  Co-founder APAAS,
                                      ALPA member in good standing,
                                 United Air Lines Pilot Instructor.
    Attachments:

  <bullet> Letter from Mr. Tony E. Gallegos, EEOC Commissioner, to FAA 
        Office of Chief Council, October 14, 1993

  <bullet> Letter from Mr. Clarence M. Sayen, President of ALPA, to Mr. 
        C. R. Smith, President of American Airlines, April 14, 1959
                                 ______
                                 
                                Air Line Pilots Association
                                                     April 14, 1959
Mr. C. R. Smith,
President,
American Airlines, Inc.,
New York, NY.

Dear Mr. Smith:

    Thank you for your letter of April 3, received April 6, 1959, in 
response to my correspondence of March 24 concerning the actions of the 
Company in connection with the case involving Messrs. Burns, Cutrell, 
and Rentz.
    Although I frankly do not understand why there should be any 
confusion in this problem, your letter demonstrates that sone still 
exists. The following, therefore, is an effort to clarify our position 
completely and bring this matter to a conclusion.
    You are correct that the neutral sitting with the System Board of 
Adjustment did not pass on the question of what constitutes a proper 
retirement age for air line pilots. He did., however, rule that there 
was no mandatory retirement at age 60 and that the Company could not 
unilaterally and arbitrarily establish such an age, and, therefore, the 
Company had acted wrongfully in attempting to force Messrs. Burns, 
Cutrell, and Rentz to retire at age 60. Our position, therefore, has 
been. very simple. The Company is required to abide by this decision 
and return these individuals to service under the same conditions which 
existed at the time the company attempted to retire them because they 
had attained age 60.
    In all of our conversations with you on this subject, we have 
explained, that our immediate interest was the Company's compliance 
with the System Board of Adjustment decision. If individual pilots 
should subsequently resign from the Company on their own initiative and 
for whatever reason, this was their prerogative. We have noted. that 
you have made certain offers to these individual pilots in an effort to 
induce them to take such a course of action. This is your prerogative. 
However, you have no right to deny these pilots the rights to which 
they are entitled under your contract with this Association and the 
System Board award.
    We note with encouragement your decision to now return Captains 
Burns, Cutrell, and Rentz to active flying duty. Insofar as the 
understandings which you have stated are concerned, we do not see any 
great problem except we believe the following should be clearly 
understood:

    1. LThese individuals should be returned to active duty in 
accordance with the sane standards of physical fitness and technical 
proficiency as applied. to all other pilots, irrespective of age.

    2. LIt is the responsibility of the officials of the Federal 
Aviation Agency to certify as to the physical fitness and technical 
proficiency of all air line pilots, and we have no objection to their 
doing so in this instance subject to the conditions of Number 1 above.

    We note your continued interest in the establishment of a mandatory 
retirement age. As indicated to you in our previous conversations, you 
have a number of alternatives available to you which you are at liberty 
to exercise if you desire. As we see it, they are the following:

    1. LYou may serve a Section 6 notice of intended change in our 
contractual relations under the Railway Labor Act for the purpose of 
negotiating on this subject.

    2. LYou may attempt to persuade the Federal Aviation Agency to 
establish a rule or regulation on this subject.

    These are your prerogatives and you may exercise them as you see 
fit.
    We know that you are aware that the federal government has already 
established standards which must be met by all pilots relative to their 
physical fitness and their proficiency. All individuals must be 
examined at least every 6 months to determine whether such standards 
are being met. Any individual pilot in your employ must meet these 
standards regardless of his chronological age.
    We are hereby transmitting copies of your letter and this reply to 
Messrs. Burns, Cutrell, and Rentz and requesting that they immediately 
report once again for service with the Company. In doing so, we are 
advising them that, in our view, they are entitled to all of the 
benefits flowing from the award of the System Board of Adjustment and 
that they will be expected to meet the normal requirements for pilots 
in the employ of American Airlines, including federal certification as 
to physical fitness and proficiency as required. by the Civil Air 
Regulations.
        Sincerely yours,
                                         Clarence M. Sayen,
                                                         President,
                                       Air Line Pilots Association.
    cc:
    J. H. Burns
    E.A. Cutrell
    R.J. Rentz
    P.G. Atkins
    J.R. Lyons
                                 ______
                                 
                                     Office of the Chairman
               U.S. Equal Employment Opportunity Commission
                                   Washington, DC, October 14, 1993
Federal Aviation Administration,
Office of Chief Counsel,
Washington, DC.
                           Attention: Rules Docket (AGC-10)
                                           Docket No. 27264

To Whom It May Concern:

    As Chairman of the U.S. Equal Employment Opportunity Commission 
(EEOC or Commission), I am writing in response to notices published in 
the Federal Register \1\ soliciting comments about whether the Federal 
Aviation Administration (FAA) should initiate rulemaking about its 
regulation commonly referred to as the Age 60 Rule, 14 C.F.R. 
121.383(c)(1993). The Age 60 Rule bars individuals who have reached 
their 16th birthday from serving as pilots or co-pilots in flight 
operations governed by Part 121 of the FAA's rules, typically 
commercial flights.
---------------------------------------------------------------------------
    \1\ 58 Fed. Reg. 21,336 (1993) and 58 Fed. Reg. 33,316 (1993).
---------------------------------------------------------------------------
    The Commission has long been concerned about the impact of the Age 
60 Rule on pilots and co-pilots.\2\ The Commission enforces the Age 
Discrimination in Employment Act of 1967, as amended, 29 U.S.C. 621 et 
seq. (ADEA) and also provides leadership and coordination for all 
federal agencies' EEO programs under Executive Order 12067. The 
Executive Order requires the FAA to coordinate with EEOC to insure that 
its rules are consistent with the Commission's interpretation of the 
ADEA. For the reasons set forth below, I urge the FAA to initiate 
rulemaking about its Age 60 Rule and to lift the age 60 limit for 
commercial pilots and co-pilots.
---------------------------------------------------------------------------
    \2\ The Commission's longstanding interest in the Age 60 rule is 
demonstrated in public testimony, comments, and statements including: 
Testimony of Constance L. Dupre, Associate General Counsel, EEOC, Panel 
on the Experienced Pilots Study, National Institute on Aging, National 
Institutes of Health, May 27, 1981; EEOC'S Final Interpretations of the 
Age Discrimination in Employment Act of 1967, 49 Fed. Reg. 47,724 
(1981); EEOC Comments on the FAA's Advanced Notice of Proposed 
Rulemaking at 47 Fed. Reg. 29,784 (1982); Testimony of former EEOC 
Chairman Clarence Thomas before the House Select Committee on Aging, 
October 1985; August 12, 1986 letter from former EEOC Chairman Clarence 
Thomas to former FAA Administrator Donald Engen urging the FAA to grant 
a petition by 39 pilots for exemptions from the Age 60 Rule so they 
could participate in a controlled study envisioned by the National 
Institute of Aging panel.
---------------------------------------------------------------------------
    The ADEA prohibits employment discrimination against individuals at 
least 40 years of age. Under the ADEA, it is unlawful for an employer 
to have a maximum age limitation for its employees unless the employer 
can establish that the age limitation is a bona fide occupational 
qualification (BFOQ) ``reasonably necessary to the normal operation of 
the particular business.'' 29 U.S.C.A. 623 (f) (1) (West 1985). An EEOC 
regulation sets forth what an employer must prove to establish that age 
is a BFOQ:

    LThat (1) the age limit is reasonably necessary to the essence of 
the business, and either (2) that all or substantially all individuals 
excluded from the job involved are in fact disqualified, or (3) that 
some of the individuals so excluded possess a disqualifying trait that 
cannot be ascertained except by reference to age. If the employer's 
objective in asserting a BFOQ is the goal of public safety, the 
employer must prove that the challenged practice does indeed effectuate 
that goal and that there is no acceptable alternative which would 
better advance it or equally advance it with less discriminatory 
impact.

    29 C.F.R. 1625.6(b) (1992).\3\
---------------------------------------------------------------------------
    \3\ The EEOC's standard was cited with approval by the Supreme 
Court in Western Air Lines, Inc. v. Criswell, 472 U.S. 400, 416-17 
(1985) (affirming a judgment that Western Airline's mandatory 
retirement rule for flight engineers did not qualify as a BFOQ).
---------------------------------------------------------------------------
    The EEOC does not believe that a chronological age limitation for 
commercial pilots is a BFOQ because pilot skills and health can be 
assessed accurately on an individual basis, regardless of age. Indeed, 
the FAA itself relies on individualized testing as a basis for issuing 
medical certificates to people of all ages, including those age 60 and 
above, who serve as pilots in non-Part 121 flight operations. Moreover, 
in Commission litigation challenging pilot age limits imposed by 
employers whose flight operations are not governed exclusively by Part 
121, the EEOC'S experts have testified that Class I medical testing is 
fully sufficient to identify health or performance problems that may 
surface for pilots regardless of age. These experts also have stated 
that, to the extent further testing may be desirable, cardiac stress 
tests, enhanced blood work-ups, and neuropsychological screening could 
be added to the standard battery of Class I tests for all pilots.\4\
---------------------------------------------------------------------------
    \4\ Those employers that have resolved EEOC litigation by entering 
into consent decrees lifting age 60 policies are using such additional 
tests for certain groups of pilots, including but not limited to those 
over age 60, to develop data about their health. See infra discussion 
of EEOC litigation.
---------------------------------------------------------------------------
    As a result of the Commission's enforcement efforts under the ADEA, 
pilots over the age of 60 who had been restricted by company age 
limitations now fly in a variety of flight operations not governed by 
Part 121. Individuals over the age of 60 serve as pilots of 
experimental test flights in high performance military aircraft, fly 
jumbo jets both in testing and in certain passenger operations not 
subject to Part 121, and pilot corporate jets.
    In litigation brought by the Commission under the ADEA challenging 
the Boeing Company's policy of removing pilots at age 60 from flight 
status in non--Part 121 operations, the U.S. Court of Appeals for the 
Ninth Circuit held that the FAA'S Age 60 Rule did not establish a BFOQ 
as a matter of law. EEOC v. Boeing, 843 F.2d 1213 (9th Cir. 1988). This 
litigation was resolved in 1990 with a consent decree under which 
qualified Boeing pilots are permitted to remain on flight status up to 
their 63rd birthdays. Boeing will reassess this age policy in 1995. 
Subsequent to the entering of a similar consent decree in EEOC v. 
Rockwell Int'l. Corp., C.A. No. 91--0760 MRP (C.D. Cal.), the 
Commission has refused to consider any settlement that would involve a 
pilot age limitation of less than age 65.\5\ In fact, in the most 
recent consent decree of this type, which was entered in EEOC v. 
Grumman Corp, C.A. No. 92-1034 (E.D.N.Y.), all pilot age limitations 
were eliminated.\6\
---------------------------------------------------------------------------
    \5\ See EEOC v. Lockheed Corp., C.A. No. 90-5253 TJH (C.D. 
Cal.)(consent decree raised age limit to 65); EEOC v. McDonnell Douglas 
Corp., C.A. No. 91-0450 TJH (C.D. Cal.)(consent decree raised age limit 
to 65 for pilots at Douglas Aircraft Company Division).
    \6\ The Commission also entered into a conciliation agreement with 
McDonnell Douglas Corporation to eliminate pilot age limitations at the 
company's McDonnell Aircraft Company Division. During the course of 
directed investigations, Northrop Corporation, General Dynamics 
Corporation, United Technologies Corporation, and General Electric 
eliminated their pilot age limitations.
---------------------------------------------------------------------------
    The report titled ``Age 60 Project, Consolidated Database 
Experiments, Final Report'' (Hilton Report), recently prepared for the 
Civil Aeromedical Institute of the FAA, supports the conclusion that 
the age 60 limit for pilots is not defensible as a BFOQ under the ADEA. 
Based on careful statistical analysis, this report found ``no hint of 
an increase in accident rate for pilots of scheduled air carriers as 
they neared their 60th birthday.'' \7\ This conclusion is especially 
significant in light of the report's avowedly conservative 
interpretation of the data.\8\
---------------------------------------------------------------------------
    \7\ Hilton Report at 6-2.
    \8\ Id.
---------------------------------------------------------------------------
    In sum, the Age 60 Rule should be lifted by the FAA. Medical and 
proficiency tests on an individual basis are effective and non-
discriminatory ways to assure that commercial pilots maintain the 
highest standards of safety at all ages.
    Because the Age 60 Rule has precluded the development of data about 
pilots in Part 121 flight operations who are age 60 and older, raising 
the age limit for Part 121 pilots to age 65 for a specific period of 
time as a transitional measure may be a reasonable interim step.\9\ 
This would allow commercial pilots to continue flying beyond age 60 
while the FAA plans a full transition to individualized testing. While 
the Hilton Report cautiously recommends raising the age limit to 63, 
the data presented does not support an age 63 limitation under the 
ADEA. Moreover, an age limit of 63 would likely bar development of 
sufficient health and safety data about commercial pilots over the age 
of 60 to assess the need for any pilot age limits at all.
---------------------------------------------------------------------------
    \9\ The Commission's position is that age cannot be a BFOQ for 
commercial or any other pilots because pilot skills and health can be 
accurately assessed on an individual basis, regardless of age. However, 
as noted earlier, the Commission has settled litigation after the 
employer agreed to increase the pilot age limitation to age 65, thereby 
allowing the development of data about the health and safety record of 
pilots over age 60. See infra at pages 2-3.
---------------------------------------------------------------------------
    I look forward to working together with the FAA on this important 
matter in the future.
        Sincerely,
                                          Tony E. Gallegos,
                                                          Chairman.
                                 ______
                                 
                       Organization of Black Airline Pilots
Captain Paul Emens,
Government Affair Committee,
Southwest Pilots' Association,
Dallas, TX.

Dear Captain Emens:

    The Organization of Black Airline Pilots, Inc. opposes Sec. 121.383 
(c) of Title 14, Code of Federal Regulations (14 CFR), commonly 
referred to as the Age 60 Rule. We fear that if a federal agency is 
able to establish and continue a rule or practice that discriminates in 
contradiction of federal non-discrimination laws respecting age, 
similar unfair and unlawful practices may arise or expand to 
discrimination on the basis of race, gender, ethnicity or national 
origin.
    We believe the Rule was instituted, and is maintained, for 
political rather than safety reasons, That position is supported by;

  <bullet> The fact that other countries have abandoned mandatory 
        retirement at age 60.

  <bullet> The International Civil Aviation Organization (ICAO) allows 
        pilots to fly past age 60.

  <bullet> These pilots are allowed to fly Into U.S. airspace and 
        airports.

  <bullet> The Directors of the National Institute on Aging of the 
        National Institute of Health testified that medical science can 
        adequately protect public safety.

  <bullet> The Hilton Study (commissioned by the Federal Aviation 
        Administration (FAA)) recommended increasing the retirement 
        age.

  <bullet> The FAA grants waivers to airmen younger than 60 who have 
        the same and other maladies from which the flying public is 
        suppose to be being protected by the Age 60 Rule.

  <bullet> The FAA refuses to grant the waivers necessary to conduct 
        studies of the capabilities of pilots age 60 and older.

  <bullet> The FAA allows its own pilots to fly past age 60.
    We support your, and any other efforts, to rescind this arbitrary 
and egregious rule which owes its longevity, in a large part, to 
political action contributions from an organization which does not 
mention ``safety'' in its Policy Resolution opposing any change.
        Very truly yours,
                                          Clovis Jones, Jr,
                                                   President, OBAP.
                                 ______
                                 
      The Organization of Black Airline Pilots, Inc On FAR 14 CFR 
                            Sec. 121.383(c)
    ``The Age 60 Rule is unfairly and unlawfully discriminatory, and if 
a federal agency is able to establish and continue a rule or practice 
that discriminates in contradiction of federal non-discrimination laws 
respecting age, similar unfair and unlawful practices may arise or 
expand to discrimination on the basis of race, gender, ethnicity or 
national origin.''
    This is the position stated by The Organization of Black Airline 
Pilots, Inc. in the Petition to the U.S. Supreme Court.
                                 ______
                                 
                                                     March 27, 2000
Senate Commerce, Science, and Transportation Committee,
United States Senate,
Washington, DC.

Dear Senators:

    The Organization of Black Airline Pilots is opposed to 
discrimination on any basis, including age. Age, as the sole 
determining factor, is no more accurate in judging capability as a 
pilot, or anything else, than is race or gender. Fortunately, we have 
moved beyond the latter two, let's do the same for age.
    We support Senator Murkowski's Bill, S. 1855 because it provides 
temporary relief to a segment of the population. Along with bringing 
the U.S. closer to the standards of much of the rest of the world, we 
see it as moving m the right direction of eventually removing age as 
the sole criteria for judging one's capability.
    Over 60 airline pilots are flying in the U.S. on a daily basis--but 
they fly for foreign carriers. Over age 60 FAA pilots are flying daily 
in the same skies as the airliners. Yet the FAA has not warned the U.S. 
public about the ``dangers of the over 60 foreign airline or FAA 
pilots'' (i.e. the foreign airport security warnings).
    With the elimination of three pilot airplanes, new pilots are being 
put in the position of being ``one heartbeat away'' from Captain in 
today's two pilot crews. We feel that maintaining the cockpit 
experience level is the better approach to safety.
    Thank you for your attention. I trust you will move in favor of 
safety for the public, anti age discrimination for the U.S. pilots, and 
not be persuaded to succumb to the political pressure the major unions 
and corporations are sure to direct at you.
        Sincerely,
                                               Ray Dothard,
                                                          Chairman,
                                          Board of Directors, OBAP.
                                 ______
                                 
            Prepared Statement of Robin Wilkening, MD, MPH 
                     In Support of Senate Bill 1855
    Mr./Madam Chairman and distinguished Members of the Committee: 
Thank you for allowing me the opportunity to speak on this most timely 
issue. My name is Dr. Robin Wilkening, and I address you today as an 
Occupational Medicine physician, public health professional, and 
frequent flyer.
    As you are well aware, the Federal Aviation Administration insists 
that commercial airline pilots who reach their 60th birthday pose an 
unacceptable safety risk to air travelers. For the past 40 years the 
Age 60 Rule has purposely and systematically excluded highly trained 
pilots from employment based on age alone, thus exemplifying the very 
definition of age discrimination, an unacceptable situation in our 
modern society. That our most experienced pilots are forced prematurely 
from positions of command has the frightening potential to render the 
skies more hazardous for all travelers and thus represents a serious 
public health concern.
    Historically there have been 3 major hypotheses of interest in the 
medical arena regarding the employment of older pilots.

    1. LOlder pilots could have a greater likelihood of experiencing 
sudden incapacitation (primarily from cardiovascular causes) thus 
placing the aircraft and passengers at risk.

    2. LOlder pilots could experience subtle incapacitation (decrements 
in cognitive abilities) resulting in dangerous judgment errors that 
could compromise safety.

    3. LMedical and psychological testing procedures may not identify 
older pilots at risk for adverse health events.

    Sudden incapacitation secondary to underlying cardiac or 
cerebrovascular disease was the stated reason the actual age of 60 was 
chosen. In the general population of the United States in the late 
1950's there were, according to the FAA, higher death rates from heart 
attack and stroke comparing 60-64 year old men with 55-59 year old men. 
However, the select subset of the population comprised of airline 
pilots was never specifically evaluated. Moreover, the fact that 
actively employed pilots were well known, even in the 1950's, to exceed 
the national standards for health, fitness, and longevity was not 
acknowledged.\1\ In other words, it was an error then to assume that 
the characteristics of the general population applied to the population 
of pilots, and it remains incorrect to assume the same today. In fact, 
studies from the United States, England, Canada, Japan, Portugal, and 
the province of British Columbia demonstrate quite convincingly that 
pilots are not only healthier overall than the population from which 
they come, but enjoy significantly lower rates of heart disease, and 
thus the risk of sudden incapacitation from that cause, than do their 
countrymen. \2\<SUP>,</SUP> \3\<SUP>,</SUP> \4\<SUP>,</SUP> 
\5\<SUP>,</SUP> \6\<SUP>,</SUP> \7\<SUP>,</SUP> \8\ Simulator data have 
estimated the risk of incapacitation due specifically to a cardiac 
complaint as only one event in more than 20 million flight hours, with 
a calculated probability of an accident occurring as a result of 
incapacitation once in every 8,307,082,800 flight hours (or, stated 
another way, one episode every 400 years) assuming that all 
incapacitations occur in a critical point in the flight.\9\ Sudden in-
flight incapacitation is clearly a far less threat to aviation safety 
than are mishaps due to inexperienced pilot error.\10\ Forty years of 
medical scrutiny reveal no justification for maintaining the Age 60 
Rule based on the fear that the pilot-in-command of a multi-crew 
aircraft will compromise passenger safety due to sudden incapacitation.
---------------------------------------------------------------------------
    \1\ Ruppenthal KM. Compulsory Retirement of Air Line Pilots. 
Industrial and Labor Relations Review, 1961;14:528-547.
    \2\ Kulak L.L., Wick, Jr. RL, Billings CE. Epidemiological Study of 
In-flight Airline Pilot Incapacitation. Aerospace Medicine 
1971:42(6):670-672.
    \3\ Besco RO, Sangal SP, Nesthus TE. Veronoeau SJH. A Longevity and 
Survival Analysis for a Cohort of Retired Airline Pilots. DOT/FAA/AM-
95/5 February 1995.
    \4\ Irvine D, Davies DM. The Mortality of British Airways Pilots, 
1966-1989: A Proportional Mortality Study. Aviation Space, and 
Environmental Medicine 1992;63:276-9.
    \5\ Band PR, Le ND, Fang R, Deschamps M, Coldman AJ, Gallagher RP, 
Moody J. Cohort Study of Air Canada Pilots: Mortality, Cancer 
Incidence, and Leukemia Risk, American Journal of Epidemiology 1996; 
143(2): 137-143.
    \6\ Kaji M, Tango T, Asukata N, Tajima N, Yamamoto N, Yamamoto Y, 
Hokari M. Mortality Experience of Cockpit Crewmembers from Japan 
Airlines. Aviation, Space, and Environmental Medicine 1993;64:745-750.
    \7\ Castelo-Branco A. Cabral-Sa A, Coelho Borges 3. Comparative 
Study of Physical and Mental Incapacities Among Portugesc Airline 
Pilots Under and Over Age 60.Aviation, Space, and Environmental 
Medicine 1985;56:752-757.
    \8\ Salisbury DA. Band PR, Threlfall WJ, Gallagher RI'. Mortality 
Among British Columbia Pilots. Aviation, Space, and Environmental 
Medicine 1991;62:351-352.
    \9\ Chapman PJC. The Consequences of In-flight Incapacitation in 
Civil Aviation. Aviation, Space, and Environmental Medicine 
1984:55:497-500.
    \10\ Froom P. Benbassat J. Gross M, Ribak J, Lewis B. Air 
Accidents, Pilot Experience, and Disease-Related Inflight Sudden 
Incapacitation. Aviation, Space, and Environmental Medicine 198819:278-
281.(*See note below.)
---------------------------------------------------------------------------
    In terms of subtle incapacitation there is little argument that the 
normal, healthy, successful aging process is accompanied by decreases 
in cognitive function over time in all population groups. However, 
these decreases are rarely manifested prior to the age of 70, even in 
non-pilot populations. \11\<SUP>,</SUP> \12\ In addition, it is well 
known that many truly elderly persons--never mind 60-65 year olds--have 
outstanding cognitive abilities. There is considerable variation in 
cognitive functioning within age groups; some individuals simply show 
significantly better mental agility than their peers. Pilots 
demonstrate consistently superior task performance across all age 
groups when compared to age-matched non-pilots.\13\ Simulator studies 
have shown that pilot expertise eliminates age differences in some 
aviation-related tasks and moderates age differences in others.\14\ 
Most importantly, actual flight performance data, the measure of 
greatest significance to public safety, demonstrate convincingly that 
older pilots are as safe as, and in some cases safer than, younger 
pilots, \15\<SUP>,</SUP> \16\<SUP>,</SUP> \17\<SUP>,</SUP> \18\ In 
other words, highly educated and highly trained pilots who have 
successfully passed periodic comprehensive medical examinations and 
flight evaluations retain the psychomotor skills essential for safe 
operation of jet aircraft beyond the age of 60 years. Most 
industrialized nations have abolished 60 as a mandatory retirement age 
for commercial pilots, and at least one of these used United States 
data to justify that decision. There remains no scientific rationale 
for maintaining the Age 60 Rule based on the fear of unrecognized 
subtle incapacitation of the pilot-in-command.
---------------------------------------------------------------------------
    \11\ Shock NW, Greulich RC, Adrus R., Arenberg D, Costa. Jr. PT. 
Lakatta EG, Tobin ID. Normal Human Aging: The Baltimore Longitudinal 
Study of Aging. NIH Publication Number 84-2450 November 1984.
    \12\ Stuck, AE, van Gorp WG, Josephson KR, Morgenstern H, Beck JC. 
Multidemensional Risk Assessment versus Age as Criterion for Retirement 
of Airline Pilots. Journal of the Americal Geriatric Society 
1992;40:526-532.
    \13\ Tsang PS, Shaner TL. Age, Attention, Expertise, and Time-
Sharing Performance. Psychology and Aging 1998; 13(2):323-47.
    \14\ Morrow D, Leirer V, Altieri P, Fitzsimmons C. When Expertise 
Reduces Age Differences in Performance Psychology and Aging 
1994;9(1):134-148.
    \15\ Mohler SR, Bedell RHS, Ross A, Veregge E.J. Aircraft 
Accidentsby Older Persons. Aerospace Medicine 1969: May:554-6. 
(*Demonstrations referred to are at the end the prepared statement.)
    \16\ Predicting Pilot-Error Incidents of US Airline Pilots Using 
Logistic Regression. Applied Ergonomics 1997; 28(3):209-12.
    \17\ Rebok GW, Grabowski JO, Baker SP. Lamb MW, Willoughby S. Li G. 
Pilot Age and Performance as Factors in Aviation Crashes. Presented at 
American Psychological Association meeting, Boston MA. August 1999. 
(*Demonstrations referred to are at the end the prepared statement.)
    \18\ Kay EJ, Hillman DJ, Hyland DT, Voros RS, Harris R.M., Deimler 
JD. Age 60 Study. October 1994: DOT/FAA/AM-94/22.
---------------------------------------------------------------------------
    In 1979 the United States Congress authorized funding for the 
project that was to become the 1981 National Institutes of Health/
National Institute on Aging Panel on the Experienced Pilot Study. This 
report that concluded that the age 60 limit be retained for pilots in 
command and for first officers, though the report stated quite plainly 
that no special medical significance could be attached to age 60 as a 
mandatory retirement age for airline pilots. The concern of this panel 
was not the presence of known risk in this group of healthy individuals 
but rather the inability of the medical science of the time to identify 
potentially unsafe pilots at any age.\19\ In the twenty years since 
this study, however, significant advances in diagnostic technology have 
rendered the panels concerns moot. Sophisticated yet commonly available 
diagnostic tests can, along with regularly scheduled aviation medical 
evaluations, adequately identify airmen either at risk for catastrophic 
events \20\ or who have subtle decrements in cognitive performance.\21\ 
In fact, since the early 1980's medical tests have been used routinely 
to justify the return to flying of thousands of pilots under age 60 who 
have coronary artery disease. valvular heart disease, hypertension, 
alcoholism, psychological and neurological impairments, sensory 
perception deficits, and other conditions.\22\ Pilots who have had 
heart attacks, who have had heart surgery, and who have had transplants 
have been returned to unrestricted duty. Despite the common use of 
these diagnostic measures on behalf of unhealthy younger pilots these 
same standards are not applied to healthy 60 year olds. This unethical 
double standard in medical evaluations based on age alone is not 
defensible!
---------------------------------------------------------------------------
    \19\ Report of the National Institute on Aging Panel on the 
Experienced Pilots Study. National Institutes of Health Bethesda MD. 
August 1981.
    \20\ Bruce PA, Fisher LD. Exercise-Enhanced Risk Factors for 
Coronary Heart Disease vs. Age as Criteria for Mandatory Retirement of 
Health Pilots. Aviation, Space, and Environmental Medicine 1987:58:792-
798.
    \21\ Taylor JL, O'Hara R., Mumenthaler MS, Yesavage, JA. 
Relationship of CogScreen--AE to flight simulator performance and pilot 
age. Aviation, Space, and Environmental Medicine 2000;71(4):373-80.
    \22\ Mohler SR. Aircrew Physical Status and Career Longevity. Human 
Factors Bulletin 1984;31(1):l-8.
---------------------------------------------------------------------------
    Forty years of medical science soundly refute the notion that the 
age of 60 heralds a universal, inevitable, and precipitous decline in 
commercial airline pilots' physical health and mental proficiency. 
Still, the FAA clings irrationally to the notion that age of 60 alone 
represents an appropriate single standard for the evaluation of older 
pilot fitness. If any one of you were to undergo cardiac surgery or 
bone marrow transplantation tomorrow you would naturally want your life 
be in the hands of the most knowledgeable and skilled doctor, 
regardless of his or her age. When I fly--no, when my children fly--I 
want that very same level of professional ability and experience in the 
Captain. The archaic and discriminatory Age 60 Rule prohibits the most 
experienced pilots from performing the work they know and do better 
than anyone else in the business, thereby compromising your safety, my 
safety, and the safety of all passengers. Thank you.
    *Demonstrations referred to in the footnotes follows:


    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    
                                 ______
                                 
    (*Note: Referred to in footnote number 10.)
                             Technical Note
 Air Accidents, Pilot Experience, and Disease-Related Inflight Sudden 
                             Incapacitation
              Paul Froom, M.D., Jochanan Benbassat, M.D.,
               Moshe Gross, M.D., Joseph Ribak, M.D., and
                          Basil S. Lewis, M.D.
   Israel Air Force Aeromedical Center, Tel Hashomer; Department of 
Medicine, Hadassah University Hospital, Mt. Scopus, Jerusalem; and the 
  Department of Cardiology, Lady Davis Carmel Hospital, Haifa, Israel
    Froom P, Benbassat J, Gross M., Ribak J, Lewis BS. Air accidents, 
pilot experience, and disease-related inflight sudden incapacitation 
Aviat. Space Environ. Med. 1988; 59:278-81.
    The epidemiology of sudden death, the etiology of inflight sudden 
incapacitation, and the influence of pilot age and experience on air 
accident rates are reviewed in order to determine the aeromedical 
emphasis needed to minimize accidents. Sudden deaths in men over age 35 
are nearly all due to coronary artery disease, whereas in those under 
35 years they are mostly due to hypertrophic cardiomyopathy. The 
incidence of fatal accidents from human error is, however, far greater 
than that from physical illness. Since inexperienced pilots have a 2-3 
times increased incidence of mishaps due to pilot error, the estimated 
risk of disease related in-flight sudden incapacitation should be 
balanced by consideration of pilot experience. Therefore, it may be 
preferable to grant waivers to experienced pilots with an increased 
incidence of disease-related inflight sudden incapacitation than to 
replace them with novices. We conclude that overly strict medical 
criteria may paradoxically increase accident rates.
    The major causes of inflight sudden incapacitation in civil and 
military pilots are acute coronary events (18,20,23,27,28), new onset 
idiopathic epilepsy, and physiological problems including spatial 
disorientation, hypoxia, and improper G-protection techniques (27,33). 
Although less than 1 percent of all air accidents are due to sudden 
incapacitation (23,27), pilots receive extensive health risk 
assessments because, while accidents involving ground transport 
generally result in minimal damage (19), sudden incapacitation in the 
air is costly in terms of loss of life and aircraft (1,7,18).
    The role of the flight surgeon in detecting latent disease in order 
to prevent inflight sudden incapacitation is controversial. Some 
authors emphasize the necessity for continued vigilance by the flight 
surgeon for pilots who may have clinical or subclinical coronary artery 
disease (23), and stress the importance of routine medical examination 
of pilots in order to detect those likely to experience acute coronary 
events (12). Others believe that ``routine medical examinations are 
not, and presumably never will be, capable of preventing incapacitation 
on duty'' (18).
    The flight surgeon faces a dilemma when detecting a cardiovascular 
abnormality (e.g., a run of ventricular tachycardia) in apparently 
healthy young men on annual or biannual testing. The risk of disease-
related sudden incapacitation may be minimally increased, whereas 
further evaluation of an abnormal test result is often expensive and 
stressful with associated morbidity and mortality. In addition, the 
effect on the accident rate of grounding such asymptomatic pilots is 
uncertain, especially if an experienced pilot is replaced by a novice. 
In order to define the role of the annual screening physical 
examination in preventing accidents, we review the epidemiology of 
sudden death and the etiology of air accidents due to either human 
error or inflight sudden incapacitation.
Epidemiology of Sudden Death
    The incidence of sudden death in the general population is age-
dependent (6,11,13); the risk of sudden death in a 40-year-old man is 
10 times that of a 20-year-old (Table I). Other risk factors are much 
less predictive (6,11). Using a combination of risk factors, Kannel et 
al. (11) were able to define a group in the Framingham cohort with a 
risk high profile (3-fold increase in the incidence of sudden death), 
and a group with a low risk profile who had one-fifth the incidence of 
expected sudden death. These data can be used in conjunction with 
incidence figures (Table I) to determine an estimated incidence for any 
given individual. For example, a 40-year-old man in the high risk group 
would have an estimated incidence of sudden death of 30 per 1000 men 
per 10 years (10/1000/10 years x 3). On the other hand, a 40-year-old 
man in the low risk group would have an estimated incidence of sudden 
death similar to men in their twenties and thirties (2/1000/10 years).


                          Table I. Incidence of Sudden Death in the General Population.
----------------------------------------------------------------------------------------------------------------
                                                                      Sudden deaths
                  Age                  -------------------------------------------------------------------------
                                                  No/l000/l0 years                    No/1000/l000 hours
----------------------------------------------------------------------------------------------------------------
              20-29                                                      1                                0.011
              30-39                                                      3                                0.034
              40-49                                                     10                                 0.11
              50-59                                                     20                                 0.22
              60-69                                                     60                                 0.67
----------------------------------------------------------------------------------------------------------------



                              Table II. Etiology of Sudden Death According to Age.
----------------------------------------------------------------------------------------------------------------
                           Disease                                  <35 years old                Over 40
----------------------------------------------------------------------------------------------------------------
              CAD*                                                             10-30%                 over 90%7
              Cardiomyopathy                                                      66%                      rare
              Anomalous LCA                                                       14%                      rare
              unknown                                                           3-16%                      rare
              Marfan's with aortic
              rupture                                                              6%                      rare
              ICH**                                                             9-17%                      2.4%
----------------------------------------------------------------------------------------------------------------
*CAD = coronary artery disease.
**ICH = intracranial hemorrhage.

    The cause of sudden death is variable, but age is the most 
important variable in predicting its etiology (3,6,11,13,21,24); 
coronary disease is the usual cause after age 35, while hypertrophic 
cardiomyopathy is the most common cause of sudden death in those under 
35 years of age (Table II). Coronary artery disease may occur in men 
under age 35 and cause sudden incapacitation (7), but coronary disease 
is responsible for only 10-30 percent of sudden deaths in that age 
group (21,24). The low incidence of coronary artery disease and 
associated sudden death in young men limits the importance of risk 
factors in its prediction.
Coronary Artery Disease in Pilots
    It may not be possible, however, to extrapolate from studies of 
sudden death of unselected populations to those of air force personnel. 
For example, uncontrolled studies of U.S. Navy and airline transport 
pilots, have shown that pilots have a lower incidence of coronary 
events than does the general population (12,17). The reported decreased 
incidence may be due to selection factors resulting in a cohort with 
higher socioeconomic status, higher educational level, and in better 
physical condition (10), or could be a result of under-reporting (5). 
Autopsy studies have not shown differences in significant coronary 
artery disease in pilots of both civilian and military aircraft 
compared to age matched control subjects, with a 10-20 percent 
prevalence of 50 percent (30,32) or even 75 percent (29) stenosis of 
one or more coronary arteries. Pilots also show the same steep 
increased incidence of symptomatic coronary artery disease after age 35 
(10). It appears safe to assume, therefore, that latent atherosclerosis 
is prevalent in current fighter pilots (20).
    Extrapolation from studies of the general population to cohorts of 
pilots may also be unwarranted because of the hostile flight 
environment to which the pilot is subjected. Strenuous activity 
probably increases the risk of sudden death in people suffering from 
coronary artery disease (24,25). Pilots are exposed to many flight-
induced stresses, including high-sustained G forces, which could lead 
to myocardial ischemia in men with coronary artery lesions (16). In 
civilian pilots experiencing inflight myocardial infarction, the event 
was more likely to occur during critical stages of the flight such as 
takeoff or landing, rather than during the cruising phase (18,23). 
Recently, however, it has been shown that aviators with no lesions 
greater than 30 percent and no aggregate of lesions greater than 50 
percent can be safely returned to flying status (22). The lesions 
progressed, however, in some of these pilots who were subsequently 
grounded. Further study in this area is clearly indicated.
Fatal Aircraft Accidents Due to Sudden Incapacitation
    Sudden incapacitation is rarely implicated in fatal aircraft 
accidents (12,15,18,27,28,32,35). Only 13 of 1,404 fatal general 
aviation accidents (0.93 percent) were reportedly due to inflight 
incapacitation (23), and sudden incapacitation due to disease is 
equally uncommon in the military (27,28,30). The cause of sudden 
incapacitation leading to fatal accidents differs in the military and 
civilian pilot populations due to the different ages of the pilot 
cohorts and the different demands of the flight profiles. The civilian 
pilot population is older, and acute coronary events are responsible 
for nearly all cases of sudden incapacitation (18,20,23), usually 
occurring in men over age 40. In the military environment the most 
common causes of sudden incapacitation are ``physiologic,'' including 
spatial disorientation, hypoxia, and improper G-protection techniques 
(27,33). New-onset epilepsy is the most common disease-related cause of 
sudden incapacitation (27), while cases due to coronary artery disease 
are rare, occurring almost exclusively in pilots over age 35 (28). The 
incidence of fatal accidents due to inflight sudden incapacitation is 
about 0.5/1000 pilots/l000 hours (27), while the incidence due to 
coronary artery disease is no more than 0.01/1000 pilots/l000 hours 
(28).
Age, Experience and the Incidence of Error-Related Air Accidents
    The largest single cause of premature mortality in pilots is 
aircraft accidents (l5,35), with human error being responsible for 50-
75 percent of these preventable deaths in both civil and military 
flying personnel (1,33). In the British Army Air Corps, the helicopter 
accident rate is 1/13,600 hours and the fatality rate 1/35,000 hours 
(33). In the USAF there is one fatal accident per 40,000 hours (28) 
which is equivalent to 25 fatal accidents per 1000 pilots averaging 
1000 hours of flight time. This is 50 times greater than fatal 
accidents due to inflight sudden incapacitation of all etiologies 
(27,28).
    The accident rate is effected by both the age and experience of the 
pilots. The incidence of accidents for fighter pilots is lowest at 30-
33 years of age, 3-fold less than in pilots under 26 years of age (9). 
Transition flying may be particularly hazardous (2,35). Fighter and 
attack pilots with less than 300 hours have nearly twice the incidence 
of mishaps compared to pilots with over 500 hours in the same plane 
(2). Therefore, assuming that human error is responsible for 50 percent 
of fatal accidents (1,33) and an even age distribution of pilots, 
replacing a pilot 30-33 years old with one under 26 years old would 
result in an increased accident rate of 12.5 per 1000 pilots per 1000 
hours of flight time [(37.5-12.5) x 50% = 12.5].
Balancing Risks
    Current medical practice in aviation medicine dictates grounding 
the pilot with a medically related increased risk of sudden 
incapacitation. The influences of age and pilot experience, however, 
are generally not taken into consideration. Most flight surgeons, for 
example, would restrict a 30-year-old fighter pilot with a run of 
ventricular tachycardia (4,8) to non-high-performance aircraft because 
of a possible, but not established, increased risk of subsequent sudden 
death (14,26), even after a normal exercise test, echocardiogram, and 
coronary arteriogram. Although there is justified concern that +Gz 
forces could lead to worsening of the arrhythmia, since complex and 
repetitive ventricular premature beats (VPBs) are commonly observed in 
asymptomatic centrifuge riders during +Gz stress (31), we are aware of 
only one report of loss of consciousness during +Gz forces associated 
with ventricular tachycardia, this in a centrifuge rider whose 
echocardiogram, exercise test, and Holter monitoring were normal (34). 
Studies need to be done in pilots with complex VPBs to test their 
response to +Gz forces. Still, even if there was a 10-fold increased 
incidence of disease-related inflight sudden incapacitation and sudden 
death, replacing the 30-year-old fighter pilot with a novice would 
probably result in an increased accident rate (Table III). Fatal 
accidents due to human error could be estimated to increase from 6.25 
to 18.75 per 1000 pilots flying an average of 1000 hours (assuming 50 
percent of the fatal accidents are due to human error), while the 
decrease in incidence of inflight sudden incapacitation would be only 
from 5 to 0.5 per 1000 pilots per 1000 hours, and from all causes of 
sudden death from 0.34 to 0.01 per 1000 pilots per 1000 hours. The net 
result would be an increase in the accident rate of 7.7 (18.75-6.25-5 + 
0.5-0.34 + 0.01 = 7.7). This net increase may be even greater since 
there is overlap between causes of sudden death and those of inflight 
sudden incapacitation. Secondly, most cases of inflight sudden 
incapacitation are not disease related and may not be affected by the 
risk factor. Granting a waiver to the experienced pilot with 3 
consecutive VPBs, therefore, necessitates a shared medical and 
nonmedical command decision. This is contrary to accepted practice 
where the medical establishment often takes unilateral responsibility 
for its decisions.
    In most countries the line commander may overrule medical 
decisions. Flight surgeons, on the other hand, may take into 
consideration the importance of experience as part of the ``art' of 
aeromedical practice. Furthermore, flight surgeons may ignore 
``incidental'' findings if they believe the increased risk is only 
minimal. These approaches, however, leave the line commander and flight 
surgeon at Considerable risk of being accused of negligence. Despite 
the fact that the likelihood of a medically-related air accident is 
remote, unexplained accidents are common (28). Shared responsibility, 
however, based on a balanced risk assessment would justify such 
decisions by the line commander and medical establishment. These 
decisions should be made only after the pilot is informed of the 
increased risk due to his medical condition, and agrees to continue 
flying despite the risk.


Table III. The Effect on the Accident Rate If an Experienced Pilot with a 10-fold Increased Risk of Sudden Death
 or Inflight Sudden Incapacitation Is Replaced by a Younger, More Inexperienced Pilot (Fatal Accidents per 1000
                                     Pilots per 1000 Hours of Flight Time).
----------------------------------------------------------------------------------------------------------------
                                                                      In-flight         Fatal Air Accidents  Due
           Age of  Pilot                  Sudden Death             Incapacitation            to Human Error*
----------------------------------------------------------------------------------------------------------------
            20-26                                    +0.011                      +0.5                    +18.75
            30-33                             -0.034 x l0**                 -0.5 x 10                     -6.25
            Results**                                  -0.3                      -4.5             +12.5 = + 7.7
----------------------------------------------------------------------------------------------------------------
*Assuming that 50 percent of accidents are due to human error and that data on mishap rates can be extrapolated
  to fatal air accidents.
**The net increased risk of accidents caused by replacing a 30-33-year-old pilot, who has a l0x increased risk
  of sudden death or inflight incapacitation, with a younger and more inexperienced pilot.


    The above calculations are based on results derived from both 
unselected and selected cohorts and should be interpreted with caution. 
There may be differences in the incidence of disease in pilots of 
different countries, and accidents due to pilot error may also vary due 
to different flight profiles. Experience and age-related mishap rates 
may not necessarily be extrapolated to rates of fatal accidents. In 
addition, the effect of age on accident rates has been shown to be 
aircraft specific. Helicopter pilots, for example, have a steady 
increase in mishap rates with age (2). Finally, studies on inflight 
sudden incapacitation were completed over 15 years ago and the results 
may not be applicable to flying conditions today. Still, even if the 
figures vary, the concept that medical decisions should be balanced by 
consideration of pilot age and experience remains valid.
    We conclude that, even in countries where manpower and cost are not 
limiting factors, overly strict medical criteria may result in an 
increased rather than decreased accident rate. Lamb pointed out that a 
``hardnosed attitude'' may lead pilots to conceal symptomatic disease, 
increasing the accident rate (29). We conclude that replacing 
experienced, asymptomatic fighter pilots found to have an abnormal 
incidental finding on routine examination may also paradoxically 
increase the accident rate. Furthermore, research in accident 
prevention is warranted in order to more clearly identify those pilots 
with the lowest accident rates and to provide the proper incentives to 
keep them on active flying duty. These efforts would be more likely to 
have an effect on accident rates than would additional efforts to 
prevent disease-related inflight sudden incapacitation.
References
    1. Billings CE, Reynard WD. Human factors in aircraft incidents: 
results of a 7-year study. Aviat. Space Environ. Med. 1984 55:960-5.
    2. Borowsky MS, Wall R. Flight experience and naval aircrafts 
mishaps. Aviat. Space Environ. Med. 1983; 54:440-6.
    3. Burch GE, DePasquale NP. Sudden unexpected natural death. Am. J. 
Med. Sci. 1965; 249:86-97.
    4. Campbell RWF. Ventricular ectopic activity and its relevance to 
aircrew licensing. Eur. Heart J. 1984; 5(suppl A):95-8.
    5. American College of Cardiology. Cardiovascular problems 
associated with aviation safety: Eighth Bethesda Conference of the 
American College of Cardiology. Task Force I: identification ischemic 
heart disease. Am. J. Cardiol. 1975; 36:573-628.
    6. Chiang BN, Perlman LV, Fulton M, Ostrander LD, Epstein FH. 
Predisposing factors in sudden cardiac death in Tecumseh, Michigan. 
Circulation 1970; 41:31-7.
    7. De Hart RM. Coronary heart disease: an expensive Air Force 
problem. Aviat. Space Environ. Med. 1980; 51:1057-63.
    8. Engelberg AL, Gibbons HL, Doege TC. A review of the medical 
standards for civilian airmen: synopsis of a 2-year-study. J.A.M.A. 
1986; 255:l589-99.
    9. Erraud MY, Borowsky MS. Age and pilot performance. Aviat. Space 
Environ. Med. 1985; 56:553-8.
    10. Hoiberg A. Cardiovascular disease among U.S. Navy pilots. 
Aviat. Space Environ. Med. 1985; 56:397-402.
    11. Kannel WB, Doyle JT. McNamara PM, Quickenton P, Gordon T. 
Precursors of sudden coronary death. Circulation 1975; 51:606-13.
    12. Kelly HB. Coronary artery disease in aviation. J. R. Soc. Med. 
1979; 72:374-6.
    13. Kennedy HL, Whitlock JA. Sudden death in young persons in the 
St. Louis metropolitan area. Circulation 1984; 70(suppl II): 1961.
    14. Kennedy HL, Whitlock JA, Sprague MK, Kennedy LJ, Buckinham TA, 
Goldberg RJ. Long-term follow-up of asymptomatic healthy subjects with 
frequent and complex ventricular ectopy. N. Engl. J. Med. 1985; 
312:193-7.
    15. Kulak L, Wick RL Jr, Billings CE. Epidemiological study of in 
flight incapacitation in airline pilots. Aerospace Med. 1971; 42:670-6.
    16. Laughlin MH. The effects of +Gz on the coronary circulation: a 
review. Aviat. Space Environ. Med. 1986: 57:5-16.
    17. Lederen LG (moderator). Limits of cardiovascular normality for 
flying. In: The first international symposium in cardiology in 
aviators. Lamb LE, ed. Brooks Air Force Base, TX: The USAF Aerospace 
Medical Center (ATC), 1959:414.
    18. Leighton-White RC. Airline pilot incapacitation in flight. 
Aerospace Med. 1972; 43:661-4.
    19. Levy RL, de la Chapelle CE, Richards DW. Heart disease in 
drivers of public motor vehicles as a cause of highway accidents. 
J.A.M.A. 1963; l84:143-6.
    20. Manning GW. Aviation cardiology in Canada. Am. J. Cardiol.1975; 
36:576-83.
    21. Maron BJ, Epstein SE, Roberts WC. Causes of sudden death in 
competitive athletes. J. Am. Coll, Cardiol 1986; 7:204-14.
    22. McGranahan GM, Hickman JR, Uhl GS, Montgomery MA, Triebwasser 
JH. Minimal coronary artery disease and continuation of flying status. 
Aviat. Space Environ. Med. 1983; 54:548-50.
    23. Mohler SR, Booze CF. U.S. fatal general aviation accidents due 
to cardiovascular incapacitations: 1974-1975 Aviat. Space Environ. Med. 
1978; 49:1225-8.
    24. Moritz AR, Zamcheck N. Sudden and unexpected deaths of young 
soldiers. Arch. Path. 1946; 459-94.
    25. Northcote RJ, Ballantyne D. Sudden cardiac death in sport. Br. 
Med. J. 1983; 287:l357-9.
    26. Rabkin SW, Francis AL, Mathewson MD, Tate RB. The relationship 
of ventricular ectopy in men without apparent heart disease to the 
occurrence of ischemic heart disease. Am. Heart J. 1981; 101:l35-42.
    27. Rayman RB. Sudden incapacitation in flight: Jan 1966-30 Nov. 
1971. Aerospace Med. 1973; 44:953-5.
    28. Rayman RB. Myocardial infarction; an in-flight problem. 
Aerospace Med. 1974; 45:86-9.
    29. Rigal RD, Lovell FW, Townsend FM. Pathological findings in the 
cardiovascular systems of military flying personnel. In: The first 
international symposium on cardiology in aviators, La. ed. Brooks Air 
Force Base, TX: The USAF Aerospace Center (ATC), 1959:65-76.
    30. Scheinman HZ. Coronary atherosclerosis in military pilots: I. 
relationship to flying and aviation accidents Aerospace Med.1968; 
39:1348-51.
    31. Shubrooks SJ. Changes in cardiac rhythm during sustained high 
levels of Positive (+Gz) acceleration. Aerospace Med. 1972; 43:1200-6.
    32. Underwood Ground KEA. Prevalence of coronary atherosclerosis in 
healthy United Kingdom aviators. Aviat. Space Environ. Med. 1981; 
11:696-701.
    33. Vyrnwy-Jones P. A review of Army Air Corps helicopter 
accidents,1971-1982. Aviat. Space Environ. Med. 1985; 56:403-409.
    34. Whinnery JE, Laughlin MH, Uhe GS. Coincident loss of 
consciousness and ventricular tachycardia during +Gz stress. Aviat. 
Space Environ. Med. 1980; 51:827-31.
    35. Zeller AF, Lentz EC, Burke JM. Current flying age, experience 
and non-jet accidents. Aerospace Med. 1963; 34:222-5.
                                 ______
                                 
         Tax Issues--Excerpted Opinion of a Consulting Actuary
               (full Issues document available from PAAD)
    There is a very simple method for implementing a mandatory 
retirement age increase without adversely affecting retirement benefits 
for any class of pilots. These classes include pilots wishing to retire 
at age 60 regardless of any rules change as well as those electing to 
make use of any relaxation in current rules. Section 415 of the 
Internal Revenue Code prescribes limits on benefits or contributions 
for anyone participating in a tax qualified retirement plan.
    A special provision substitutes a different key date in the case of 
commercial airline pilots retiring at or after age 60. This is a 
crucial provision, and I quote: ``415(b)(9)(A)(ii) if, as of the time 
of the participant's retirement, regulations prescribed by the FAA 
require an individual to separate from service as a commercial airline 
pilot after attaining any age occurring on or after age 60 and before 
the Social Security retirement age, paragraph (2)(c) . . . shall be 
applied by substituting such age for the Social Security retirement 
age.''
    If the mandatory retirement age is to be increased without 
adversely affecting pilots' retirement benefits, this provision must 
clearly be changed.
The Ideal Change
    Under the ideal change, 415(b)(9)(A)(ii) would be amended to read 
simply ``415(b)(9)(A)(ii) Paragraph (2)(c) shall be applied by 
substituting age 60 for the Social Security retirement age.

    Senator Gorton. Thank you. Ms. McElroy.

 STATEMENT OF DEBORAH C. McELROY, PRESIDENT, REGIONAL AIRLINE 
                          ASSOCIATION

    Ms. McElroy. Thank you. Good afternoon, Mr. Chairman, 
Senator Rockefeller, and Members of the Committee. Thank you 
for providing me the opportunity to address pilot hiring, 
training, and retention as it affects the regional airline 
industry.
    The regional airline industry is growing at a very 
impressive rate. Last year, regionals carried 78 million 
passengers, an increase of 10 percent over 1998, and more than 
50 percent over the last decade. Today, one out of every eight 
domestic passengers flies on a regional airline.
    This growth is projected to continue, with passenger 
enplanements expected to reach 104 million by the year 2005. By 
this time regional jets may represent over 50 percent of the 
regional fleet, and may carry more than 70 percent of our 
passengers.
    Regional airline growth in the continued integration of 
regional jets offers improved access to the national air 
transportation system for the small and medium-sized 
communities. However, such growth does not come without 
challenges, including maintaining adequate staffing levels 
during increased periods of pilot attrition.
    Significant growth by the major and regional airlines last 
year meant pilots were leaving their positions at regional 
carriers with greater frequency than had been projected. As a 
result, a few regional carriers canceled a number of flights 
last summer, creating a situation that was unacceptable to the 
management of our member airlines, as well as to the customers 
we value and endeavor to serve.
    Though attrition appears to have decreased this year, 
pilots continue to progress from regional carriers to major 
airlines, their natural career path. Pilot attrition is a fact 
of life for regional airlines. We are better managing that 
attrition to ensure adequate staffing to provide the safety and 
schedule integrity important to our passengers.
    There are several reasons for the difficulties experienced 
by some airlines last year. Significant growth for both the 
major and regional airlines was one factor. Additionally, the 
FAA's revised policy on reserve duty caused many major and some 
regional carriers to hire additional pilots not previously 
planned for, but that is in the past.
    Today's regional airlines have refined their recruiting 
policies, adopted continuous hiring practices, and invested 
heavily in enhanced training programs designed to provide a 
constant supply of highly trained, qualified pilots to 
alleviate the strain of increased turnover.
    There has been some discussion of pilot shortage, but we 
would disagree. Regional airlines continue to recruit and hire 
pilots from a very qualified pool of applicants from general 
aviation, corporate aviation, and the military. Additionally, 
several airlines have established relationships with aviation 
universities and with pilot recruiting firms. These 
relationships assist airlines in attracting talented pilot 
candidates who will succeed through the intensive training 
programs our airlines require.
    While such pilot attrition presents a great challenge to 
some smaller airlines, the growth in our industry means all 
carriers must stay ahead of the pilot hiring curve. To do so, 
we have adopted measures aimed at preventing a recurrence of 
crew-related flight cancelations since last summer, and have 
taken steps to protect schedule integrity during times of high 
pilot turnover.
    Regional airlines spend more than $13,000 to train a new 
hire pilot and more than $12,000 to train a new captain. 
Additionally, several carriers have invested millions of 
dollars in designing educational centers for initial and 
recurrent training, some of which house full-motion flight 
simulators and advanced training devices. We expect these 
carriers to lead the industry in providing state-of-the-art 
tools and technology to enhance training.
    While the regional carriers have taken steps to overcome 
some of these staffing challenges accompanying our industry's 
growth, the carriers have identified a role for the federal 
government to play as well. The Nation's flight training 
structure, including colleges, universities, training 
academies, and independent flight schools are a valuable 
resource, yet no federal financial aid programs to finance 
flight training are currently available.
    Because potential pilots are not eligible for federal 
student loan programs for flight training, the interest on 
loans obtained from private sources raises the cost of learning 
to fly considerably. Expanding eligibility of Federal Student 
loans to include flight training could help increase the number 
of pilots available. Likewise, increasing the VA benefits for 
flight training, which currently pay only 60 percent of pilot 
training costs, might similarly expand the pool of available 
pilots.
    The FAA can play a role as well by revising the existing 
flight training requirements to incorporate more efficient use 
of simulators and flight training devices. Additionally, with 
the increased number of flight simulators expected to come 
online this year, FAA should prioritize inspection and 
certification so the new simulators can be immediately 
available to training new hire and captains.
    Finally, due to budget constraints, FAA has in some cases 
limited the travel and therefore the availability of some 
inspectors to conduct pilot qualification checks. 
Prioritization of these inspections could result in fewer 
delays in the training process for regional airlines.
    We recognize the crew shortages resulted in some canceled 
flights last year, inconveniencing our customers. That is not a 
situation that we want to recur. Regional carriers have made 
significant investments in order to maintain the high level of 
safety, while providing travelers with schedule integrity and 
reliable air service.
    Mr. Chairman, thank you very much. I will be glad to answer 
any questions later.
    [The prepared statement of Ms McElroy follows:]

               Prepared statement of Deborah C. McElroy, 
                President, Regional Airline Association
    Good morning, Mr. Chairman, Senator Rockefeller, and distinguished 
Members of the Committee. Thank you for giving me this opportunity to 
comment on the issue of pilot hiring, training, and retention as it 
affects the regional airline industry.
Background
    I am President of the Regional Airline Association, a trade 
association representing 60 regional airlines in the United States. 
Regional airlines operate short and medium-haul scheduled airline 
service linking smaller communities with larger cities and connecting 
hubs, operating modern and technically advanced turboprop and regional 
jet aircraft. RAA member airlines carried over 97 percent of the 
regional airline passengers in the United States last year.
    Our industry is growing. Today, regional carriers serve 429 
commercial airports in the lower 48 states, and at 244 of these 
airports, regional carriers provide the sole source of scheduled air 
service. In 1999, regional airlines carried 78 million passengers, 
which means that approximately 1 out of every 8 domestic passengers 
traveled on a regional carrier. The number of passengers traveling by 
regional aircraft has increased dramatically, up 10 percent from 1998 
and up more than 50 percent over the last decade. We expect this growth 
trend to continue, with passenger enplanements projected to reach 104 
million and revenue passenger miles to grow to 31 million by the year 
2005. By this time, regional jets may represent over 50 percent of the 
regional fleet and may carry 70 percent of our passengers.
Impact of Growth
    This growth in our industry will mark an improvement in our 
nation's air transportation system overall, as small and medium sized 
communities reap the benefits of increased access to the national air 
transportation network. Likewise, the growth will be good for our 60 
airline members, for their employees, and for those who take advantage 
of new job openings across the nation, as our industry becomes stronger 
still. Along with this growth, however, our carriers have faced certain 
challenges. One such challenge is maintaining adequate staffing levels 
to preserve schedule integrity during the increased periods of pilot 
attrition that inevitably follow industry growth in both major and 
regional airlines.
    The industry's record growth last year meant pilots were leaving 
their positions with greater frequency than usual. As a result, a few 
regional carriers had to cancel a number of flights last summer, 
creating a situation that was unacceptable to the management of our 
member airlines as well as to the customers we value and endeavor to 
serve. As you know, flight cancellations are undesirable. They disrupt 
schedules and impact profitability. In just a moment, I am going to 
outline several steps my carriers are taking to prevent a recurrence of 
last year's cancellations. Let me first describe the circumstances. 
Though pilot attrition is down (our carriers reported a 19 percent 
attrition rate so far this year, compared to 29 percent in 1999), 
pilots continue to progress from regional carriers to major airlines 
with larger aircraft. This natural career path means that pilot 
attrition will always be a factor for regional airlines; however, we 
are not experiencing a pilot shortage.
    Last June FAA amended its enforcement policy regarding flight time 
limitations and rest requirements, issuing a Notice of Enforcement 
Policy. Specifically targeted at crewmembers on reserve duty, the new 
interpretation required operators to provide a protected rest period, 
free from a ``present responsibility for work,'' for reserve 
crewmembers. The impact of this action varied among RAA members, 
ranging from minimal impact to as high as requiring the hiring of an 
additional 15 percent of pilots. Even those carriers reporting minimal 
impact from the interpretation, however, may have been indirectly 
affected, as the policy caused the major airlines to hire additional 
pilots and in turn contributed to the higher turnover rate experienced 
by regional airlines in the last 6 months of 1999.
    I would like to take this time to point out a fact: Regional 
Airlines continue to recruit and hire pilots from a qualified pool of 
applicants. Just this year, 25 of our largest regional airlines hired a 
total of 2,187 new pilots. We recruit pilots from several sources, 
including other regional airlines when a pilot makes a progression from 
a smaller regional carrier to a larger regional carrier, from general 
aviation, from corporate aviation, and from the military. Moreover, 
several airlines have established relationships--including internship 
programs--with aviation universities, such as Embry-Riddle and the 
University of North Dakota, and with pilot recruiting firms. These 
relationships assist airlines in attracting talented pilot candidates 
who will succeed through the intensive training procedures our airlines 
require.
    If there is a ``pilot shortage,'' it is not a lack qualified 
applicants, but rather a period of time that is needed between pilot 
departures and the length of time required to train replacements. Most 
pilots move to a major carrier and provide a notice of 2 weeks' time, 
yet airlines need at least 4-6 weeks to accommodate the pilot training 
cycle for new pilots and upgrades from first officer to captain. In the 
past, this time differential has created difficulties in staffing some 
flights.
Addressing Pilot Turnover
    While such pilot attrition presents a great challenge to smaller 
airlines, the growth in our industry means all carriers must stay ahead 
of the pilot hiring curve. To do so, our members have adopted measures 
aimed at preventing a recurrence of crew-related flight cancellations 
since last summer, and have taken steps to protect schedule integrity 
during times of high pilot attrition, while maintaining and even 
enhancing pilot training procedures. While I will paint a more detailed 
portrait of these training procedures momentarily, I would like to 
mention now that these measures have already been met with great 
success. Through June of 2000, our members have seen improvement in 
schedule integrity.
    To address pilot attrition, airlines have adopted continuous hiring 
practices. Moreover, our carriers have invested heavily in enhanced 
training procedures designed to provide a constant supply of highly 
trained, qualified pilots to alleviate the strain of increased 
turnover. While the FAA requires only 250 hours of flight time to earn 
a commercial pilot's license, regional airlines require new hires to 
possess between 1,000 to 1,500 total flying hours or more, with several 
hundred hours devoted to multi-engine aircraft. In addition, 75 percent 
of our carriers require pilot candidates to undergo a flight simulator 
evaluation as part of the selection process.
    I've already alluded to the rigorous training process our pilots 
undergo as they prepare for a job with a regional carrier. Our airlines 
spend an average of $13,122 in order to train a new-hire, and an 
average $12,133 in order to train a new captain. Several carriers have 
also invested millions in designing centers for initial and recurrent 
training, some of which house full-motion flight simulators and other 
advanced training devices. We expect these carriers to lead the 
industry in providing state-of-the-art tools and technologies to 
enhance training.
    In addition to these advanced, in-house training facilities, 
carriers have additional resources available to assist with pilot 
training and recruiting. For instance, many carriers contract outside 
training facilities, where airlines send new hires and upgrade pilots 
for intensive training on advanced, full motion aircraft flight 
simulators. Each carrier tailors course curricula according its own 
training and aircraft specifications, which is then incorporated into a 
proven contract training program.
    To deal with the increase in pilot attrition, these training 
facilities have adopted adjunct training programs with longer courses; 
most courses have been lengthened by 1-3 simulator sessions, with 
typically 20-22 hours of simulator time per pilot, supplemented by 20-
22 hours of additional simulator experience performing non-pilot 
duties. During a typical course, each crew receives a total of 22-44 
hours of simulator instruction over 4-6 weeks. In the past, some 
carriers have had difficulty attaining simulator time, especially for 
training regional jet pilots. We expect this situation to improve 
considerably over the next year, as one training facility will have 
doubled the number of the flight simulators available for regional jet 
training.
Solutions
    While the regional airlines have already taken steps to overcome 
the flight-staffing challenges accompanying our industry's growth, our 
carriers have identified a role for the federal government to play, 
too. The nation's flight training structure, including colleges, 
universities, training academies, and independent flight schools, are a 
valuable resource. Yet, no federal financial aid programs to finance 
flight training are currently available. Because potential pilots are 
not eligible for federal student loan programs for flight training, the 
interest on loans obtained from private sources raises the costs of 
learning to fly considerably. Expanding eligibility of federal student 
loans to include flight training could help increase the number pilots 
available. Likewise, increasing the VA benefit for flight training, 
which currently pays only 60 percent of pilot training costs, might 
similarly expand the pool of available pilots.
    The FAA can play a role, as well, by revising the existing flight 
training requirements to incorporate more efficient use of simulators 
and flight training devises. Additionally, with the increased number of 
flight simulators expected to come on line this year, FAA should 
prioritize inspection and certification so the new simulators can be 
immediately available for training new hires and new captains. Finally, 
the FAA field offices that oversee and support the regional airlines 
continue to limit the travel and therefore the availability of 
inspectors to conduct pilot qualification checks. Prioritization of 
these inspections would result in fewer delays in the training process 
and help regional airlines address pilot staffing challenges.
Summary
    We recognize that crew shortages stopped flights last summer, 
inconvenienced customers, and hindered airlines striving to maintain 
schedule integrity. I have outlined the investments regional airlines 
have made in enhanced training programs and continuous hiring practices 
in order to maintain the highest level of safety while providing 
travelers with reliable air service. While the pilot attrition rate may 
fluctuate from time to time, our industry will always continue to 
provide safe, convenient air service.
    Mr. Chairman, this concludes my prepared statement. I would be glad 
to respond to any questions that you or any Member of the Committee may 
have.

    Senator Gorton. Thank you. Ms. Barker.

                  STATEMENT OF LINDA BARKER, 
           VICE PRESIDENT, BUSINESS AVIATION SERVICES

    Ms. Barker. Thank you, Mr. Chairman, Senator Inhofe, 
Senator Rockefeller. My name is Linda Barker, and I am now 
serving as the chairperson of the National Air Transportation 
Association, which represents 2,000 aviation businesses that 
operate and service aircraft. You might say our business is at 
the beginning of the pilot supply line.
    I am the owner and vice president of Business Aviation 
Services, a fixed-base operation in Sioux Falls, South Dakota, 
so I know what it is like to run a business in rural South 
Dakota, and I know what it is like to face the pilot shortages 
on a daily basis, because it is our pilots that start out on 
your typical career path to work up, to work in these wonderful 
places that are represented at the table today.
    We have 145 employees, and 53 of those are pilots. Some of 
them serve as certified flight instructors, some of them are 
air taxi or charter operators, and some of them are air cargo 
pilots, but they are all very integral in the operation of our 
business.
    Typically, you see that young people take flying lessons 
because they have this dream of becoming an airline pilot, but 
they have to spend many long hours learning to fly, getting 
their pilot and private and multiengine, and then certified 
flight instructors.
    From there, we typically hire them, or other companies such 
as mine, into the air cargo or charter business, which is 
really critical to the economic viability of rural small 
America. We need these pilots, and we need companies like mine 
to operate, not only for our own good and for our own health, 
but the health and viability of our communities.
    Not only do they work for us, but they fly air ambulances, 
which are so critical in getting patients to regional 
hospitals, and they fly organs and these types of things to get 
to the critical needs in the larger facilities, so we see that 
these people are so critical and so important to us that we do 
not want to be just the training ground that continually moves 
on.
    When I talk to our membership, they say that the historical 
turnover rates for on-demand air charter operators was about 5 
to 10 percent annually. That was up until about 5 years ago. 
Now we are seeing that during the last 2 years the rates of 
turnover have climbed to 50 percent or more.
    In fact, in my own small company, where we have 27 air 
cargo operators, in 1998 24 of those pilots left for other 
opportunities, and you know, I cannot deny them those 
opportunities. These are very good, ambitious young pilots that 
want to move on.
    Senator Gorton. Ms. Barker, what is your pay scale for 
pilots?
    Ms. Barker. It starts anywhere, from the beginning pilots 
around $25,000, our more experienced get around $50,000 to 
$55,000. Our director of flight operations is $55,000, and then 
we try and get the benefits to a retirement plan, those types 
of things as well.
    So we are constantly hiring. In fact, we--I mean, our human 
relations director, we did not even realize there was such a 
position until a few years ago, and we have a contract person 
that does nothing but search and advertise on web sites and 
different periodicals and trade journals for pilots, and so we 
are constantly interviewing and hiring pilots, even if we are 
up to capacity. If we get a good pilot, we will hire that 
person, because in a week or two that position may again be 
open, or may be needed.
    In fact, our director of flight operations, who we just 
hired in February, who promised to be with us 6 years, we gave 
him a special benefit package and all kinds of incentives, just 
resigned last week after 6 months on the job because he had a 
better opportunity, and it is like, we like your company, and 
you are nice people, but I feel I have to move on, and that is 
just what is happening in the industry. We are in a very 
healthy economy, but we also have to be mindful of these 
things.
    Now, I know I cannot just go on and tell you all the lows 
we are having. I think you know you are looking for answers or 
ways that Congress can lead, some of the ideas and suggestions.
    Certainly when you talk about the age 60 rule, that does 
not directly affect our air charter business or our air cargo 
operation because our pilots do not qualify, but I must say, 
some of the best pilots we employ that fly in all kinds of 
South Dakota weather, and you know what the weather can be like 
in the northern plains, are older pilots that have been 
experienced and been flying for many, many years, and so the 
whole age discrimination thing I do not want to get into, but 
to me I think 60 is a very arbitrary rule, and I certainly hope 
no one tells me to retire when I am 60, and that is only 5 
years away, but that is another issue.
    The other thing that I think the Senate and Congress can 
look at are, you know, some of the regulatory issues. I served 
on the National Civil Aviation Review Commission that was held 
in 1997, and we talked about some of these issues, and I guess 
I spent most of my time as the loan general aviation 
representative on that commission saying, but we are not the 
commercial airlines.
    And we are not--you know, our flight and duty time is a 
total different issue than what ALPA and the commercial 
airlines are talking about, and when the FAA or Congress tries 
to put all of us under one category, we always have to stop and 
say, but look, we are an on-demand operator. We have certain 
issues. We have area ambulance programs to run, you have duty 
times.
    And so we cannot always fall into the same categories, and 
that would be one of the considerations when you talk about the 
impact in rural communities and how Congress or the FAA or the 
regulators can look at us, that you know, when we say we are 
different, it is because we are. We are not trying to be 
contrary or arbitrary or whiny. It is just a different world 
out there than what you are seeing when you fly a big 
commercial airlines for one of the large commercial carriers.
    So the flight and duty time is a really big issue, and a 
few years ago when the FAA tried to put all of us together, 
that would have meant a 50 percent increase in the number of 
pilots that on-demand operators would have to have hired. Well, 
we cannot absorb that. There is just no way we can do that 
without cutting back our services and having almost a no-growth 
mentality, when there is more and more demand for our kinds of 
services.
    As we get gridlock in the air, as the commercial hubs 
become more and more congested, you see that businesses and 
just every-day people that live in communities like Sioux 
Falls, South Dakota, or Alaska, or Oklahoma, or West Virginia 
are looking to fractional ownerships, and looking at ways of 
getting around some of these issues.
    We want to be able to meet that demand. We want to do it 
safely, we want to do it economically, and we want to provide 
the service to our constituents, as you well do, too, so give 
us this opportunity, and when these certain issues come up, 
whether it is the age of pilots, flight and duty time, there is 
a whole harmony issue of, that we have to train pilots the same 
as they do in Europe. That would close down so many flight 
schools, where you are getting so many of these pilots coming 
through the ranks right now.
    So I guess I feel very passionately, and I get carried away 
by these things because I see it day-in and day-out. I mean, I 
am the one that has to talk to the pilots as they come through, 
or their exit interviews, and I see what it does to our 
business, and it is expensive.
    The one thing I would like to say on a more positive aspect 
before I end my testimony is, because we have seen such a 
turnover and such a need for certified flight instructors--that 
is where you bring these high school and college kids into your 
program--that this past year the Business Aviation School of 
Aeronautics, which is the flight school that we operate, had a 
joint partnership with South Dakota State University College of 
Education, and we joined a joint partnership between the 
university and a private business, that the College of 
Education there would not only grant a degree in education, but 
then we would certify the flight instructors.
    So flight instructors are now coming out with a degree in 
education. They are not just pilots that are moving on up the 
rank. Hopefully we are going to find some young individuals 
that have a passion for teaching and flying, and they can be an 
impetus to teach new people coming out and using educational 
background as well as pilot training in training pilots, and 
hopefully keeping these young people.
    But there again, you know, universities all need money. You 
need to chair or know the chairmanships of these committees, or 
these education programs, and you need financial aid for the 
students, because it is very expensive to learn how to fly, and 
when you are young individual coming from a farm in rural South 
Dakota, or a ranch in the western part of the State, and you 
have a passion, and you may have the mechanical abilities, you 
still need the financial aid to get there.
    That may be another area that we can look at for some joint 
partnerships between Congress and our State legislators as 
well, encouraging these young people to go into the profession 
of aviation, especially flying.
    Thank you so much for your time and for giving me this 
opportunity. I really appreciate it.
    [The prepared statement of Ms. Barker follows:]

 Prepared statement of Linda Barker, Vice President, Business Aviation 
                                Services
    Mr. Chairman, my name is Linda Barker, and I currently serve as 
chairperson of the National Air Transportation Association (NATA). NATA 
represents nearly 2,000 aviation businesses that own, operate and 
service aircraft. These companies provide for the needs of the 
traveling public by offering services and products to aircraft 
operators and others such as fuel sales, aircraft maintenance, aircraft 
parts sales, airline servicing, aircraft storage, flight training, Part 
135 non-scheduled air charter, aircraft rental, and scheduled commuter 
operations in smaller aircraft. NATA members are the vital link in the 
aviation industry that provides services to the general public, 
airlines, general aviation, and the military.
    I am also an owner and vice president of Business Aviation Services 
in Sioux Falls, South Dakota. We employ 145 people and provide a full 
complement of general and commercial aviation services at the Sioux 
Falls Regional Airport. Like many of my fellow NATA members, our 
company is facing an enormous challenge in hiring and retaining 
qualified pilots for our flight school, as well as our air freight and 
passenger air charter operation.
    As members of the Subcommittee may know, there is a typical career 
path in the aviation industry for developing and training pilots. While 
this may not hold true for all, it certainly is the path followed by 
many pilots. An individual will begin by taking flight lessons and 
after obtaining a pilot's license build up enough hours to become a 
Certified Flight Instructor (CFI). After working as a CFI and 
accumulating flight time, the pilot may then seek a position with a 
regional airline or begin flying for an on-demand air charter operator. 
Subsequently, based on the pilot's skill and total hours, a position 
with the major airlines may then become available to them. Of course, 
not all pilots want to work for a major airline, but for most this is 
the ultimate goal. It is this ``pilot supply line'' that has been and 
is expected to continue to be at an all time low.
    Almost 3,000 businesses are certificated by the FAA as Part 135 on-
demand air charter air carriers. The majority of companies in the 
industry are small businesses providing a vital transportation link for 
medical services, important cargo needed to promote commerce, and 
personal travel supporting the growth of the economy. These companies 
use smaller aircraft to meet the customized needs of the traveling 
public for greater flexibility in scheduling and access to almost every 
airport in the country. In passenger service, flights are planned 
according to the customer's schedule, not the operator's. Likewise, air 
charter serves a vital role for commerce across the country and the 
world providing short notice delivery of parts, important documents, 
supplies and other valuable cargo. On-demand air charter saves lives as 
air ambulance operators are ready at a moment's notice to fly to an 
accident scene or remote area to transport those in need to hospitals 
that can provide necessary care. In addition, on-demand air charter 
flights transport vital organs for those requiring transplants. All of 
these services are contingent upon the ability to respond quickly to 
the needs of customers.
    Our members tell us that the historical turnover rates for on-
demand air charter operators was about 5 to 10 percent annually. Each 
company may experience different rates based on variables such as 
equipment operated (piston, turbo-prop or jet engine), pay and 
benefits, and hours of operation. During the last 2 years, these rates 
have climbed to 50 percent or higher. One member in particular suffered 
70 percent turnover in their pilots last year. Whatever the actual 
rate, most of our members have reported a doubling in their pilot 
turnover.
    The national statistics are substantiated by what we see in our 
operation in Sioux Falls. We are continually recruiting, hiring, and 
training new pilots in all departments. This includes CFIs in our 
Flight School who traditionally instruct until they have enough hours 
to move into the freight or charter aircraft. More recently, we see 
some students that move from CFIs and go directly to the regional 
airlines. Right now, we are advertising for a new Director of Flight 
Operations in our Charter operation.
    At Business Aviation, we employ 53 pilots: 17 air charter and air 
ambulance pilots, 25 freight pilots with positions open for 2 more 
freight pilots, 9 flight instructors, and 2 aircraft salespeople who 
are also pilots. Finding pilots for freight operation is our greatest 
challenge because the flying is generally at night and does not have 
the same appeal as transporting passengers. Over the last 4 years, we 
experienced the following turnover:

  <bullet> 1996, 15 of our freight pilots resigned for other positions

  <bullet> 1997, 19 freight pilots left our company

  <bullet> 1998, 24 pilots left for other opportunities

  <bullet> 1999, an additional 15 pilots were replaced

    The shortage of pilots has caused our company to constantly 
advertise and spend a great deal of our resources recruiting pilots. 
Frankly, we even overstaff if qualified pilots are interested, knowing 
that only too soon there will be positions available.
    I participate in an organization known as The Midwest Air Freight 
Association. Based on a recent poll of other air cargo companies, every 
member of that organization is experiencing pilot shortages. One member 
related that 5 years ago he would receive 50 responses from 
advertisements placed in industry publications along with local 
advertising. Today, they have almost no responses or maybe two or three 
for the same type of advertisement. The pilot shortage has caused this 
company to change its philosophy on growth and to reduce the number of 
freight routes.
    This is echoed across the NATA membership. The uncertainty over 
whether your pilots employed today will be there tomorrow is stifling 
many air charter operators from expanding their services to meet the 
growing demand for air transportation. This disproportionately impacts 
on the less populated areas of the country that receive little airline 
service.
    The shortage of pilots becomes critical when you consider the need 
for medical access provided by emergency medical services that may be 
the only link for smaller communities to medical specialists. The 
shortage threatens the expansion of medical services to smaller and 
rural communities. For example, one of our members regularly flies 
doctors to areas outside of Denver, Colorado, as the means for smaller 
communities in Colorado, Kansas and Wyoming to get access to specialty 
health care.
    Commerce and the economic viability of communities are likewise 
dependent upon access to air transportation. If qualified pilots are 
not available for air charter operators, this link is severed. Finally, 
the high value cargo, mail and express package services provided to 
communities across the country by companies like ours is directly 
affected by the ability to have pilots able to safely operate our 
aircraft.
    There are no silver bullets to solve this complex issue, and I do 
sincerely appreciate the leadership shown by the Commerce Committee for 
drawing attention to this most important national issue. We are just 
one part of an industry that needs qualified, trained professionals.
    While the aviation industry attempts to bring the pilot supply and 
the demand for their services into balance, external factors such as 
federal government regulatory initiatives can exacerbate the problem. 
It is important to ensure that FAA regulatory initiatives do not hamper 
or impair the industry. One troubling issue that continues to concern 
the Part 135 on-demand air charter community is the FAA's anticipated 
revisions to flight crewmember flight and duty limits.
    There is a great deal of anxiety that the FAA will attempt to 
subject Part 135 on-demand air charter operators to a ``one-size-fits-
all'' flight and duty regulation identical to the regulations for the 
scheduled airlines. This would have devastating effects on the 
industry. An attempt by the FAA in 1995 to do so would have required a 
minimum of a 50 percent increase in the number of pilots required to 
continue operating our businesses. Although safety is the highest 
concern of aviation businesses, the design of regulations must be 
tailored to fit the various operating environments to achieve this 
goal. The Association maintains that Part 135 certificate holders must 
have versatility to comply with the on-demand nature of unscheduled FAR 
Part 135 operations. We urge the Subcommittee to encourage the FAA to 
recognize the uniqueness of the Part 135 on-demand air charter 
operators in its oversight of the aviation industry.
    Another area of FAA activity that could adversely affect the 
industry is the Agency effort to harmonize flight crew licensing with 
the European standards. The aviation system and pilot supply line in 
Europe is not like that in the United States. The FAA should not take 
any action that would threaten the affordability and efficiency of 
pilot training and licensing that has been the hallmark of our country. 
Regulatory changes that impair the ability to train pilots and 
adversely affect flight schools would then ripple across the entire 
industry.
    Congress should consider whether the current requirement for 
airline pilots to retire at age 60 is still necessary. As you can 
imagine, allowing pilots to continue working for an airline past 60 
would decrease the demand for new pilots. Likewise, it would provide 
for these pilots with thousands of hours of accumulated flight time 
experience to continue serving the traveling public.
    One other idea that is important for the FAA to analyze that could 
affect the availability of pilots is whether certain requirements for 
pilots contained in Part 135 are appropriate. There is a petition on 
file with the FAA requesting a decrease in minimum hours of flight time 
for cargo carrying flights in single-engine aircraft. In order to 
maintain an equivalent level of safety, this petition also requires 
increased pilot training by the operator. If the FAA were to move 
forward in this area with rulemaking, these additional provisions would 
ensure that a pilot is appropriately trained.
    Creative partnerships are important for the industry to respond to 
the need for additional pilots. We ask that the FAA be encouraged to be 
receptive to ideas developed that may be unique and do not fit the 
traditional pattern for training.
    As an example, our company has a joint program with our Business 
Aviation School of Aeronautics and South Dakota State University's 
College of Education. Under this new program, students can receive a 
Bachelor of Science degree in Career and Technical Education with a 
specialization in Aviation Education. The impetus for the program 
stemmed from a growing public interest in general aviation and a 
nationwide shortage of certified flight instructors. Graduates will not 
only be Certificated Flight Instructors, but also Certified Teachers. 
By focusing on flight instruction as a career goal, this program 
encourages those with educational aspirations to consider becoming a 
professional flight instructor. However, like many other educational 
issues, university programs of this type need funding and scholarship 
programs to provide both staff and financial aid to students.
    As previously stated, the membership of NATA, like my company, is 
diverse in purpose and operation. However, all operations, from those 
utilizing CFIs to commercial pilots, are affected by the pilot 
shortage. Despite industry efforts such as the Be A Pilot program, 
whose sole mission is to increase student pilot starts, the disparity 
between supply and demand requires Congressional attention to a growing 
problem plaguing the air transportation industry. The potential 
resolutions presented can provide some relief, with proper and timely 
implementation, to small business operators I represent on behalf of 
NATA.
    Thank you for giving me this opportunity to be with you today. I 
would be pleased to respond to any questions related to this important 
issue.

    Senator Gorton. Captain Woerth, perhaps the heart of your 
testimony is in this sentence: the age 60 rule is safety 
regulation and should not be changed or repealed unless there 
is sufficient evidence to prove conclusively that such action 
would not have a negative effect on safety.
    How will such proof ever be adduced if there is not a way 
to determine on the ground, or in the air, that flying above 
age 60 is safe? haven't you put us in a catch-22 situation--no 
one above age 60 can fly, therefore we cannot prove they are 
safe, therefore we cannot change the rule?
    Captain Woerth. I do not believe so, Senator. I think the 
studies that were exhaustive, once again, not just in 1959 but 
also in the eighties and nineties, the Hilton study which was 
reviewed by my colleague, could not prove conclusively what to 
do next and, as Senator Rockefeller said at the beginning of 
the hearing, he said, at first do no harm, so if you can make 
it better, we are interested in improving safety, and I do not 
think anybody, as Nick Lacey (from the FAA), said will take a 
risk with it.
    If we are certain we can improve safety, we should do 
something, but if all we have is that medical evidence says it 
is inconclusive, we should not.
    Senator I would like to also talk about----
    Senator Gorton. Well, if we go--now that Europe and many 
other countries have raised the ages to 65, 5 years from now, 
if they do not have any higher accident rate, will your views 
be different?
    Captain Woerth. I think we should understand the difference 
between what pilots really do in Europe and what the regulatory 
process about licensure age means.
    Within Europe, the bulk of the airlines--you would 
recognize British Airways, Lufthansa, KLM--most of those pilots 
retire by contract at 55 or 56. Richard Branson hires some of 
these retired pilots for his Virgin Express because he can get 
them cheaper, but that is about economics, it is not about 
anything else. So to think out of the 189 carriers who signed 
on to ICAO, that 44 nations have got an exemption from that 
rule and allow a licensure age differently, that most pilots in 
Europe are suddenly over 60, is simply not true.
    Even within the United States the average airline pilot in 
a major airline does not make it to age 60. My own airline, 
which I am no longer employed by as president of ALPA, but at 
Northwest we have done an exhaustive study over the last 
decade, and the average age is only 57. That is when most 
pilots retire, and 50 percent of those retire for medical 
reasons. The others say they have just had enough; they felt 
they have lost a step; they mostly are just tired.
    This is a very debilitating career. There are extremely 
long hours, especially when you fly internationally, and they 
just decide that they have had enough, in the interest of 
safety, in the interest of their families and their own 
professional pride, they hang it up.
    So most pilots are not making it to age 60 now. There is 
some conclusive evidence that the real world is demonstrating, 
and in Europe as well, that they have agreed with their 
companies that 55 or 56 is a preferred age to step down as a 
captain. There is some real world evidence that we are using, 
not studies, not hooking up to wires in some laboratory. The 
real world of a pilot understands how debilitating, how 
demanding this job is, and that is why their experience has 
been very different, Senator.
    Senator Gorton. Well, apparently, at least if Captain Emens 
is correct, we had regional airline pilots up to the age of 71 
flying until last December 31. Is there any indication that 
they were less safe than their younger compatriots?
    Captain Woerth. Well, there were only 200 of them, Senator. 
When they changed the rule, the study I saw, of the 100-some 
thousand pilots in the United States, when the new rule came 
into effect in 1995 and they grandfathered the commuter pilots 
until December 20 of 1999, there were only 200 of them. They 
attrited very slowly.
    So out of 200 pilots I guess if they did not have an 
accident I'd say there was no difference, but I did not see any 
evidence at this hearing that somehow those 200 pilots over a 
4-year period affected a pilot shortage. The largest group I 
think was at Comair.
    Senator Gorton. Did they affect pilot safety?
    Captain Woerth. I do not know how we measure that, just 
from the 200 pilots out of over 100,000 pilots flying.
    Senator Gorton. Mr. Lacey, Captain Emens made a brief 
reference. Do you have the slightest inclination or information 
with respect to the attitude on this rule of the present FAA 
Administrator?
    Mr. Lacey. I think the Administrator's position would be, 
as I have articulated, Senator, that there has to be at least a 
safety equivalency, or preferably a benefit, in order to change 
the rule. I think, as we can see here, that the opinions and 
anecdotes and kinds of things that are offered in the debates 
that surround these kinds of issues do tend to reach a kind of 
inertia around what is there that is darned good. There is an 
economic cost, so to speak, to changing it, and the safety 
equivalency and benefit is fairly vague. There are 2 different 
arguments along that line.
    In both of these issues, age and fatigue, we are getting 
into human performance areas which we do not have a lot of good 
science on, so you have to go on operational experience and the 
record that is kind of left behind, and continue to probe and 
look at the science to see how that may push the boundaries of 
it. We are committed to doing that.
    Senator Gorton. Since I have a conference committee I am 
going to turn this over to you, Senator Burns. Senator 
Rockefeller was here before you. I think it is his turn to 
question, but you can finish and adjourn the hearing, if you 
will, but I think it is Senator Rockefeller's turn at this 
point.
    Senator Burns. (presiding) I will give him 5 minutes.
    Senator Rockefeller. That is all I ever get from you!
    This is a really interesting subject. Duane and I have 
talked before about pilot issues. Today, we are talking about 
the situation where we have a shortage of pilots. Linda Barker 
has made that very clear, and I do not think any of us doubt 
that.
    Senator Inhofe said it in one way. Every time I walk 
through an airport now, the only thing that comes to my mind is 
10 years from now, when there will be double the number of 
people, double the number of planes waiting at the gates, not 
even counting UPS and FedEx and all the rest of them. You know, 
FedEx is what, the second biggest airline in the world, I 
think. We have a shortage of many things, and we will need more 
workers at every level.
    Captain Woerth. I do not think in terms of certainly pilot 
employment, but total employment, probably, very large.
    Senator Rockefeller. Just the number of airplanes, and you 
just think of the tremendous demand--tremendous demand. So 
clearly we have got to come up with pilots. I mean, you cannot 
sort of bring down the American economy. I do not mean you, but 
I mean, one cannot bring down the American economy.
    Now, I do not take any position on this age cut-off because 
I do not know enough to do that, and it is very difficult for 
me, because on the one hand, when you or the FAA say you cannot 
prove that pilots either get better or get worse at the age of 
60, you then have to introduce empirical evidence to show 
averages.
    Now, again, I am not taking any position on this, but I 
want to sort of bring you and others out on this, because this 
whole question of arbitrary and discriminatory, and the court 
of appeals decision, et cetera, and technology and drugs, and 
things that make us healthier, and all of that is still--you 
know, we do not know what causes Alzheimer's. We do not know 
what causes people to be either healthier or less healthy.
    But when you say average retirement age is 57 years old, of 
course, that means that others stay on, and they stay on until 
they are 60. Then that raises the question in my mind, well, in 
this world we have sort of got to get whatever we can get. I am 
not taking a position on this. I reiterate that, because I do 
not know enough to, but I do know enough to be scared of what 
is happening in rural West Virginia.
    I want to discuss the scope clause with you in a second. I 
do know enough to know that the people that are going to get 
the short end of the stick are people like us in West Virginia, 
because the pilot food chain works down from there, or down to 
there.
    What if 55 percent of pilots decided that they wanted to 
fly beyond 60? Would that make a difference?
    Captain Woerth. I do not believe so, Senator, and I think 
what we have been focusing on is the wrong end of the equation. 
If I could refer again--when the Congress asked for a DOT 
study, a blue ribbon commission on the shortage of pilots and 
aviation maintenance technicians--they correctly focused it on 
the other end of the equation, on incentivizing young people, 
on encouraging (aviation) schools even tax incentives.
    They primed the pump the correct way we have done with our 
economy in other industries before to encourage people to build 
the pool at the bottom and have a larger pool of trained young 
people to be available to come into the ranks.
    Senator Rockefeller. Which I like, but as I hear that I 
have to factor into my mind that in West Virginia our Governor 
has just put a freeze minus 3 percent on all institutions of 
higher education, because even in a good economy, that does not 
mean that West Virginia participates. Probably Montana is a 
little bit the same.
    So we have a college that is trying to do that, but I will 
bet that nobody else will, and I will bet they have to cut back 
their program.
    So I agree with you that you always try to give people 
incentives and then try and get them away from the .com world, 
which is where most people are headed.
    It just seems to me there ought to be some way we can work 
this through. I do not know what difference technology does 
make. Actually, I would be interested in what any of you think 
about the technology, the pharmaceuticals. I am over 60. Conrad 
is still in his late forties, and he does not have to worry 
about this yet.
    [Laughter.]
    Senator Rockefeller. But I mean, there is a burn-out for 
something which is stressful--and my job is full of stress, and 
there are people that quit the Senate for the same reason, not 
the same percentage as in the airline industry, but there are 
people who do not quit the Senate, or quit the kind of life 
that I lead, which nonstop, without days of rest, which is 
another subject which I will not get time to discuss.
    But I am just interested in sort of, technology, 
pharmacology, and 60 and 65, what any of you think.
    Captain Woerth. I would like to give an opinion on that, 
Senator.
    Senator Rockefeller. Sure.
    Captain Woerth. One of the things I think has been 
acknowledged, there is a tremendous amount of drugs on the 
market. Pharmaceuticals, medicine has changed a lot of things, 
but in aviation medicine it has not had its true effect. A 
great deal of those medicines are prohibited to be used by a 
pilot while you are flying or engaged in aviation.
    In fact, if you look at the back of most drugs, even common 
drug prescriptions, it says ``Do not operate heavy machinery.'' 
That would be us. So even some over-the-counter medicine you 
cannot use. You are violating your aviation certificate if you 
take some over-the-counter medicine, Contac, anything like 
that, all sorts of pain relievers for example, for back pain, 
and all sorts of heart medicine. It has to be strictly 
regulated and monitored by an aviation medicine advisor, so 
there is a whole host of things that your average citizen can 
use and perform his daily function.
    But, a great many of those drugs are prohibited to be used 
by an airline pilot. You lose your certificate, or at least it 
is suspended until you are off that medication, so it has not 
had the same effect and benefit to our profession, because of 
its medical limitations, and rightly so, by the FAA who is 
concerned, number 1, about safety and taking no chances.
    Senator Rockefeller. Any other--yes, sir.
    Captain Emens. Senator, I think we get a little off-track 
if we start to talk about medication, et cetera. Duane here is 
exactly right on medication and pilots. It does not much mix, 
but that is not needed. I mean, in 40 years, study after study 
has shown that pilots, as is the general population, is a whole 
lot healthier than it was 40 years ago. We are basically caught 
in a time warp here. We are stuck in 1959, and pilots are 
healthier. They have always been healthier than the general 
population.
    This rule was promulgated based on worries of sudden 
incapacitation and stroke, and it used the general population 
of the United States, ages 60 and 64, to make that rule. It did 
not apply to pilots who, even in 1959, were healthier than the 
general population, and that is even more so today.
    Now, an Israeli Air Force Medical Center--I think we all 
agree that the Israeli Air Force is top-notch. They say here in 
a study, the incidents of fatal accidents from human error is, 
however, far greater than that from physical illness, since 
inexperienced pilots have a 2-to-3 times increased incidence of 
mishaps due to pilot error. The estimated risk of disease 
related to in-flight sudden incapacitation should be balanced 
by consideration of pilot experience, and we are all agreed we 
have got a pilot experience problem.
    As far as cognitive problems go, which is what Captain 
Woerth here and the FAA talked of, mental changes occur and we 
all kind of start to lose it as we get older. Well, studies 
have shown consistently that those decreases rarely manifest 
themselves before the age of 70. We are not talking about 
anything close to that.
    We are also talking about pilots who are healthier than the 
general population, so it does not apply to pilots.
    We are also talking about a thing called domain relevance, 
which basically means that if someone does something over and 
over again, like you fly, you work the checklists, you are in 
the system, you function even better even longer. This 
cognitive decline is a red herring. It is not going to affect a 
pilot age 60 to 64.
    Are the guys bailing out at 57? Yes. I have got good 
friends that are leaving at 57. Their 401(k) and their profit-
sharing is fat, and they are playing golf. It has nothing to do 
with health, and they are really perky. They are not burned 
out.
    Senator Rockefeller. Well, but they are gone by their own 
decision.
    Captain Emens. They are going out because they do not want 
to fly any more, but it is not health, and they are not burned 
out, and I dare say that there are a whole lot of United 
pilots, et cetera, that feel the same, but Captain Moon back 
here, he does not feel that way. He is a United pilot. He is 
61. He is flying side-saddle. He is back there, and he is not 
burned out. He is the head of OBAP, the Organization of Black 
Airline Pilots.
    Senator Rockefeller. Senator Burns, with your permission 
can I ask one more question, and then I will forever hold my 
peace for this afternoon.
    You mentioned, Mr. Woerth, in your testimony that you do 
not think that scope clauses are necessarily--and I did not 
hear your testimony, but I am looking at it, are not the 
problems for small communities, and you and I have talked about 
this before, sort of privately, and you know I worry about 
that. You know that aviation in and out of West Virginia is the 
make-or-break deal for West Virginia. It is not highways, it is 
aviation, and it is not turbo-props, it is regional jets.
    I can virtually prove that if I just go back and take notes 
on conversations that I have had, and I am just kind of 
wondering, generally speaking, what you do think will happen 
with the scope clause, and if there is any possibility, through 
negotiations or through whatever happens, that West Virginia 
can have more hope for regional jets. I mean, that becomes a 
big factor now with the purported merger, because DC Air is 
going to put up nothing but regional jets, after 2 years, into 
West Virginia.
    Now, that is like remaking West Virginia's future and, I 
suspect, Montana's too, I mean if that were to happen. Can you 
just guide me along that----
    Captain Woerth. Yes, sir, and I believe that--well, first 
of all there are over 500 small jets in service, commonly 
referred to as regional jets. I tend to think that is a 
misnomer, because they have a multitude of missions, but let us 
call them small jets for the purpose of this discussion. You 
refer to them as RJ's.
    There are over 500 in service, and there are none of them 
parked, so they are all being flown, so any pilot job security 
provision or scope clause, certainly is not restrictive. There 
are no parked airplanes, so they are all flying.
    I think as our study that we did and I presented a paper to 
an American Bar Association Seminar--I will submit it, if you 
would like--that paper shows that clearly the marketing 
departments of the airlines decide where they deploy those 
airplanes, and so far they deploy them in fairly big markets.
    Some small communities have gotten a lot of the benefit of 
them, and I understand the reasons for it, Senator, and I would 
want one, too, in my community, but I do not think it is the 
pilot scope clause that has been the limiter, since there are 
none parked, they are all flying.
    And I think what we are seeing is all of the additional 
deliveries that were scheduled, and airlines are taking 
delivery of them as fast as they can be built. And if the 
recent negotiations by our colleagues at American are any 
indication, I think the job security provisions or scope 
clauses are evolving and opening up, and I see, especially in 
the 50-seater and below category, the most popular model of 
that small jet, that there will be more and more of them. None 
of them will be parked, and they will all be flying, and I am 
hoping your communities get what they need.
    Senator Rockefeller. OK. I am, too. I know they are all 
flying, but I also know there is an enormous demand for a lot 
more of them. I mean, United is stuck behind American. That is 
their fault, but in the order business. This just becomes 
tremendously important.
    Thank you, Mr. Chairman.
    Senator Burns. Thank you, Senator Rockefeller.

                STATEMENT OF HON. CONRAD BURNS, 
                   U.S. SENATOR FROM MONTANA

    As I listen to this conversation here--and I am a little 
older than he says. I am just circling the drain here, you 
know, sort of lap time--I think we are concentrating on the 
wrong end of this thing.
    I think if we want to promote aviation and do some things 
about getting some qualified people in the air and alleviate 
some of Ms. Barker's problems at Sioux Falls--of course, I am 
not real sure you can solve all of your problems at Sioux 
Falls.
    Ms. Barker. Oh, we can. We can.
    Senator Burns. Being as I am from Montana. I think we may 
be looking at the wrong end of things, but I have a question 
for Mr. Lacey. Given the potential significant impact on rural 
air service, when you promulgated some new rules, did you 
consult with DOT's Essential Air Service Office when it was 
analyzing the societal cost of its proposed rules of pilot 
flight and duty time? Do you all ever talk to those folks?
    Mr. Lacey. Senator, I cannot address that specifically, but 
I would be glad to check. Certainly we are aware of the 
Essential Air Service. We certainly do what I believe is a 
thorough economic evaluation and impact on these rules, but 
specifically on the proposed rule for flight duty, and how we 
are doing vis-a-vis Essential Air Service, I would like to get 
back to you on that.
    DOT does not have a record showing that the Office of 
Essential Air Service received the 1995 proposed rule on pilot 
flight and duty time for review. DOT's list of rules that they 
reviewed goes back only to 1996. However, the FAA is currently 
revising the flight and duty time rule and will coordinate with 
Department once it is ready for review.
    Senator Burns. Well, that would be fine, but I will tell 
you, what just absolutely--I guess it is very disgusting to me 
whenever I come to Washington, which was 11 years ago, and it 
looks like I should get over it by now, but I never do, you 
cannot get people in different agencies to talk to one another. 
Everybody thinks they are king of the hill, and we are going to 
do it, and that is it, and they do not visit with one another, 
and I really get upset about that.
    Tell me about--I got some notes here. The training of new 
pilots. Young men and women that want to become pilots, and 
they find a school. How important would the situation with the 
student loan program--that was financed through Sallie Mae, or 
whatever we use now. Would that alleviate some of the problems 
of finding and training new people?
    Ms. Barker. Senator, if I could comment.
    Senator Burns. Yes.
    Ms. Barker. Just on the limited experience we had, just 
starting this program last year, there was just an incredible 
interest in students. In fact, without any advertising--we 
wanted to start slowly--we had 38 students in the program, and 
I notice that it does slow down in the summers, because it 
would be helpful if they could just keep flying and taking 
their flight instruction throughout the summers.
    Most of these students cannot afford it. They have to stop 
and work during the summer. I think any type of student loan 
program or assistance, even as small as it may be, would be a 
great help, because that would turn attention to this problem, 
too, and it would say, you know, here are some programs for 
students, and it would give them some help, at least to start 
out with.
    Senator Burns. Give me an idea of the cost to get, say, a 
young person, 21, 22-year-old, a young person to multiple 
engine and instruments. How long?
    Ms. Barker. Oh, I think you are talking a couple of years, 
and probably $8,000 to $10,000, and that is very economically, 
in addition to their other tuition.
    Senator Burns. Well, you mean--tell me--would it take 2 
years if they just went to school at this, say academy, or--
now, we have got a school at Rocky Mountain College in Billings 
for pilots.
    Ms. Barker. I think 2 years, 2 to 3 years would be a good--
--
    Senator Burns. Anybody else want to address that?
    Ms. McElroy. I would, Senator. A number of the regional 
carriers have established relationships with aviation 
universities and training facilities. The timeframe is about 
right, and I think it is important, because these individuals 
are trained as airline pilots from the beginning.
    They are schooled in crew resource management. They are 
trained in the aviation environment, the air traffic control 
environment in which they will be operating, and so it is a 
very intensive, high technology approach to pilot training as 
opposed to some of the individuals who are now going through 
the process, building time, and having to have a second job, as 
Ms. Barker mentioned, in order to pay to do this.
    So I think that the loans, whether they are through Sallie 
Mae or another vehicle, would help greatly in this.
    Senator Burns. Well, I say this from a very greedy 
standpoint. I am concerned about the retirement of pilots out 
of the military. They are leaving the Air Force and the Navy to 
go in to be commercial pilots, and we are having a terrible 
time hanging on to all kinds of pilots, whether it be 
helicopter or whatever, through tactical pilots, and I am 
saying that maybe this is an area where we should be making an 
investment as a government to set up some sort of a situation 
where we can train and make available loans to young people who 
want to go into aviation and maybe do not want to go into the 
service, into military service, but I know we have got to 
address that some way or other.
    On the age of 60 situation, it seems to me that once you 
get to be 60 years old, I mean, just from a common sense 
standpoint, I think your yearly physical maybe should come down 
to a semiannual, or whatever, and then we can go on from there 
and probably use some of those people, but I know there is a 
time in your life--and of course you know I come from Montana, 
and it is pretty disgusting to get to the age where you are 
running triple A kids with a AA horse. Some of you folks will 
figure that out, but it is disgusting.
    Yes, sir. Mr. Emens, do you want to comment on that?
    Captain Emens. Yes. I come from a civilian background, and 
I think your idea of school programs, Sallie Mae programs 
loans, ginning that up was a wonderful idea, because good 
quality aviation training in a condensed, closed environment, 
much like the military is, is very much lacking.
    There are not very many places in this country that do it, 
and that same ALPA article that I quoted talked about ab initio 
programs that regional carriers, as she mentioned, provide are 
also very good, but we need to get started on it now, because 
the lag time is 2 to 3 years. Do we have that time, and those 
are rookies that we are turning out.
    Senator Burns. Well, I just think that we--you know, I do 
not understand why maybe the airlines themselves, American, 
United, Northwest, they should not start looking at scholarship 
situations.
    Captain Emens. Southwest Airlines does.
    Ms. McElroy. Some regionals are doing that as well.
    Senator Burns. Are they?
    Ms. McElroy. Yes, sir.
    Senator Burns. That makes a lot of sense to me, if there 
are promising young people that are willing to fly and want to 
make the--maybe save some of them from working, and a couple of 
years they are going to be on the flight line, so I think maybe 
that on the other end of it, we are paying too much attention 
to the other end of it, and we had better be recruiting some 
qualified people to step in and some young people--I have 
always said that aviation is the secret to this thing.
    I think that is about all the questions that I have. I know 
we had a hearing in Montana on this. It is very important to my 
State, because we rely either on the Essential Air Service for 
our smaller communities, or we depend on general aviation, and 
I know we are very lucky in Montana. I think our commercial air 
service is very good, and we are very lucky because we have got 
about five different airports that have solid jet service, into 
five airports in Montana. You just do not have that in a lot of 
States.
    Look at the State of Washington. They have only got two 
cities that have got that kind of service, but we have, and we 
are very happy about that, but we got a deal with distances in 
Montana, as you well know.
    I get the biggest kick--you can tell people, you know, it 
is about 2 hours and--oh, what, 2 hours and 10 minutes from 
Kalispell to Minneapolis on Northwest. Half of that trip is 
spent in Montana, so you know, when you get to the little 
Missouri River, you are half-way to Minneapolis, so we got some 
distances to deal with.
    Senator do you have any more questions? I want to thank the 
panel this afternoon. I am sorry I was a little late in hearing 
some of the statements, but we will go over this, we will leave 
the record open, and then I think should any of you have any 
recommendations on what we should be doing legislatively, or 
what we can do administratively to alleviate some of these 
problems, but I personally come down on the side that we had 
better get started looking at academies and ways to train young 
people to come into the industry, rather than fiddle around 
with the other end of this thing too much. I mean, you guys can 
argue 60 and 60-over. That is for you guys to argue about. I 
want to train people. I want to get them into the workplace.
    Thank you for coming.
    [Whereupon, at 3:45 p.m., the Subcommittee adjourned.]
                                APPENDIX

   Prepared Statement of Hon. John McCain, U.S. Senator from Arizona
    For several years I have been concerned about pilot shortages in 
our armed forces, which can affect our combat readiness. Some of the 
same factors that influence military pilots are now having an impact on 
certain parts of the private sector. A strong economy has lead to 
record numbers of pilots being hired by the airline industry. Just as 
the generous pay scales and benefits of the major airlines have 
attracted pilots out of the military, smaller carriers are losing 
flight crews to the big players in the industry.
    But the supply of qualified pilots has been negatively affected by 
the fact that there are now fewer ex-military pilots on the market. For 
decades, the industry has been able to take advantage of highly skilled 
and experienced pilots who came out of military service. Airline 
expansion has been traditionally supported by large numbers of ex-
military pilots who became available after major conflicts. Over the 
next five years, however, the pilots who joined the airlines after the 
Vietnam War are set to retire in particularly large numbers because of 
the Federal Aviation Administration's (FAA) Age 60 Rule.
    We must remain open minded about proposals to change the Age 60 
Rule. They have the potential to ease the shortage of civilian pilots 
and reduce the pressure for military pilots to leave the service early. 
However, we are dealing with a rule that has been in effect for many 
years. Any modifications should not come at the expense of safety.
    I recognize that many pilots and others strongly oppose this rule. 
There are clearly divided opinions among policy makers and within the 
aviation community. Because the FAA has decided that the Age 60 Rule is 
an appropriate standard, Congress must be cautious before taking any 
action that would substitute its views for those of the agency 
responsible for aviation safety. I am aware that there are legitimate 
views on both sides of this issue, but it is one that tends to fall 
within the authority of the FAA.
    Balancing the needs of smaller and rural communities against safety 
considerations is difficult at best. Regional airlines and on-demand 
operators are an essential transportation link for many areas of the 
country. We must be aware that they sometimes have special needs.
    I hope that this hearing and our witnesses will be able to generate 
workable ideas to help us ease the pilot shortage problem. I appreciate 
Senator Burns efforts on this subject, and I thank Chairman Gorton for 
holding this hearing. It is an issue that deserves the careful 
attention of all aviation policy makers.
                                 ______
                                 
                                    Wright State University
                                         School of Medicine
                             Department of Community Health
                                        Dayton, Ohio, July 20, 2000
Hon. Slade Gorton,
Chairman,
Subcommittee on Aviation,
Senate Commerce Committee,
Washington DC.

Dear Senator Gorton:

    This letter is in strong support of S. 1855 that proposes to 
increase to age 65 the present four-decades-old age 60 limit on pilots 
operating under Sec. 121.383(c) of Title 14, U.S. Code of Federal 
Regulations.
    During these past four decades, there have been (1) a substantial 
increase in the U.S. population health and life expectancy; (2) major 
advances in the health assessments of individual pilots; (3) major 
advances in the treatment of any developed medical condition; (4) 
advanced flight simulator and onboard flight recording equipment for 
individual pilot skill and judgment assessments, and; (5) an across-
the-board increase in regular healthy lifestyle practices by pilots.
    Countries in Europe and Asia have recognized that their prior age 
60 limit on airline pilots was discarding experienced, healthy, and 
skilled pilots from the overall pilot population. Accordingly, many of 
these countries have raised the age to 65 and have, accordingly, 
enhanced the overall safety of their airline operations.
    It is now time to enact into law, in the interest of public safety, 
S.1855. On request, I would be pleased to furnish considerable 
supporting detailed data.
        Sincerely yours,
                                   Stanley R. Mohler, M.D.,
                                      Director, Aerospace Medicine,
                                          Professor and Vice Chair,
                                    Department of Community Health.
                                 ______
                                 
             Prepared Statement of Samuel D. Woolsey, J.D.
    I appreciate these written remarks urging legislative action to 
repeal the FAA's Age 60 Rule being included in the formal record of the 
above hearing. I am a former military and airline pilot, having flown 
twenty years for Pan Am, and the last eight of a 40-year career as a 
pilot with United Airlines. After retirement, I entered law school, 
earning my Juris Doctor degree from John F. Kennedy University School 
of Law in 1998.
    In 1990, I began to research the factual history of, the practical 
effects of, and both the logical and legal rationales underlying the 
Federal Aviation Administration's (FAA's) so-called ``Age 60 Rule,'' 14 
C.F.R 121.383(c) (the Rule). I have an extensive library of materials 
gathered from the medical community and the legal arena, as well as 
from both the legislative and administrative branches of government. My 
research (and materials) are available, at no cost, to any who ask.
    The Age 60 Rule states simply that no person may operate an 
aircraft in U.S. air carrier operations as a pilot (or co-pilot), and 
no U.S. air carrier may employ such a person as a pilot (or co-pilot) 
in its air carrier operations after his or her 60th birthday. Without 
exemption or waiver for its entire 40-year history, it imposes--a 
mechanical process that compels--through forced retirements--the 
replacement of senior air carrier pilots with less senior pilots.
    By this mandatory process, the FAA's Age 60 Rule is the proximate 
cause of both today's and yesterday's experienced pilot shortages--
shortages that have adversely impacted our Nation's military readiness, 
and today ration the aviation lifeline to our smaller and rural 
communities, particularly among our Western states and Alaska. 
Moreover, the problems this Committee struggles with today are but a 
continuation of those it faced in a similar hearing more than a decade 
ago. (See, Pilot Supply and Training, S. Hrg. 101-307, August 3, 1989.)
The Age 60 Rule Is a Financial Disaster, Unrelated to Either Safety or 
        Medicine
    The Age 60 Rule is not a safety issue, nor a medical certification 
issue, nor a licensure issue. Neither the airman's First Class medical 
certificate, nor his or her pilot's license, nor his or her Airline 
Transport Pilot's rating, nor any aircraft type ratings are limited or 
restricted by the Rule. The Age 60 Rule is an ancient albatross 
limiting the FAA's ability to remain abreast of both science and 
economics and literally ``gifts'' a discriminatory financial 
``windfall'' to ALPA's junior members (at the expense of its seniors) 
while imposing a horrendous economic burden upon the air carrier 
industry as a whole.
Economics of the Age 60 Rule:
    In 1993 I prepared an analysis of the economic impact of the FAA's 
Age 60 Rule on one carrier--United Airlines.\1\ For this endeavor, I am 
indebted to the Vice President, Flight Operations at United, Captain 
Hart Langer, for making available to me certain information regarding 
transition training times and costs, age 60 mandated retirement 
schedules, immediate pilot hiring programs, and pilot pension plans. I 
used my own (then) 27 year career as an airline pilot (and personal 
observations) for estimating the other variables considered--transition 
steps per senior pilot departure, monthly/annual flight times, vacation 
accrual, sick-leave exposure, and other contractual issues. Compared to 
the other published estimations of training steps (between 16 and 
20),\2\ my calculations based on only 6-8 are extremely conservative. 
Nevertheless, the economic impact revealed is dramatic: a total annual 
cost to just one airline of $53.2 Million in 1993, alone.
---------------------------------------------------------------------------
    \1\ Woolsey, S.D., Economic Impact of the FAA's ``Age 60 Rule.'' 
1993. Copy available on request.
    I make no claim to any expertise as an economist. But observing 
that no such analysis had been made by any qualified parties, I set out 
to apply my personal knowledge of the air carrier pilot's career and 
eventual retirement to the question. This analysis is the result of 
that effort.
    \2\ See additional discussion under ALPA and Age 60, below, for 
specific references.
---------------------------------------------------------------------------
    To place these findings in context, recall that Julius Maldutis of 
Salomon Brothers had noted in 1992 that airline industry losses over 
the prior two years had obliterated all the profits made since the 
``Wright brothers spun the first wooden prop,'' and the Air Transport 
Association (ATA) was projecting a $1.7 Billion loss for 1992. In this 
difficult economic environment, I felt that the FAA had a positive 
obligation to lessen financially onerous regulatory impacts wherever 
possible. One such area was in flight crew utilization.
    The FAA's Age 60 Rule, I discovered, imposes a heavy economic 
burden on the entire aviation industry by unnecessarily shortening the 
productive careers of the safest, most experienced, and most 
expensively trained pilots. Should this Rule be altered (preferably 
eliminated altogether) to permit those healthy and motivated airmen at 
this airline who choose to remain ``in grade'' as pilots, rather than 
being forced to retire, or fall back to the lesser flight engineer 
position on their 60th birthday, and just 30 percent of those eligible 
did so, United would realize these savings in 1993:
Real Permanent Savings (costs):

 
 
 
 
Staffing levels:.........................  $2,251,320.00 (savable in
                                            1993)
Pay differentials:.......................  $16,380,000.00 (savable in
                                            1993)
 

Temporarily Deferred Expenditures (costs):

 
 
 
 
Training costs:..........................  $34,579,124.00 (deferrable in
                                            1993)
1993 Total Savable/Deferrable:...........  $53,210,444.00 (annual cost)
 

    At 5 percent net from receipts, $53.2 Million in savings represents 
annual revenues of $10.6 Billion. Moreover, for this one carrier alone, 
these savings will easily exceed $250 millions over 5 years, largely 
through savings in transition training costs--which are available to 
all carriers!
    Altering the Age 60 Rule to permit extended careers for those 
healthy and capable airmen who are so motivated, would provide similar 
economic benefits to the entire aviation industry in a multitude of 
ways: (i) to the individual airlines through deferral of transition 
training steps and longer amortization of training costs, (ii) to the 
individual pilots through enhanced career choices, (iii) enhanced 
safety by extending the careers of the industry's safest airmen, and 
(iv) reduced costs that can be passed on to the consuming public!
The FAA and Age 60:
    Despite its clear an unequivocal knowledge to the contrary (see 
Airline Pilots and Age 60, below), the FAA has consistently publicized 
the Rule as being ``in the interest of safety'' made necessary by 
``medical uncertainties'' that increase, indeed accelerate, with 
advancing age. But these arguments were/remain nothing more than a 
disingenuous ``cover'' to hide the Rule's true beginning--money--as 
suggested by the FAA's Office of Chief Counsel. (Enacted initially to 
enable a single Air Carrier (American Airlines) to better manage its 
transition training costs, the Rule is today vigorously defended by the 
Air Line Pilots Association (ALPA) to protect and enhance the 
promotional opportunities (thus financial welfare) of its junior 
members--who now constitute a voting majority in their union.)
    Even as originally instigated by the CEO of American Airlines (C.R. 
Smith), it was pure economics that was ``justified'' with operational 
arguments--neither medical nor safety. Smith wanted to replace his 
(American's) original barnstorming era Captains with younger, military 
trained pilots because he was introducing jet powered aircraft (the 
Boeing 707) into his fleet. Smith's argument to the FAA's Administrator 
(Retired Gen. Elwood Quesada, a long-time, personal friend) was data 
showing that these younger, ``especially selected; for intelligence'' 
pilots required less transition training time (i.e., less cost), into 
these new-fangled aircraft than did the older line pilots. (Source: 
``Dear Pete'' note to ``General Elwood Quesada, Washington, D.C.,'' 
dtd. 30 Apr, 1959, three pages, with notation ``Mail to home 
address:''), and that he (Smith) had just lost both a labor grievance 
and a bruising, 20 day pilots strike on the issue, thus needed a 
federal regulation to save his skin.
        . . . It appears obvious that there must be some suitable agre 
        [sic] for retirement. It appears equally obvious that as men 
        become older the result of the usual physical examination 
        becomes less conclusive.
    (Source: Letter, Smith to Quesada, Smith's personal letterhead, 
dtd. 5 February, 1959) \3\
---------------------------------------------------------------------------
    \3\ This letter from C.R. Smith (and the ``memo'' referenced 
immediately above) were retained in the files of Dr. Homer Reighard, a 
major participant in the preparation of the Rule, and later Federal Air 
Surgeon. When Dr. Reighard retired in 1984, he was permitted to take 
these letters, and other materials related to the Rule, its formation 
and history with him. During a civil suit under the Freedom of 
Information Act, Civ. Action No. 85-1943, (D.C., D.C., 1985), the court 
found that this release had abrogated agency privilege with respect to 
these materials, and ordered them released.
    Other materials similarly released by this order and referenced in 
this statement are identified as ``From Reighard files.''
---------------------------------------------------------------------------
    Within days, Quesada had ordered that two proposals be prepared: 
(1) maximum age of 55 for transition into jet aircraft, and (2) 
mandatory retirement at age 60. Smith's ``transition time'' data was 
fashioned into ``charts,'' and a hand-picked panel of medical experts 
was convened to lend ``authority'' to the effort. Shown Smith's data/
charts,these experts refused to endorse the first proposal--limit 
transition into the new aircraft to age 55--but did endorse a temporary 
maximum age of 60. (FAA Staff Memorandum, Acting Civil Air Surgeon to 
Administrator, Medical Resume of the Advisory Panel on Aging Meeting, 
June 8, 1959. From Reighard files.)
    Four months later, the same data/charts were presented to the FAA's 
General Counsel's office for their review. Their legal conclusion was 
that the data would not support even the age 60 limitation. The lawyers 
then recommended that the charts be abandoned, and future presentation, 
if any must be made, should focus on ``such medical data as is 
available concerning deteriorations in specific functions such as a 
reaction time, glare tolerance, night visual acuity, learning times, 
accuracy of learning, etc.'' (FAA Staff Memorandum, Chief, Medical 
Standards Division to Civil Air Surgeon, Review of Aging Charts by the 
Staff of the General Counsel's Office, Oct. 9, 1959. Emphasis added. 
From Reighard files.)
    FAA published the Rule on December 5, 1959, just ten months (to the 
day) following Smith's ex parte request, falsely (some would say 
fraudulently) bundled with ``medical trappings''--not in the interest 
of either medicine or safety, but ``on advice of counsel.'' One year 
later, Quesada left the FAA and immediately became a Director on 
Smith's (American's) BOD. (Ruppenthal, K.M., Compulsory Retirement of 
Air Line Pilots, 14 Indus. & Lab. Rel . . . Rev. 528, (1961)
Airline Pilots and Age 60:
    Even the FAA asserts, voluntarily, after decades of its own 
research, that airline pilots, as a group, are essentially purged of 
the pathologies that contributes to higher rates of medical 
disqualifications than the general population. Yet, it was by reference 
only to ``generally understood'' information that the Rule was 
proposed, and eventually enacted.
        . . . Despite the fact that knowledge of the aging process 
        specifically related to piloting aircraft is incomplete, 
        certain applicable observations have been made and generally 
        understood.

        Physical deterioration with age can, for the most part, be 
        attributed to a progressive degenerative process termed 
        arteriosclerosis, a condition affecting blood vessels in a 
        manner quite compatible to the progressive accumulation of 
        scale and rust in water pipes.
    24 Federal Register 5247, June 27, 1959.
    Since that inauspicious beginning, the medical community has 
studied the health and fitness of airline pilots ad infinitum. And 
found consistently, as did the National Institutes of Health (NIH), the 
National Institute on Aging (NIA), and the Institute of Medicine (IOM) 
in August, 1981, that ``there is no convincing medical evidence to 
support age 60, or any other specific age, for mandatory pilot 
retirement.'' (Report of the National Institute in Aging Panel of the 
Experienced Pilots Study, Department of Health and Human Services, 
Public Health Service, National Institutes of Health, National 
Institute on Aging, August, 1981. At 2, emphasis added, underlining in 
the original.) See also Besco, R.O., A Longevity and Survival Analysis 
for a Cohort of Retired Airline Pilots, FAA Contract No. 92-P-13371, 
1994; MacIntyre, N.R., et al, Longevity in Military Pilots: 37-Year 
Followup of the Navy's ``1000 Aviators,'' Aviat., Space & Environ. 
Med., September 1978, 49(9):1120-1122;
    In 1961, just one year after the Age 60 Rule had been instituted, a 
prestigious aeromedical research institute in Albuquerque, NM (The 
Lovelace Foundation) received funding from the NIH for a long-term 
study of ``normal human aging.'' Ignoring the ``generally understood'' 
principles referenced by the FAA when preparing the Rule, Lovelace 
restricted its study population to civilian test pilots, military 
pilots, and air carrier pilots because they considered this cohort to 
consist of
        a highly select group [being] more free of serious pathology 
        that a sample of the general population of similar age . . . . 
        Furthermore, pilots are subjected routinely to periodic re-
        examination which provides a basis for followup and extended 
        longitudinal studies.
    House Report No. 2080, Better Management Needed of Medical Research 
on Aging, Committee on Government Operations, 89th Congress, 2d. Sess., 
September 26, 1966, at 19.
    The NIH added that ``air transport pilots represent less of an 
attrition of drop-out problem in a protracted study than almost any 
other adult group in the normal population with a comparably wide age 
range.'' (Id., at. 23.)
    Lovelace's initial tests of this group revealed that these 
individuals were physiologically much younger than their chronological 
ages, suggesting that the FAA's age 60 rationale was invalid on its 
face. When this became known, FAA's Federal Air Surgeon first sought to 
convince the Foundation to abandon its study of older pilots, and 
concentrate on younger ones, instead. (Letter, P. V. Siegel, M.D., 
Federal Air Surgeon to A. H. Schwichtenberg, M.D., Head, Dept. of 
Aerospace Medicine and Bioastronautics, The Lovelace Foundation, dtd. 
January 12, 1967. From Reighard files.) When Lovelace refused, and 
seeing strong legal challenges to his Rule forthcoming (Internal FAA 
Memo, Gordon K. Norwood, AM-200 to AM-1 [Dr. Siegel], dtd. 30 July, 
1969, from Reighard files), Dr. Siegel engineered a ``hatchet job'' on 
the Lovelace study by a personal friend (Letter, C. I. Barron, M.D., 
Medical Director of Lockheed-California Company (a personal friend of 
Dr. Siegel's) to Peter V. Siegel, M.D., Federal Air Surgeon, dtd. May 
1, 1969, from Reighard files), leaked this ``report'' to NIH (Letter, 
John P. Sherman, Ph. D., Deputy Director, NIH to Peter V. Siegel, M.D., 
Federal Air Surgeon, dtd. Jan. 27, 1970, from Reighard files), 
whereupon NIH terminated its funding for the Lovelace study. (Ibid.)
    With the threatened legal challenge looming (later to become 
O'Donnell v Shaffer, 491 F.2d 59 (D.C. Cir., 1974)), FAA asked NIH for 
a copy of the ``Site Review Committee Report,'' the basis for NIH 
terminating the Lovelace study funding. Citing the confidentiality of 
its internal records and peer review program, NIH refused--observing 
that it believed the FAA was well aware of the contents of the site 
review report (from FAA's own earlier analysis), and wanted a hard copy 
only for use in its defense of a court challenge to the Age 60 Rule. 
(Ibid.) Unable to secure this useful report from NIH, FAA ``lost'' the 
entire 1959 ``docket'' on which the Rule had been based, instead. (FAA 
Memorandum, Louise Coomes, AGC-24 to Associate General Counsel, 
Regulations and Codification Division, Subject: Missing Regulatory 
Dockets 40, 41 and 42, dtd., July 11, 1973.)
    Over the next two decades, however, (1971 through 1988) the FAA 
came to agree with Lovelace (but without admitting the relationship) on 
the health of air carrier pilots after studying their airman medical 
certification (and disqualification) data. (c.f., Booze, C.F., 
Characteristics of Medically Disqualified Airmen Applicants During 
Calendar Year 1971, FAA Office of Aviation Medicine, AM-74-5, May 1974; 
Dark, S.J., Medically Disqualified Airline Pilots, FAA Office of 
Aviation Medicine, AM-84-9, August 1984; Downey, L.E., Dark, S.J., 
Medically Disqualified Airline Pilots in Calendar Year 1987 and 1988, 
FAA Office of Aviation Medicine, AM-90-5, June 1990.) In each paper, 
the FAA's Civil Aeromedical Institute researchers declared that:
        prescreening by airline companies before employment [as air 
        carrier pilots] and FAA requirements for the issuance of a 
        first-class medical certificate result in [airline pilots] 
        being essentially purged of disease prevalence that contributes 
        to higher rates [of medical disqualifications than] other 
        groups. (e.g., Dark, 1984, at 2, emphasis added)
ALPA and Age 60:
    Today, the Air Line Pilots Association (ALPA) is (aside from the 
FAA) the only major support for retaining the Rule unchanged. ALPA's 
public position, simply stated is that raising (or eliminating) the 
fixed retirement age would compromise ``the public interest in ensuring 
the highest degree of safety.'' Nothing could be further from the 
truth. Neither the statement that raising the age to 65 would 
compromise ``safety in the public interest'' nor that ALPA's opposition 
to S. 1855 is based on that premise.
    By imposing a ``date certain'' retirement upon its senior members,. 
the Age 60 Rule guarantees somewhere between 6 or 8 and 20 promotional 
advancements for a given air carriers less senior pilots.\4\
---------------------------------------------------------------------------
    \4\ The actual number depends, primarily, upon the fleet mix of 
aircraft flown by that particular air carrier. The more different types 
of aircraft, the more promotional steps opened up as pilots move up 
from smaller to larger (higher paying) aircraft, and through the 
various cockpit seats (Second Officer to First Officer to Captain).
    A more thorough explanation of this process, estimating 16 
promotional steps resulting from the premature retirement of a single 
senior pilot at American Airlines in 1992, appears in: McCall, N.J., et 
al, A Survey of Blood Lipid Levels of Airline Pilot Applicants, Aviat., 
Space & Environ. Med., June 1992, 63(6):533-537.
    The author in Kasperzak , R.M., Mandatory Retirement of Airline 
Pilots: An Analysis of the FAA's Age 60 Retirement Rule, 33 Hastings L. 
J. 241, (1981) cites to other estimates as high as 20 promotional steps 
per senior Captain retirement.
---------------------------------------------------------------------------
    In 1959-60, ALPA membership included only Captains and Co-Pilots 
(First Officers). And historically, Captains had always dominated union 
administration and policy. Needless to say--the senior Captains' 
desires for career longevity prevailed, and the union vigorously fought 
imposition of this now 40 year-old Rule. Between 1960 and 1979, ALPA 
initiated and/or supported no fewer than eight (8) major lawsuits 
seeking to bar the enforcement of, overturn, and/or secure exemptions 
from the Rule.\5\
---------------------------------------------------------------------------
    \5\ ALPA v Quesada,  182 F.Supp. 595 (S.D., N.Y., 1960), Chew v 
Quesada, 182 F.Supp. 231 (Dist. C., D.C., 1960), ALPA v Quesada, 286 
F.2d 319 (2d Cir. 1961), O'Donnell v Shaffer, 491 F.2d 59 (D.C. Cir., 
1974), Starr v FAA, 589 F.2d 307 (7th Cir., 1978), Rombough v FAA, 594 
F.2d 893 (2d Cir., 1979), Keating v FAA, 610 F.2d 611 (9th Cir., 1979), 
and Gray v FAA, 594 F.2d 793 (10th Cir., 1979).
---------------------------------------------------------------------------
    But in the late 1960's and early 1970's, ALPA ``raided'' the 
membership of the Flight Engineers International Association (FEIA), 
the flight engineer's (Second Officer's) union--the third ``seat'' in 
the cockpit of large commercial airliners. Although sanctioned for this 
action under the Fair Labor Standards laws, ALPA prevailed as the jet 
era brought new-hire pilots into that position, displacing the original 
aircraft mechanics as flight engineers. This move, alone, swelled the 
non-Captain membership of ALPA, forever altering its political dynamic. 
The new ALPA goal became career advancement for its younger members, 
rather than career longevity for its seniors.
    In 1982, for example, TWA voluntarily began allowing its senior 
Captains approaching age 60 to ``fall back'' as Second Officers (flight 
engineers). In a hard fought contract negotiation, the new ALPA coerced 
TWA into retracting this policy. The affected pilots sued both TWA and 
their union and prevailed, winning the right to fall-back, with ALPA 
found to be in violation of its duty of fair representation, and a 
restraining order was issued against the union. (ALPA v TWA, 713 F.2d 
940 (2d Cir., 1983), affirmed, TWA v Thurston, 469 U.S. 111 (1985).)
    This ``new'' ALPA support for ``age 60'' is not difficult to 
understand. With the ``step-ladder'' seniority system in place at 
virtually all of the nation's air carriers, the guaranteed date-certain 
departure of a single senior Captain guarantees a multitude of 
promotional steps among the junior membership. (See above--estimates of 
between 6-8 and 20.)
    During a 1979 legislative attempt to raise the age limit (H.R. 
3948), ALPA was still ostensibly opposing the Rule, but covertly 
pulling every string it could to sustain it. Calling out its ``big 
guns'' (AFL-CIO), ALPA flooded the halls of Congress with an army of 
lobbyists when the Bill came to the floor for a vote and successfully 
reduced the legislative outcome to a mere ``study.'' Former 
Congresswoman Pat Schroeder (Colo), is said to have declared it one of 
the heaviest-handed muscle jobs she had witnessed.
    Testifying before the House Committee on Public Works & 
Transportation in 1979, ALPA's then President, J.J. O'Donnell declared 
that ALPA's devotion to the status quo was economic, they feared the 
imposition of a more strict medical examination (that would 
``unfairly'' catch medically unfit younger pilots), and no vote of the 
membership had been taken prior to the adoption of this position, and 
none would be taken `cause polls can be made to say anything you want. 
(At pp. 343-348.) One decade later, ALPA again proclaimed its support 
for the Rule, unchanged, and its rationale therefor, also unchanged.
    Testifying ten years later (1989) before this Committee's earlier 
hearings on Pilot Supply and Training (S. Hrg. 101-307), ALPA's then 
President, Henry Duffy, reiterated Mr. O'Donnell's negative argument 
almost verbatim. Moreover, Mr. Duffy did so with the additional 
declaration that his union cared not a whit that their position 
frustrated the (even then) admitted ``increasing demand for commercial 
airline pilots,'' that this shortage had (even then) ``hit the regional 
airlines hard,'' and that ``recent accidents [had] demonstrated the 
importance of pilot experience levels.'' (S. Hrg. 101-307 at 23.)
    But even more egregiously, Mr. Duffy also declared ALPA's refusal 
to even consider a minimal, temporary relaxation of the Rule after 
listening to, Ms. Karen Keesling, Asst. Secty. for Manpower and Reserve 
Affairs, U.S. Air Force, testify that the military was the single 
largest producer of pilots in the United States, yet was losing 
(primarily to the air carriers) ``1,000 more pilots per year than they 
train[ed]''; that this pilot drain cost the military ``in the billions 
of dollars,'' and posed the ``potential to greatly affect our 
[military] readiness posture.'' (At p. 7.)
    When his turn came before the Committee, Senator McCain asked Mr. 
Duffy if ALPA would
        . . . [j]ust explore with me the possibility of some kind of a 
        `test pilot' program, of taking a number of pilots that would 
        be interested in remaining an extra couple of years and placing 
        them under a special set of conditions concerning physical 
        examinations, et cetera.
        Would you be willing to at least explore something like that 
        with me and the other members of the Committee? (At p. 50.)
    Mr. Duffy's reply was--No.
        . . . the additional physical requirements that are going to 
        have to come with [change in the Rule], starting at age 55, or 
        whenever--at age 50--and the inaccuracy of the predictive 
        nature of these tests, are going to expose pilots [under age 
        60] to being eliminated prior to age 60 and I am not sure that 
        we are going to get a net gain out of the whole thing. (At p. 
        50.)
    Read again Mr. Duffy's reply to Senator McCain. To paraphrase:
        No. ALPA refuses to place at risk its under-age-60 pilots, some 
        of whom we know are medically unfit, so that an equal number of 
        over-age-60 pilots who have greater experience and will be 
        proven to be medically fit may continue in their careers--even 
        though doing so would alleviate a critical nation-wide shortage 
        of experienced commercial airline pilots, ease the greater 
        burden on the regional carriers, contribute to the safety of 
        the traveling public, ease a billion-dollar expense item in the 
        military budget, contribute to this Nation's military readiness 
        posture, and be in the interest of ``this Nation's national 
        security.''
    Senator McCain was left to lamely plead as a final comment: ``But I 
would like to explore it with you some more and the organization, 
because I think given the criticality of the situation [Ed: recall--
this is in 1989, not 2000], at least it is worth looking at again.'' 
(At 50.)
    At the end of yet another decade, the same 1989 issues still 
trouble us. And ALPA's intractable, arrogant and incredibly selfish 20-
year support for mandatory retirement at age 60 dictates blind 
disregard for the plight of Alaska, Wyoming, and other sparsely 
populated areas. Its opposition to S. 1855 threatens, again, to 
exacerbate a chronic shortage of experienced air carrier pilots, 
compromise safety, and cost the Nation billions--if not continue to 
negatively impact our Nation's security interests.
    ALPA's disingenuous argument opposing change to the Age 60 Rule, 
advanced on its supposed ``risk of incapacitation,'' ``unacceptable 
decrements in performance'' occurring ``at an accelerating rate'' among 
demonstrably fit and highly experienced pilots over age 60, while 
protecting even from examination its potentially un-fit members under 
age 60 should be accorded the consideration it so richly deserves. 
None.
Operational Regulations, Training, and Procedures Have Solved Any Pilot 
        Psychophysiological Deficiencies, If Such Ever Existed
    The Age 60 Rule is an operational limitation, buried in the 
operational regulations promulgated by the FAA. Moreover, it has been 
the operational studies, tests, and experiments that have devised 
solutions to the unique operational questions regarding pilot 
incapacitations that may have once existed.
Age, per se, and Aircraft Accidents:
    In the entire history of American commercial aviation, only two air 
carrier aircraft have crashed with incapacitated pilots. Both occurred 
after, not before the Age 60 rule was adopted--one in 1962, the other 
in 1966. Both pilots expired from heart attacks, but there the 
similarity ends. One pilot was 38, with no medical history, the other 
58, having hidden from the FAA for 3-4 years a heart problem. The 38-
year old pilot died on short final, during a VFR approach. The 58-year 
oldster died at altitude, before beginning an IFR (weather) approach. 
The only common factor--and actual cause of both accidents--was that 
both co-pilots were unqualified and incompetent. The FAA soon amended 
its performance (operational) standards for co-pilots, and no pilot-
incapacitation induced accidents or incidents have since occurred--
despite a multitude of in-flight pilot incapacitations, including 
deaths, even during the ``critical phases'' of flight.
Procedures, Training, and Risk:
    In 1969-70, ALPA's Flight Safety Chairman (Capt. Harry Orlady) 
collaborated with the Medical and Flight Training departments at United 
Airlines in a series of simulator exercises to address the pilot 
incapacitation problem--both sudden and subtle. During these exercises, 
United developed operational procedures to preclude accidents from 
occurring should a pilot become incapacitated (suddenly or subtly) at 
any time during flight. (Harper, C.R., et al, Study of Simulated 
Airline Pilot Incapacitation: Phase I--Obvious and Maximal Loss of 
Function, Aerospace Medicine, October 1970, 41(10):1139-1142; Harper, 
C.R., et al, Study of Simulated Airline Pilot Incapacitation: Phase II, 
Subtle or Partial Loss of Function, Aerospace Medicine, September 1971, 
42(9):946-948.) The operational procedures developed and tested during 
this series of studies have been incorporated into the FARs, and are 
now industry standards. No pilot-incapacitation induced accidents have 
been recorded since.
    The Report of the President's Task Force on Crew Compliment, July 
2, 1981, recognized the above when finding: ``[P]ilot incapacitation is 
an ever-present possibility in the cockpit, but success in dealing with 
it depends more on pilot training and procedures than [other 
factors].'' (p. 57, emphasis added.) This review of the 2-pilot vs 3-
pilot cockpit controversy was ordered by President Reagan more than 20 
years after the FAA had certified the first 2-pilot aircraft with 
minimal examination, and in the face of a federal arbitrator's ruling 
that the third pilot would contribute to safety, at least ``during the 
aircraft's introductory period.'' (Appendix E.) No pilot-incapacitation 
induced accidents have been recorded since.
    In 1984, a major review of IFALPA (International Federation of Air 
Line Pilots Associations) experience in actual, in-flight 
incapacitations, together with extensive simulator flight segments with 
``surprise'' pilot incapacitations determined that, with 35,000 
thousand pilots flying some 20.8 million flight hours annually, the 
whole of the international community would experience, statistically, 
400 years between pilot incapacitation induced accidents. (Chapman, 
J.C., The Consequences of In-Flight Incapacitation in Civil Aviation, 
Aviat., Space & Environ. Med., June 1984, 55(6):497-500.) Chapman was 
compelled to use simulator exercises to develop his ``incapacitation 
accident'' rates because none had been reported during his study's 13-
year window. Moreover, the ``actual'' time-between-accidents should be 
considerably greater, because Chapman had very conservatively 
considered: (1) that all reported ``actual'' pilot incapacitations had 
been sustained by the pilot-flying; and (2) that they had occurred at 
the ``critical point'' in the flight (i.e., on takeoff or landing) used 
in his simulator experiments. No pilot-incapacitation induced accidents 
have been recorded by IFALPA since Chapman's study was published.
    Quite simply, the Age 60 Rule is an operational issue--and, of 
course, blatant age discrimination--but not one of medicine or safety--
that has been made superfluous, if ever it was relevant, by operational 
procedures and training.
Advanced Simulation:
    The first recorded instance (of which I am ware) in which a 
``medical'' assessment of the ``pilot age'' question was begun in 1953 
or 1954, some 5 years before the Age 60 Rule was contemplated. A 
``panel'' of medical experts was appointed by the Aerospace Medical 
Association in response to a gratuitous suggestion contained in a 1952 
Presidentially directed study of airports and their surrounding 
communities. This panel's first interim report (no others can be 
located):

        expressed great interest in the possibility of using the Dehmel 
        Flight Simulator as a possible method of checking the abilities 
        of pilots in the older age range . . . . These electronic 
        devices are designed so that any flight problem can be 
        simulated under very realistic conditions. These trainers 
        reproduce the exact cockpit instrumentation and include motion 
        and sound effects. It is obvious that any procedure which can 
        be developed to appraise pilot ability on a more objective 
        basis . . . will contribute to flight safety and to a more 
        precise appraisal of changes involved in the ageing [sic] 
        process.

    Report of the Committee on Pilot Ageing [sic] and Allied Problems, 
March 30, 1954, at 3.
    Despite the (accurate) praise given here, the Dehmel simulator, 
certainly by today's standards, was an incredibly archaic device. 
Modern simulators are nothing less than state-of-the-art virtual 
reality--simulating not only motion and sound, but the more subtle 
senses of momentum, coordination, equilibrium, spatial orientation in a 
visual recreation of the ``real world,'' etc. You can take a B-747 off 
of New York's Kennedy airport, and fly ``between'' the twin towers of 
the World Trade Center! From San Francisco you can fly ``under'' the 
Golden Gate Bridge. When United's Flight 232 lost all hydraulic power 
and landed at Sioux City, Iowa, one of United DC-10 simulators was 
immediately configured to replicate, and did replicate the handling 
characteristics of the real aircraft. When, 25-30 years ago, the 
industry began to recognize ``microburst'' phenomena (severe up and 
down drafts near airport landing flight path as causing several fatal 
takeoff and landing crashes), simulators were programmed to first 
develop protective techniques, then train pilots in these avoidance 
procedures.
    Twenty years ago (1980), the FAA approved total transition training 
for air carrier pilots using ``advanced simulators. (44 Fed. Reg. 
65550-57 (Nov. 13, 1979) NPRM, Plan to Permit Additional Flightcrew 
Training in Advanced Flight Training Simulators; 45 Fed. Reg. 44176-86 
(Jun. 20, 1980) Final Rule, Advanced Simulation.) In some 18 pages of 
3-column, fine print discussion extolling the virtues of advanced 
simulator flight training of air carrier flight crews, two comments 
stand out:
        Safety. In the past few years significant developments in 
        simulator technology have made it possible to realistically 
        simulate a specific airplane and its ground and flight 
        environment. By taking advantage of the developments in state-
        of-the-art of airplane simulators, flightcrew training could be 
        upgraded from a strictly maneuver and procedures-oriented 
        program to a program where crewmembers can also gain experience 
        in dealing with abnormal flight system and environmental 
        situations.
    45 Fed. Reg. 44177, June 30, 1980 (Italics in the original.)
    and:

        15. [Public] Comment--. . . One important factor has been 
        overlooked in the study contained in the NPRM: . . . . An 
        atmosphere of complacency is prevalent while operating a 
        simulator irrespective of its sophistication . . . because of 
        the knowledge that, regardless of what mistakes are committed . 
        . . a simulator cannot crash.

        [FAA] Response--In point of fact, almost the exact opposite is 
        true. Pilots do not fly airplanes out of a sense of fear . . . 
        . If a pilot makes a tragic mistake in a simulator, the 
        simulator will dramatically simulate a crash and there is no 
        doubt as to who made the mistake. The pilot's self esteem, peer 
        pressure, and the pressure of being observed by one's employer 
        and possibly the FAA can exceed the psychological pressure of 
        flying the airplane.

    45 Fed. Reg. 44182, June 30, 1980
    What this means is that the FAA considers its advanced simulators 
to be so complete and realistic that when an air carrier pilot 
``transitions'' into a new aircraft (one in which he has never before 
flown), all of his training flights are conducted in these ``advanced'' 
simulators. Then, the first flight, the very first time this pilot 
flies the real aircraft (wings, engines, tires, bolts, etc.) the FAA 
considers the training to be so complete and adequate that he (or she) 
is permitted to do so on a revenue flight with paying passengers on 
board!
Conclusion
    There is no rational basis for retaining any vestige of the FAA's 
Age 60 Rule, and much harm flows from it. The Rule is an economic 
disaster. It is founded upon myth and deception. It is currently 
supported by raw greed. It is discriminatory. It has adversely impacted 
the national security. It rations the lifeline service available to 
rural and isolated communities as exist in Alaska, Wyoming, and other 
States in our Nation's far West.
    The Age 60 Rule should be legislated out of existence--because the 
FAA either can not, or will not face reality and do so on its own 
authority.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Slade Gorton to 
                           Nicholas L. Lacey
    Question 1. Until 1996, the FAA allowed pilots at smaller carriers 
to fly past the age of 60. Were there ever any indications that pilots 
over that age suffered incapacities or had an unacceptable decline in 
performance?
    Answer. In 1995, the FAA issued a final rule (effective March 1996) 
which transferred some air carrier operations from part 135 to part 121 
of the FAA's safety regulations. Scheduled passenger-carrying 
operations that used propeller airplanes with a passenger seat 
configuration of 10 to 30 seats or that used jet airplanes with a 
passenger seat configuration of 1 to 30 seats have moved out of part 
135 and into part 121. Part 121 generally governs air carrier 
operations of larger aircraft. Because the accident rate for part 121 
operations was smaller than the overall accident rate for part 135 
operations, it was concluded that safety would be increased by moving 
certain scheduled passenger carrying operations from part 135 coverage 
to the more demanding standards found in part 121. One of the long-
standing rules in part 121 is the Age 60 rule. Although the FAA has no 
data that indicates that pilots of smaller aircraft over age 60 
suffered incapacities in flight or had declines in performance in 
flight, there are many scientific studies that establish that people 
are more susceptible to incapacitating medical events as they age and 
that cognitive functioning declines with age. Also, as people age, 
their ability to react to situations in a timely fashion diminishes.
    Question 2. Are there any age restrictions in other modes of 
commercial transportation, such as for bus or truck drivers, train 
engineers, or captains of cruise ships?
    Answer. We are unaware of any mandatory retirement age restrictions 
imposed by governmental regulations in other modes of transportation.
    Question 3. Why have other countries determined that pilots can fly 
over age 60? Is flying overseas less safe because pilots over 60 may be 
in command? Should the FAA recommend that U.S. citizens not fly 
overseas because some foreign airlines use older pilots?
    Answer. Acceptance of age 65 by other countries (e.g. the Joint 
Aviation Authority (JAA), which governs European aviation matters) may 
be due to the submission of Dr. Ken Edgington of the United Kingdom 
(U.K.), at a hearing back in 1993 on the age 60 study, known as the 
Hilton study. He discussed risks in association with several medical 
conditions and mortality rates with to respect cardiovascular disease. 
It also discussed risk amelioration by having a second pilot on board. 
Dr. Edgington concluded that (statistically speaking), allowing one 
pilot to fly to age 65, so long as the other pilot is under age 60, has 
allowed the U.K. to meet its safety objectives, provided that no more 
than 10 percent of pilots are age 60 or over or are already flying on a 
medical waiver.
    It appears that JAA followed the U.K. philosophy when it adopted 
the age 65 approach. On the other hand, the International Civil 
Aviation Organization (ICAO) did a survey several years ago and decided 
to retain age 60 or over as the rule on the basis of replies from 
member states (over 50 percent ``voted'' to retain the rule).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Slade Gorton to 
                         Deborah McElroy (RAA)
    Question 1. What impact, if any, as been documented by your members 
regarding the change in pilot reserve rest requirements that you 
mentioned in your testimony? Were flight schedules significantly 
disrupted?
    Answer. The interpretive change in FAA policy on rest for reserve 
pilots meant that pilots on reserve began to accrue duty time for those 
days, shrinking their availability dramatically. Under the new 
interpretation, some carriers now have pilots who fly only 6 or 7 days 
in a month, yet accrue 15 or more duty days because of reserve time.
    The impact of this interpretation varies among regional carriers, 
and correlates to reserve time management practices rather than size. 
Some carriers reported no impact, ostensibly because these carriers 
called reserve pilots for duty more frequently than those airlines 
reporting an impact. Among those impacted, staffing needs increased by 
about 12 percent. Flight schedule disruptions attributable to the new 
requirements have been minimal, as impacted carriers have staffed up 
rather than allow disruptions.
    Question 2. Have regional airlines been lowering their flight time 
requirements in reaction to the high pilot attrition rate?
    Answer. Some airlines have indeed reduced the minimum number of 
hours required for in response to changing market conditions. All such 
reductions have been accompanied by enhancements in both the pilot 
selection process and airline training requirements.
    Question 3. In your testimony, you mention the investments being 
made by regional airlines in enhanced training programs. When will 
these investments pay off? How common are they among your members?
    Answer. The investments made by carriers in our industry have 
already begun to pay off. The enhanced programs provide a more 
efficient and productive training environment, which allows airlines to 
incorporate high tech training methods needed for the technically 
advanced cockpits of the new aircraft many carriers are incorporating 
into their fleets.
    RAA is aware of at least five regionals that have made such 
investments. Additionally, many others have partnered with flight 
training companies such as Flight Safety Academy and Pan Am to take 
advantage of the significant investments in flight simulators and 
computer based training that these companies have made.
    Question 4. Are you aware of any routes that have been canceled 
because of pilot attrition?
    Answer. Yes. Several carriers have had to cancel routes to 
accommodate the additional time requirements for pilot recruiting, 
selection, and training.
    Question 5. Have regional airlines had to forgo expansion plans as 
a result of pilot attrition?
    Answer. RAA does not have specific information attributable to any 
particular carrier, however, we know of several that have not been able 
to increase frequency or add new markets, due to increased pilot 
attrition. Others have cited no impact.
    Question 6. Your testimony states that your airlines spend an 
average of $13,122 in order to train a new hire, and an average of 
$12,133 in order to train a new captain. Do your airlines get enough 
return on their investment before the pilots make moves to major 
airlines?
    Answer. Regional airlines have always been one step in the natural 
career path of a pilot. Our paramount concern, when making such 
investments in training, is safety. Such training expenditures are 
necessary in order to ensure very qualified, proficient pilots for the 
safety of our passengers and crew regardless of the amount of time 
these pilots spend working for regionals. Nonetheless, training costs 
have increased exponentially, placing an added cost burden on regional 
airlines, especially among smaller carriers.
    Question 7. Is there any consensus among your members with respect 
to proposals to change the Age 60 Rule?
    Answer. No. RAA has member airlines with strong feelings on both 
sides of the rule.
                                 ______
                                 
    Response to Written Questions Submitted By Hon. Slade Gorton to 
                          Captain Duane Woerth
    Question 1. In your prepared statement, you state that, as a 
general rule, ALPA is opposed to relaxing air safety rules for economic 
purposes. Under what specific circumstances has ALPA gone against its 
general rule and supported changing a safety rule for economic 
purposes?
    Answer. There is not an instance that comes to mind when ALPA has 
knowingly supported relaxation of a safety rule for economic purposes. 
Of course, the FAA is charged with promoting rules that are cost-
effective and an economic analysis is part of any rulemaking. But the 
ALPA motto is ``Schedule with Safety'' and our general position is to 
argue for the safety benefit. We believe that our membership and the 
traveling public demand such vigilance for safety.
    Question 2. ALPA used to fight for changing the Age 60 Rule. If it 
has always been a safety issue, was ALPA just wrong before? Why the 
change of heart?
    Answer. It is true that ALPA fought the Age 60 Rule over forty 
years ago, during the period immediately after the Rule went into 
effect. But in fairness, ALPA's actions have to be put into the proper 
context. The Rule was proposed in the middle of 1959, and it went into 
effect less than a year later, in March 1960. With that limited 
warning, some ALPA members found their aviation careers ended, and 
others found their career plans changed dramatically. As a labor 
organization charged with protecting its members' career expectations, 
ALPA understandably challenged the Rule.
    But ALPA's mission has always encompassed more than just the 
economic welfare of its members. After ALPA began the process of 
negotiating revisions to collective bargaining agreements to adjust to 
the Age 60 Rule (primarily by giving up immediate income in exchange 
for deferred income, in the form of pension benefits), ALPA's members 
were able to view the Rule at a distance from the initial shock it 
imposed. From that distance, the safety implications of the Rule became 
clear, and ALPA's governing bodies changed their opposition to support.
    The simple answer to this question is that the Age 60 Rule ``has 
always been a safety issue,'' and ALPA changed its position on the Rule 
when its members were able to recognize the safety implications of the 
Rule, apart from its economic impact.
    Question 3. Many counties in Europe and Asia have increased the 
mandatory retirement age for pilots well above the age of 60. I presume 
that many if not all of these pilots are represented by unions. Did 
pilots' unions in those countries oppose changing the retirement age? 
If so, do pilots refuse to fly after the age of 60 because it is 
unsafe? If those unions did not oppose the change, why are they wrong 
on this issue? Is ALPA advocating that Americans not fly in foreign 
countries because there may be older pilots older than 60 in command?
    Answer. The International Federation of Air Line Pilots' 
Associations, which has over 90 individual country pilot unions as 
members, has a long-standing policy that a pilot should not fly in air 
transport operations past age 60. The only pilot unions that did not 
ratify this policy were Chile, Hong Kong, Iceland, Israel, Japan, 
Poland, Trinidad, Tobago and the United Kingdom. We presume that all 
other countries that ratified the policy opposed changes in their 
individual countries.
    ALPA has no information whether foreign pilots refuse to fly past 
age 60 because it is unsafe. ALPA has taken no position regarding U.S. 
pilots flying in countries where pilots older than 60 may be in command 
and U.S. pilots do fly in those countries.
    Question 4. Would ALPA be opposed to a carefully designed study 
that allowed a few U.S. pilots to fly after the age of 60 to test 
whether or not cognitive and performance capabilities drop off after 
that age?
    Answer. ALPA would not support such a study. The question is not 
whether cognitive and performance capabilities drop off after age 60. 
It is well accepted and demonstrated that cognitive and performance 
capabilities decline with age. The significant issues are the rate of 
decline and when the diminished capabilities become a flight safety 
issue. At the present time, there are not any testing protocols that 
can address successfully those issues.
    Any study that would propose to change the requirement for 
retirement at age 60 must address all relevant issues. In addition to 
the cognitive and performance capabilities mentioned in your question, 
there are medical changes that occur as a part of the aging process. 
These medical changes must also be studied and a medical appraisal 
system must be available to identify and evaluate pertinent age-related 
medical changes.

                                <greek-d>

</pre></body></html>
